<html>
<title> - CURRENT NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 113-493]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-493

                      CURRENT NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 1189                               S. 2221
 
                           S. 1389                               S. 2264
 
                           S. 1520                               S. 2293
 
                           S. 1641                               S. 2318
 
                           S. 1718                               S. 2346
 
                           S. 1750                               S. 2356
 
                           S. 1785                               S. 2392
 
                           S. 1794                               S. 2576
 
                           S. 1866                               S. 2602
 
                           S. 2031                               H.R. 412
 
                           S. 2104                               H.R. 1501
 
                           S. 2111                               H.R. 2197
 
 

                                     

                               __________

                             JULY 23, 2014


                       Printed for the use of the
               Committee on Energy and Natural Resources





                  U.S. GOVERNMENT PRINTING OFFICE
91-555                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

RON WYDEN, Oregon                    ROB PORTMAN, Ohio
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            MIKE LEE, Utah
BRIAN SCHATZ, Hawaii                 LAMAR ALEXANDER, Tennessee
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

   Mary L. Landrieu and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Baldwin, Hon. Tammy, U.S. Senator From Wisconsin.................     9
Goldfuss, Christina, Deputy Director, Congressional and External 
  Affairs, Department of the Interior, Accompanied by Carl 
  Rountree, Assistant Director, National Landscape Conservation 
  System.........................................................    12
Portman, Hon. Rob, U.S. Senator From Ohio........................     8
Smith, Greg, Acting Associate Deputy Chief, National Forest 
  Systems, Forest Service, Department of Agriculture.............    38
Udall, Hon. Mark, U.S. Senator From New Mexico...................     1
Walsh, Hon. John, U.S. Senator From Montana......................    10

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    51

                              Appendix II

Additional material submitted for the record.....................    53

 
                      CURRENT NATIONAL PARKS BILLS

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SD-366, Russell Senate Office Building, Hon. Mark Udall 
presiding.

  OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Udall. The Subcommittee on National Parks will come 
to order. Good afternoon to all of you.
    This afternoon, the Subcommittee on National Parks is 
holding a hearing to consider 23 bills covering a wide range of 
issues relating to the Federal land administered by the 
Department of the Interior and the Forest Service, including 
national park and monument designations and boundary 
adjustments, several national heritage area designations and 
reauthorizations, wild and scenic river designations, national 
trail designations, and other related issues.
    Although the agenda is lengthy, most of the bills appear to 
be non-controversial, so I am hopeful we can move through the 
bills fairly quickly.
    The purpose of this afternoon's hearing is to consider the 
administration's views on these bills and allow committee 
members an opportunity to ask any questions they may have.
    We will also include any written statements that have been 
sent to the subcommittee in the official hearing record.
    Because of the large number of bills on today's agenda, I 
will not read through the list, but at this time, I will 
include the complete list of bills in the hearing record, 
without objection.
    I would like to take a few minutes to mention two bills of 
particular interest to me. The first is S. 1794, a bill I 
introduced and is co-sponsored by Senator Bennet, to designate 
22,000 acres of public lands as the Browns Canyon National 
Monument in Chaffee County, Colorado. This would include 
designation of 10,500 acres of wilderness.
    Browns Canyon is an unique natural resource. Hundreds of 
thousands of visitors come to Browns Canyon year after year to 
raft or kayak the canyon's exciting whitewater rapids or fish 
the gold medal trout waters of the Arkansas River.
    But there is a lot more to this landscape than just the 
river. The rugged and remote lands to the east feature quiet 
canyons and rock formations, outstanding habitat for Bighorn 
sheep and elk, and sweeping views of the Collegiate Peaks in 
Arkansas Valley.
    Browns Canyon is also a vital economic resource. The 
landscape supports thousands of jobs from river outfitters and 
ranchers to the main street businesses of Salida and Bueno 
Vista, to the State economy far beyond Chaffee County.
    Outdoor recreation, including hunting and fishing, is a 
core part of my State's economy. It supports 125,000 direct 
jobs, over $13 billion in consumer spending, and nearly $1 
billion in State and local tax revenue.
    That is why I can say with confidence when we work hand in 
hand with communities to preserve public lands, we are 
supporting jobs, our economy, and Colorado's special way of 
life.
    I have spent 18 months developing this bill side by side 
with Chaffee County residents and other stakeholders. I held 
public meetings, received thousands of written comments, and my 
staff and I conducted over 50 meetings. The resulting bill is 
emblematic of how public land bills should be done, from the 
bottom up and based on what the community wants.
    Let me share a couple of the specific elements in the bill. 
No. 1, it protects existing legal uses as they are now, 
allowing fishing, hunting, boating, livestock grazing, 
commercial outfitting, water supplies, mountain biking and 
motorized use to continue uninterrupted.
    Second, it maintains the ongoing cooperative management of 
the area by the Bureau of Land Management, the U.S. Forest 
Service, and the Colorado Division of Parks and Wildlife.
    Third, it makes permanent a ban on mining for the bed and 
banks of the river, protecting water supplies, boaters and 
anglers.
    I will submit additional testimony into the written record 
for this hearing, including my intention that local ranchers 
have flexibility to run livestock in the national monument and 
transfer their grazing allotments to future generations.
    However, in short, my bill preserves this special place 
just as it is now, for us and future generations.
    The bill has a wide base of support, including over 200 
local businesses and sportsmen that welcome the area's gold 
medal trout waters and big game hunting opportunities.
    Both the Town of Buena Vista and city of Salida passed 
resolutions of support, and two of the 3 Chaffee County 
Commissioners, both Republicans, support the legislation with 
its carefully crafted conditions. The Denver Post, Pueblo 
Chieftain, and local Chaffee County Times have all come out in 
favor of my bill.
    Browns Canyon National Monument is an idea whose time has 
come, and I speak from experience. Over the Independence Day 
weekend, I rafted Browns Canyon with a group of Colorado 
veterans. Like the many other times I have visited, hiked and 
rafted Browns Canyon, I was awestruck by this special place, 
and I am not alone in my passion for Browns Canyon or my 
efforts to protect it.
    There have been many attempts over the years to protect 
Browns Canyon, including a more expansive 2006 bill led by 
Republicans and co-sponsored by the entire Colorado 
Congressional Delegation, that would have designated the entire 
area as Wilderness. Now, I look forward to working with my 
colleagues on both sides of the aisle to pass this common sense 
bill and protect Browns Canyon.
    I would also like to comment briefly on S. 2104, Senator 
Flake's bill, which I co-sponsored, to provide for 
reimbursement to those States which donated funds to keep 
certain national parks open during the government shutdown last 
year.
    When the Federal Government shut down, the State of 
Colorado used their own funds to ensure continued operation of 
the Rocky Mountain National Park. Colorado, like other States, 
did this because they knew shutting the park would have 
crippling economic effects on the towns and small businesses 
near the park.
    How Colorado is unique is that 3 weeks before the shutdown, 
the towns near Rocky Mountain National Park were hit with 
record flooding, which was already costing the community 
millions of dollars in damages and lost tourism revenue.
    After the shutdown, the State determined Estes Park and 
other cities would be devastated by the one-two punch of a 
shutdown on the heels of a flood that was sure to depress 
tourism, so the State stepped up to limit the damage associated 
with what was in my opinion an extremely poor decision to shut 
down the Federal Government.
    Regardless of how co-sponsors of this bill may view the 
utility of last year's shutdown, we all agree that our States 
should be repaid in full for the costs incurred to keep parks 
open for our constituents and visitors to our States.
    The subcommittee is also considering a related bill 
sponsored by Senator Flake, S. 1750. This bill would provide 
standing authority for States to pay to keep specified Federal 
areas open during any future government shutdown and then get 
reimbursed when Federal funds are appropriated.
    Now, in my view, there is a major policy difference between 
these two bills. S. 2104 would reimburse those States which 
stepped in to provide funding to keep certain national parks 
open to the public during the 2013 shutdown.
    Each State had negotiated an agreement with the National 
Park Service to provide State funds for specified amounts to 
keep certain parks open during the lapse of appropriations. 
Once the Federal Government reopened, the Park Service was made 
whole with Federal funds as well, and I believe it is fair and 
appropriate to reimburse the States for the funding they 
provided.
    It seems to me that the answer to solving this problem in 
the future is to avoid shutting down the government in the 
first place. In contrast, S. 1750 appears to contemplate 
additional government shutdowns. I do not believe this is a 
sound policy and I share the administration's concerns with 
this proposal.
    So, with that, at this time I would like to recognize the 
subcommittee's ranking member, my friend and probably the best 
kayaker in the Congress, Senator Portman, for an opening 
statement, and after that, turn to other members of the 
subcommittee for their statements.
    Senator Walsh, we are glad you have joined us and we look 
forward to your statement at the appropriate time.
    Senator Portman.
    [The prepared statements of Senators Stabenow, Cantwell, 
Kaine, King, Levin, and Udall follow:]
 Prepared Statement of Hon. Debbie Stabenow, U.S. Senator From Michigan
    I would like to thank Chair Landrieu for including the MotorCities 
National Heritage Area Extension Act for consideration in today's 
hearing.
    Automobiles are part of the Michigan way of life. In 1998, I was 
proud to co-sponsor the bill that established the MotorCities National 
Heritage Area in Michigan. True to its purpose, the Heritage Area has 
helped to preserve and promote Michigan's automotive and labor 
heritage. I am pleased to co-sponsor with Senator Levin the bill before 
us today, S. 2221, to extend the authority of the MotorCities National 
Heritage Area through 2030.
    Michigan has a diverse economy, but we are known around the world 
for our leadership in the automotive industry. Henry Ford, Billy 
Durant, Ransom Olds, and the Dodge brothers were among the pioneers 
responsible for vast improvements in the quality of transportation and 
production techniques and who helped to build the middle class. That 
history, and all of the innovation that continues to this day, deserves 
recognition and preservation.
    The MotorCities National Heritage Area, with funding and technical 
assistance from the National Park Service, has partnered with a broad 
set of over 30 organizations to preserve that heritage, attract 
visitors, and inspire the next generation of automobile enthusiasts and 
innovators.
    For example, it has established over 120 historical markers and 25 
exhibits on topics such as Detroit's role as the Arsenal of Democracy 
during World War II, the African American experience in the auto 
industry, and the effect of the automobile on technology development. 
It has helped restore the birthplace of the Model T and other buildings 
of historical importance, while creating new tourist attractions.
    Automotive heritage tourism events attract almost 6 million 
visitors to the region each year. Overall, the National Parks 
Conservation Association estimates that the 49 National Historical 
Areas nationwide generated $12.9 billion in economic activity while 
supporting 148,000 jobs.
    Nine of those 49 heritage areas have already had their authority 
extended. Only the Motorcities National Heritage Area is set to expire 
this year, so it is important that we pass this bill soon so the public 
can continue to enjoy the benefits of the MotorCities National Heritage 
Area.
    Thank you, Chair Landrieu.
                                 ______
                                 
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
    Thank you, Mr. Chairman, for holding this important hearing.
    I am pleased that we are moving forward today on legislation to 
establish two National Heritage Areas in Washington state--the Maritime 
Washington National Heritage Area and the Mountains to Sound Greenway 
National Heritage Area.
    These two bills are about preserving scenic, historic landscapes in 
the Pacific Northwest while promoting outdoor recreation and spurring 
economic growth in the area.
    Washington's National Park entities are a lifeline to local 
communities.
    A recent National Park Service economic impact study indicates that 
National Heritage Areas contribute almost $13 billion annually to the 
national economy and support 150 thousand jobs. On average, each 
individual Heritage Area generates almost $300 million in economic 
activity and supports about 3,000 jobs--primarily through tourism and 
visitor spending.
    Outdoor recreation in Washington state provides my constituents and 
visitors from around the country and the world a unique natural 
experience.
    There are currently 49 designated national heritage areas but none 
are located in the Pacific Northwest.
    The 3,000 miles of coastline that my bill designates as the 
Maritime Washington National Heritage Area will promote maritime-
related tourism, economic development, and share maritime history as 
told through Washington state's museums, historic ships, fishing 
culture, and other activities.
    The Mountains to Sound Greenway National Heritage Area recognizes 
1.5 million acres of land along Interstate 90 as a scenic byway and 
historic transportation corridor. Starting in the early 1800s this area 
started being used for logging, mining, and farming. Due to these 
activities, a transportation corridor developed bringing loggers, 
trappers, miners, prospectors, and their family across the Snoqualmie 
Pass to build their lives on the Puget Sound and in Seattle.
    Each of these areas helps tell the story of the development of the 
western United States. And it is important to protect these areas so 
that future generations can enjoy and learn from them.
    Not only do they tell a story, protect environmental resources, and 
spur economic growth, study after study shows us that visiting National 
Park entities can aid psychological and spiritual well-being.
    I have heard from numerous constituents about how important these 
two areas are to them.
    That is why I, along with my colleague Senator Murray, proposed 
legislation to designate these locales as National Heritage Areas.
    Designating the Maritime Washington National Heritage Area and the 
Mountains to Sound Greenway National Heritage Area will help preserve 
these places for generations to come. I look forward to working with my 
colleagues to advance this legislation.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Prepared Statement of Hon. Tim Kaine, U.S. Senator From Virginia
    Madame Chair, thank you for considering S. 1718, to authorize 
acquisition of lands to expand Petersburg National Battlefield. I have 
introduced this bill with my Virginia colleague Senator Mark Warner, 
and our Virginia colleagues Congressmen Bobby Scott and Randy Forbes 
introduced the House counterpart. I also want to recognize my friend 
and predecessor Senator Jim Webb for his original sponsorship of this 
legislation.
    Virginia is a state where history can be found everywhere you look. 
In preserving historic battlefields in Virginia and elsewhere, the 
National Park Service (NPS) seeks not just to show visitors a field but 
to immerse them in an experience. Nowhere is this philosophy more 
fitting than in Petersburg, Virginia. Rather than one battle on one 
field, the 1864 Siege of Petersburg went on for 292 days involving 
multiple changes of fortune for the Union and Confederacy over 108 
separate battles and engagements. The Union's eventual victory at 
Petersburg paved the way for the surrender a week later of Robert E. 
Lee to Ulysses S. Grant at Appomattox Court House, just upriver from 
Petersburg and an NPS historical site as well. The Petersburg campaign 
was also significant for the key contributions of members of the U.S. 
Colored Troops. Some 15,000 of the 187,000 African Americans who served 
in uniform for the Union served at Petersburg, and 15 of the 16 Medals 
of Honor awarded to the U.S. Colored Troops during the Civil War were 
awarded for service in the Petersburg and Richmond campaigns.
    Depicting the scope of this epic struggle has long been a priority 
of NPS, as many sites important to understanding the siege are unmarked 
and in danger of being lost to development. This bill would authorize 
NPS to add 7,238 acres over 12 parcels of land to Petersburg National 
Battlefield, making it the largest Civil War historic battlefield in 
the nation. This legislation strictly specifies that land acquisition 
will be either from private donations or from willing sellers at fair 
market value. The bill also addresses a priority of the Army in 
executing two land transfers between Petersburg National Battlefield 
and the adjacent Fort Lee.
    Though it would be worth preserving these hallowed lands for their 
historic significance alone, Virginia prides itself as a state that is 
good for business, and Civil War tourism is a thriving source of 
economic activity. According to a study by the Virginia Tourism 
Corporation, Civil War tourists stay twice as long and spend double the 
money of typical tourists. Of out-of-town visitors interviewed at 20 
battlefields, two-thirds were visiting the area specifically to see the 
battlefield, and three-quarters said they would visit other Civil War 
sites while in the area. According to the latest NPS data, more than 
591,000 people visited Petersburg Battlefield, spending more than $11 
million and supporting some 150 local non-NPS jobs. The benefits of 
historic tourism to local communities and small businesses is also why 
I and my colleague from Mississippi, Senator Thad Cochran, introduced 
legislation (S. 916) earlier this year to reauthorize the American 
Battlefield Protection Program.
    On the historic battlefields of the Civil War, American troops 
demonstrated the meaning of freedom, particularly the thousands 
fighting for their own. Passage of this legislation will ensure that 
the historic deeds done in and around Petersburg are fully commemorated 
for posterity.
                                 ______
                                 
    Prepared Statement of Hon. Angus King, U.S. Senator From Maine, 
                        on S. 1520 and H.R. 2197
    Mr. Chairman--I would like to offer testimony in support of S. 1520 
and H.R. 2197 to amend the Wild and Scenic Rivers Act to designate 
segments of the York River in Maine and its associated tributaries for 
study for potential inclusion in the National Wild and Scenic Rivers 
System. I am eager to see the results of a study and whether or not a 
Wild and Scenic designation would be appropriate for the York River.
    The York River consists of 109 miles of streams and rivers banked 
by various habitats that support rare and endangered species. Based on 
the findings from a reconnaissance survey conducted by the Northeast 
Regional Office of the National Park Service in 2013, it is very likely 
that segments of the York River exhibit the free-flowing character and 
noteworthy natural, cultural and recreational resource values likely to 
meet the eligibility criteria for inclusion in the National Wild and 
Scenic Rivers System.
    The survey also found that the strong presence of community and 
interest group support for a Study, along with a demonstrated track 
record of natural and cultural resource protection, provide a strong 
indication that a Wild and Scenic Rivers Study would be appropriate and 
productive. Among these community stakeholders are the elected 
officials of the towns of York, Kittery, Eliot, and South Berwick (the 
four towns through which the river flows); the Greater York Region 
Chamber of Commerce; York Land Trust; York Water District; York 
Shellfish Conservation Commission; York Country Club; Great Works 
Regional Land Trust; Eliot Historical Society; Kittery Land Trust; 
Maine Coast Heritage Trust; Gundlow Company; and numerous other 
businesses and conservation and historical groups.
    However, a study is a critical step in determining what challenges 
a Wild and Scenic designation may pose to infrastructure upgrades, 
development, existing commercial and recreational activities and on 
activities concerning energy production and transmission 
infrastructure, and on the authority of state and local governments to 
manage those activities, and other impacts not listed here but listed 
in the bill. Determining these impacts is an important step forward in 
considering a Wild and Scenic designation.
    Thank you for your time and efforts in chairing this hearing. I 
hope that my colleagues can join me in support of this study and will 
give this bill every consideration. I look forward to the results of 
the Wild and Scenic Rivers Study that would be provided by passage of 
this bill.
    Mr. Chairman, this concludes my prepared remarks.
                                 ______
                                 
 Prepared Statement of Hon. Carl Levin, U.S. Senator From Michigan, on 
                          S. 2221 and S. 2293
                               on s. 2221
    Thank you, Chairman Udall and Ranking Member Portman for holding 
this hearing on the MotorCities National Heritage Area Extension Act. I 
also want to thank Senator Stabenow for co-sponsoring the measure and 
as a member of this subcommittee for championing the bill through the 
committee process.
    The MotorCities National Heritage Area, also referred as the 
Automobile National Heritage Area, was established on November 6, 1998 
through legislation Congressman Dingell and I introduced with 
bipartisan co-sponsorship. This heritage area spans across 16 Michigan 
counties and includes nearly 1,200 auto-related resources, celebrating 
the rich automotive and labor history of our country. Michigan is a 
magnet for car enthusiasts and history buffs around the globe and 
MotorCities helps them learn about our history and celebrate it with 
us. When visitors come to Detroit to see where Henry Ford first built 
the Model T or to Lansing to learn about the rise of Oldsmobile, the 
existence of the Motor Cities National Heritage Area enhances their 
visit.
    By connecting hundreds of auto-related organizations and raising 
awareness about these sites through its education and publications, the 
visibility and impact of the resources are multiplied. The investment 
of MotorCities through its grants and other assistance leverages 
additional funding; every dollar in federal grants is matched on 
average by more than five dollars. Federal support has been critical to 
ensuring that historic resources are preserved and restored, telling 
the story of an industrial sector that is an integral part of our 
nation's history.
    On October 1, 2014, this assistance will no longer be available 
unless Congress extends the authority for MotorCities to receive 
federal funding, which is what my legislation would accomplish. 
Specifically, this bill would provide an additional 16 years of 
authority for MotorCities to be eligible to receive federal funding. If 
this bill or a similar measure is not enacted, the MotorCities heritage 
area federal funding authority would be sunset. We cannot allow that to 
happen.
    MotorCities' work in assisting the sites in the area, as well as 
coordinating and promoting auto-related events, has resulted in vital 
economic development that has benefitted the region. Over a million 
people visit the MotorCities NHA each year, resulting in an economic 
impact to the region of over $150 million.
    We cannot afford to let an organization that preserves one of 
America's greatest stories and boosts economic development to falter by 
eliminating the federal support that is so helpful to its work. Thank 
you for holding this hearing, and I hope you will quickly advance this 
legislation to the full Senate.
                               on s. 2293
    Thank you, Chairman Udall and Ranking Member Portman for holding 
this hearing on the National Scenic Trails Parity Act (S. 2293). I was 
pleased to join Senator Baldwin in sponsoring this legislation that 
involves three trails, the North Country, Ice Age, and New England 
National Scenic Trails (NSTs).
    The National Scenic Trails Parity Act would correct an 
inconsistency in the Park System's treatment of its NSTs by designating 
all of the NSTs as units of the National Park System (NPS). Currently, 
three of the six NSTs are treated by the Park Service as units of the 
NPS, while the remaining three are not. It was never the intent of 
Congress to treat a subset of the NSTs differently from others in the 
national trails system. All of the NSTs should be treated in the same 
way, including in designing and printing NPS trail brochures, accessing 
funding by non-profit associations, and promoting the trails through 
NPS promotional materials. This legislation would correct the long-
standing disparate treatment of these trails, and would allow these 
trails to be on an equal footing with the Appalachian, Natchez Trace, 
and Potomac Heritage National Scenic Trails.
    I have been particularly focused on the North Country NST, which is 
the longest off-road hiking trail in the country, traversing seven 
states and covering 4,600 miles. The longest segment of the trail is in 
Michigan, with 1,150 miles of trail. Hundreds of miles of the trail 
have been constructed and maintained by volunteers. In 2013, over one 
thousand volunteers provided over 77,000 hours of their time, which is 
equal to $1.7 million in work. We owe it to these volunteers to ensure 
the North Country NST is treated as an equal to other NSTs and provide 
it with the recognition it deserves.
    This legislation is a common-sense bill that simply corrects a 
discrepancy in the Park Service's administration of its trails. There 
is no cost to this legislation and this committee and the full Senate 
should approve it without delay. Again my special thanks to Senator 
Baldwin for leading this effort and thanks for holding this hearing. I 
look forward to the enactment of this important legislation.
                                 ______
                                 
   Prepared Statement of Hon. Mark Udall, U.S. Senator From Colorado
    As Chairman of the National Parks subcommittee, I submit this 
written testimony to further clarify key provisions related to 
livestock grazing in my bill to designate the Browns Canyon National 
Monument and Wilderness, S.1794. As stated at the hearing, my intention 
is that local ranchers maintain flexibility to run livestock in the 
National Monument and transfer their grazing allotments to future 
generations.
    To meet that intention, I included ranching as a purpose of the 
monument and stated that all existing laws continue to apply after the 
monument is designated, which includes transferability. The bill also 
states that ``there shall be no curtailment of grazing in the National 
Monument or Wilderness simply because of a designation under this 
Act,'' and refers to the standards set by appendix A of the report of 
the Committee on Interior and Insular Affairs of the House of 
Representatives accompanying H.R. 2570 of the 101st Congress (H. Rept. 
101-405) and H.R. 5487 of the 96th Congress (H. Rept. 96-617), herein 
referred to as ``appendix A.''
    Appendix A is a common-sense document, and it is my intention that 
it be implemented in a way that maximizes flexibility and adaptability 
to changing technology. For example, Appendix A clearly allows the 
maintenance of existing facilities such as fencing. However, if 
ranchers choose to implement new technology that reduces the visual 
effect of fencing but meets the same purpose--such as ``invisible'' or 
``virtual'' fencing--it is my intention that these improvements proceed 
under Appendix A.
    Colorado's farms and ranches are a critical part of my state's 
economy and identity and produce food and fiber for the world. In 
particular, cattle ranching plays a critical role in the economy, 
culture, and heritage of the Arkansas River Valley. Therefore, it is my 
intention that the Browns Canyon National Monument and Wilderness 
support that industry and educate visitors about its role.

          STATEMENT OF HON. ROB PORTMAN, U.S. SENATOR 
                           FROM OHIO

    Senator Portman. Thank you, Mr. Chairman. You know, from 
the Senate's best mountain climber, that is quite a compliment.
    This is an important hearing because we get to look at a 
bunch of different pieces of legislation, some have been talked 
about already today, and I know Senator Walsh is going to talk 
about others.
    There are 24 bills, I think, before us. My sense is they 
are mostly non-controversial, maybe all are. I look forward to 
getting started on that. I do not have any bills before the 
subcommittee.
    I will thank the chairman and the chair of the full 
committee, Senator Landrieu, for their work on the World War II 
Memorial Prayer Act, which was just signed into law by the 
President about two and a half weeks ago. I think this is going 
to really enhance the World War II Memorial.
    It allows the D-Day Prayer that Franklin Roosevelt spoke on 
that momentous day to be part of the World War II Memorial, 
something I have worked on for a while, and it is a beautiful 
prayer for those of you who do not know it.
    Again, I want to thank my colleagues and the subcommittee 
staff, David Brooks and Kaleb Froehlich, for helping us to get 
to that point.
    I want to talk about the parks for a second. We have a neat 
opportunity coming up because as you know, the Centennial is 
upon us, and in 2 years, the parks celebrate a 100 year 
birthday. Unfortunately, some of the parks look that old and 
have a lot of deferred maintenance needs, and although we have 
done a good job in some areas to try to combat that, in others, 
we have not addressed it.
    We have some work to do, and I think we should use this 100 
year anniversary to formulate a bipartisan approach that holds 
the parks up and talks about the grandeur of our parks, but 
also in the process of commemorating the Centennial, helps to 
prepare them for the next century.
    Again, we have plenty of challenges, with tight budgets and 
with a lot of deferred maintenance. A great opportunity, I 
think, to use this. I know Senator Udall is interested in that, 
and we look forward to working with him and others on that.
    If we look back, since 1916, there has been a lot of 
changes and a lot of growth, huge growth with the parks. We 
have been able to restore in some cases some beautiful areas, 
and in other areas, protect them.
    I was just this past weekend at Cuyahoga Valley National 
Park, which is our biggest park in Ohio. Most years, one of the 
top ten parks in the country in terms of visitation. You 
probably have not been there yet.
    Senator Udall. I have not.
    Senator Portman. Have to get you there. You cannot mountain 
climb there but you can kayak there.
    It is a great example of a suburban, urban, rural park. It 
does a lot of interpretive work. Jane and I were there visiting 
with the new superintendent, who is very impressive, and also 
with the head of the Friends Group, which is called the 
Conservative for Cuyahoga Valley National Park, and also with 
one of the chief interpreters, and we got to see their new 
canal interpretive center, and they have done a great job with 
that.
    It is just an example of a park that is really serving the 
needs of a population area in northeast Ohio that does not have 
necessarily access to some of the big parks out west but has 
the ability to go to Cuyahoga Valley, and people use it.
    So, that is what we have to be sure we are encouraging for 
the next 100 years so we continue to have these tremendous 
assets and these gems.
    I think again this is a good opportunity today to get 
through some important bills, but also I hope we will hear from 
some folks about how to encourage something big on the 
Centennial and being able to connect even more people to our 
national parks.
    It is good to have Senator Walsh with us today, and I will 
turn it back to the chairman to introduce the witnesses.
    Senator Udall. Thank you, Senator Portman. Senator Baldwin, 
did you have an opening statement or comments you would like to 
share?

         STATEMENT OF HON. TAMMY BALDWIN, U.S. SENATOR 
                         FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman, for convening us, 
and Ranking Member Portman.
    I listened with great interest to each of your opening 
statements, and it is so clear how important these local and 
national resources and jewels are.
    I remember several times, although many years ago, rafting 
through Browns Canyon. It is a big favorite of mine. But 
listening to how much each of you enjoy the outdoors, I wanted 
to highlight two bills that are on the agenda today.
    The first relating to the Apostle Islands area in Lake 
Superior, where I would invite Senator Portman to come 
kayaking, it is some of the best kayaking around, and also some 
of our long distance trails, where I would invite both of you, 
but certainly you, Senator Udall, to come hiking.
    I am delighted to have the chance to hear later from our 
witnesses on two bills that are very important to my home State 
of Wisconsin.
    The first is S. 2031, which would add an historic 
lighthouse located in Ashland, Wisconsin, into the nearby 
Apostle Islands National Scenic Lakeshore. The Coast Guard 
currently manages the lighthouse, and a few years ago, they 
went through a public process to find a new caretaker for the 
structure. None emerged other than the National Park Service.
    Local park staff at the Apostle Islands already manage 8 
lighthouses in the Lakeshore, and together with the Ashland 
light, they are a national treasure, and a treasure in our 
northern communities of Ashland and Bayfield.
    This bill would allow this local icon to be preserved, and 
the bill is supported by my colleagues in the Senate and by 
bipartisan members of the Wisconsin Delegation in the House of 
Representatives. I am really pleased that we are able to 
address this local priority in the committee today.
    The second bill that I would like to highlight is S. 2293, 
the National Scenic Trails Parity Act, which addresses a long-
standing disparity in treatment among the 6 national scenic 
trails managed by the Park Service. Of these 6 trails, 3 were 
declared units through an administrative process, and 3 operate 
with many of the features but not the full array of benefits of 
the unit trails.
    This bill would resolve the issue, and the Ice Age Trail, 
North Country, and New England National Scenic Trails would 
receive parity with the other full trail units. This would 
allow them to compete for resources and be included on 
interpretive materials distributed by the Park Service staff, 
and be eligible for foundation funding sources.
    Senators from the North Country and New England National 
Scenic Trails have joined me as original co-sponsors of this 
bill, which would ensure that these spectacular trails can 
fully serve the public in the agencies' second century.
    I thank you again, Mr. Chairman and Ranking Member.
    Senator Udall. Thank you, Senator Baldwin. Senator Walsh, 
it is an honor to have you here. We will be eager to hear your 
testimony. Senator Portman and I are trying to place this 
wonderful photograph here, and I am assuming you will tell us 
where that is and probably draw us to your great State of 
Montana to experience it directly.
    Senator Walsh.

          STATEMENT OF HON. JOHN WALSH, U.S. SENATOR 
                          FROM MONTANA

    Senator Walsh. Thank you, Chairman Udall, for holding this 
important hearing on the East Rosebud Wild and Scenic Rivers 
Act.
    The East Rosebud Creek begins high up in the Absaroka-
Beartooth Mountain Wilderness, and flows to the Yellowstone 
River. It is one of the most spectacular places in Montana, and 
that is what the picture represents there today.
    This bill will designate two sections of the creek totaling 
approximately 20 miles under the Wild and Scenic Rivers Act of 
1968. The Act has a special place in Montana history, having 
been drafted and championed by the famous Craighead brothers, 
biologists, who researched grizzly bears and other species.
    Private developers proposed tapping the East Rosebud Creek 
3 separate times for power. Three times the proposals have been 
shelved.
    Earlier this year, I met with constituents about the wild 
and scenic'' designation. They came to Washington to explain 
why they are so passionate about keeping East Rosebud the way 
it is today.
    I followed up with a large public meeting in Billings, 
Montana, and I was overwhelmed by the broad support of the 
designation in the community, and so I introduced this bill, 
but I cannot say that I am surprised by the support. Protecting 
the free flowing nature of the creek means that the creek will 
continue to attract people from around the world to enjoy its 
Class 5 whitewater kayaking, and I stress Class 5 whitewater 
kayaking.
    [Laughter.]
    Senator Walsh. If they are not kayaking, they will be out 
fishing for wild brown trout.
    Protecting the East Rosebud means we will keep drawing 
backpackers to the famous Beaten Path Trail that crosses the 
Beartooth plateau, all the way to Cooke City. It means keeping 
a free flowing creek for the rock and ice climbers who flock to 
the many walls of the East Rosebud.
    All those visitors stay in local hotels, eat in local 
restaurants, and shop in local small businesses--in Billings, 
Roscoe, Columbus, and Red Lodge. The bottom line is that this 
bill is good for the local economy.
    I can also tell you that 100 percent of the proposed land 
for designation is already Federal land. This bill does not 
impact private land around East Rosebud at all. I also 
confirmed with the U.S. Geological Survey that there is no 
potential for oil and gas development under the land in 
question. In fact, many of the Montanans who enjoy the East 
Rosebud have good jobs in the oil, gas and mining industries 
elsewhere in the State of Montana.
    So, this bill will change very little in how the Federal 
land under the designation is administered. What it would do 
and what Montanans want is to protect the free flowing and 
pristine nature of the creek against future diversions and 
dams.
    Recreational uses like hunting, kayaking, and fishing would 
not be impacted, nor would agricultural uses, such as grazing, 
which occurs today, with no harm to the outstanding remarkable 
values of the creek.
    No Montana rivers have been added to the National Wild and 
Scenic Rivers System since 1976, almost 40 years. East Rosebud 
Creek is the place to start. It will be good for jobs, good for 
Montana's outdoor heritage, and it is widely supported by the 
community.
    Mr. Chairman, thank you for allowing me to make these 
comments.
    Senator Udall. Senator Walsh, thank you for those comments 
and thank you for sharing this marvelous place and this 
important opportunity we have to protect and preserve this 
area.
    I do not know if Senator Baldwin or Senator Portman have 
any questions for Senator Walsh.
    I would add that rock climbers are out there but ice 
climbers are certifiable.
    [Laughter.]
    Senator Udall. Senator Portman and I were looking with 
great interest at the kayaker in this wonderful photograph, and 
that is some serious boating that individual is undertaking. We 
want to make sure that opportunity----
    Senator Walsh. We would be happy to get Senator Portman out 
there to kayak.
    Senator Udall. He would be happy, I know, to visit Montana, 
and we are also going to invite him to Colorado, to Browns 
Canyon, although he may have already tried Browns Canyon 
because he has kayaked many a river.
    Thank you again. You are welcome to stay, but I know you 
have a busy day. We will excuse you if that is what you need to 
do. So, thank you for being here.
    Senator Walsh. Thank you.
    Senator Udall. As Senator Walsh departs, I think I would 
like to call our witnesses to the table, and we will look 
forward to their testimony.
    Welcome, the two of you. We have been joined by Ms. 
Christina Goldfuss. She is the Deputy Director, Congressional 
and External Affairs, of the National Park Service, Department 
of the Interior. I understand it is her first time appearing 
before the committee. We welcome you.
    Ms. Goldfuss. Thank you.
    Senator Udall. We have also been joined by Mr. Gregory 
Smith, who is the Director of Lands, Forest Service, Department 
of Agriculture.
    Ms. Goldfuss, why do we not start with you? The floor is 
yours.

STATEMENT OF CHRISTINE GOLDFUSS, DEPUTY DIRECTOR, CONGRESSIONAL 
 AND EXTERNAL AFFAIRS, DEPARTMENT OF THE INTERIOR, ACCOMPANIED 
   BY CARL ROUNTREE, ASSISTANT DIRECTOR, NATIONAL LANDSCAPE 
                      CONVSERVATION SYSTEM

    Ms. Goldfuss. Thank you. Thank you for having me today, Mr. 
Chairman, and for the opportunity to present the Department of 
the Interior's views on 22 bills on today's agenda.
    I am accompanied today by Carl Rountree, who is the 
Assistant Director for the National Landscape Conservation 
System, and will be happy to answer questions on S. 1794, the 
Browns Canyon National Monument and Wilderness Act, which is 
also on the agenda.
    I would like to submit our full statements on each of these 
bills for the record and summarize the department's views. It 
is a long list.
    Senator Udall. Without objection.
    Ms. Goldfuss. I will run through it as quickly as possible. 
To start, the department supports the following 12 bills: H.R. 
412, which would authorize a study of the Nashua River and two 
tributaries for potential inclusion in the National Wild and 
Scenic Rivers System.
    S. 1389 and H.R. 1501, which would authorize a special 
resource study of the Prison Ship Martyrs' Monument, New York 
City.
    S. 1520 and H.R. 2197, which would authorize a study of the 
York River for potential inclusion in the National Wild and 
Scenic Rivers System.
    S. 1718, which would modify the boundary of the Petersburg 
National Battlefield. S. 1785, which would modify the boundary 
of the Shiloh National Military Park, and establish Parker's 
Crossroads Battlefield as an affiliated area of the National 
Park System.
    S. 1866, which would extend the authority of the Adams 
Memorial Foundation to establish a memorial in the District of 
Columbia. S. 2031, which would adjust the boundary of the 
Apostle Islands National Lakeshore to include the Ashland 
Harbor Breakwater Light.
    S. 2264, which would designate two World War I memorials, 
including one at Pershing Park in the District of Columbia, and 
S. 2356, which would adjust the boundary of the Mojave National 
Preserve.
    The reasons for our support for these bills are explained 
in our full statements. For several of the bills we are 
requesting amendments, and we would be happy to work with the 
committee on those.
    Regarding S. 2576 and S. 2602, which would establish the 
Maritime Washington and Mountains to Sound National Heritage 
Areas in the State of Washington, and Title I of S. 1641, which 
would designate the Appalachian Forest National Heritage Area, 
the department supports the objectives of these bills.
    However, the department recommends that Congress pass 
National Heritage Area program legislation before designating 
any additional new Heritage Areas.
    The department would support, if amended, S. 1189, which 
would adjust the boundaries of Paterson Great Falls National 
Historical Park to include Hinchliffe Stadium.
    Regarding S. 2111, S. 2221, and Title 2 of S. 1641, which 
would extend the authority for funding for 4 National Heritage 
Areas, the department recommends amending these bills to 
authorize an extension for Heritage Area program funding until 
such time that the National Park Service has completed an 
evaluation and report on the accomplishments of the areas, and 
the future role of the National Park Service, and until 
National Heritage Area program legislation is enacted.
    The department takes the same position for S. 2318, which 
would extend the authority for the commission of the Erie 
Canalway Heritage Corridor.
    The department does not object to S. 2293, which would 
clarify the status of the North Country, Ice Age, and New 
England National Scenic Trails as units of the National Park 
System.
    Regarding S. 2104, which would refund the States funds that 
were used to reopen and temporarily operate units of the 
National Park System during the October 2013 shutdown, because 
the department does not currently have the authority to make 
these payments, Congress would have to pass this legislation in 
order to provide the department with this authority.
    The department recommends that the committee defer action 
on S. 2346, which would amend the National Trails System Act to 
include national discovery trails and designate the American 
Discovery Trail, until such time as private sector partners are 
able to demonstrate the capacity to support such an endeavor 
and level of public backing necessary to ensure its continued 
success.
    Finally, the department strongly opposes S. 1750, which 
would authorize the Secretaries of the Interior and Agriculture 
to enter into agreements with States to provide for continued 
operations during times when they are unable to maintain a 
normal level of operations due to a lapse in appropriations.
    We disagree with the idea of enacting any laws to try to 
lessen the impact of a future government shutdown for a few 
select governmental activities rather than protecting all such 
activities by avoiding a lapse in appropriations.
    Mr. Chairman, Senators, this concludes my statement. Mr. 
Rountree and I would be pleased to answer any questions that 
you might have.
    [The prepared statements of Ms. Goldfuss follow:]
      Prepared Statements of Christina Goldfuss, Deputy Director, 
Congressional and External Relations, National Park Service, Department 
                            of the Interior
                              on h.r. 412
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on H.R. 
412, a bill to amend the Wild and Scenic Rivers Act to designate a 
segment of the Nashua River and its tributaries in the Commonwealth of 
Massachusetts for study for potential addition to the National Wild and 
Scenic Rivers System, and for other purposes. This bill passed the 
House on June 23, 2014.
    The Department supports enactment of this legislation with 
amendments. The river segments and tributary areas proposed for study 
exhibit the types of qualities and resource values that would make it a 
worthy and important candidate for potential addition to the National 
Wild and Scenic Rivers System. However, we feel that priority should be 
given to the 24 previously authorized studies for potential units of 
the National Park System, potential new National Heritage Areas, and 
potential additions to the National Trails System and National Wild and 
Scenic Rivers System that have not yet been transmitted to Congress.
    H.R. 412 directs the Secretary of the Interior to study a 19-mile 
segment of the mainstem of the Nashua River, except for a 4.8-mile 
segment that is currently the subject of a Federal Energy Regulatory 
Commission (FERC) licensing proceeding for an existing hydroelectric 
facility (Pepperell Hydro Company, P-12721). It is the Department's 
understanding that this excepted segment would appropriately allow the 
FERC to complete the ongoing licensing proceeding without the delay 
that a Wild and Scenic River Study would otherwise impose. As specified 
in the bill, the study would include unnamed tributaries of the Nashua 
River along the segment designated for study, in addition to the two 
named tributaries, the Squannacook and Nissitissit Rivers. The bill 
requires the study to be completed and transmitted to Congress within 
three years after funding is made available for it. We estimate the 
cost of the study to be approximately $300,000, based on similar 
studies recently conducted by the National Park Service (NPS).
    The Nashua River, once severely polluted, played an important role 
in the nation's river conservation history by inspiring support for 
both the state and federal Clean Water Acts. The transformation of the 
Nashua from a neglected and polluted waterway to one which now boasts 
the Oxbow National Wildlife Refuge, regionally significant paddling and 
fishing opportunities, a remarkable protected greenway system, and 
other important natural and cultural values, is a remarkable success 
story. The Squannacook and Nissitissit Rivers are two of eastern 
Massachusetts' most significant remaining cold-water trout fisheries.
    The Northeast Regional Office of the NPS recently completed a 
reconnaissance survey of the Nashua River at the request of 
Representative Niki Tsongas, the sponsor of H.R. 412. The survey 
provided a preliminary evaluation of the approximately 27.5 miles of 
river that would be studied under H.R. 412 as a step toward a full Wild 
and Scenic River Study. The findings of the survey indicate that 
segments of the Nashua River exhibit the characteristics and resource 
values likely to meet eligibility criteria for inclusion in the 
National Wild and Scenic Rivers System. In addition, over the course of 
the past four years, the NPS has responded to interest and inquiries 
from local advocates and town officials regarding a potential Wild and 
Scenic Rivers study for the Nashua River, and there appears to be 
strong local support for protecting the river system.
    If enacted, the National Park Service intends to undertake the 
study in close cooperation with the affected communities, the relevant 
agencies of the Commonwealth of Massachusetts, the U.S. Fish and 
Wildlife Service, and interest groups such as the Nashua River 
Watershed Association through a partnership-based study approach. The 
partnership-based approach is recognized in Section 10(e) of the Wild 
and Scenic Rivers Act as a means of encouraging state and local 
governmental participation in the administration of a component of the 
National Wild and Scenic Rivers System. The partnership-based approach 
also allows for development of a proposed river management plan as part 
of the study, which helps landowners and local jurisdictions understand 
their potential future roles in river management should Congress decide 
to designate part or all of the rivers being studied.
    Although the Wild and Scenic Rivers Act requires the development of 
a comprehensive river management plan within three years of the date of 
designation, it has become the practice of the National Park Service to 
prepare this plan as part of a study of potential wild and scenic 
rivers when much of the river runs through private lands. This allows 
the National Park Service to consult widely with local landowners, 
federal and state land management agencies, local governments, river 
authorities, and other groups that have interests related to the river 
prior to determining if the river is suitable for designation. Early 
preparation of the plan also assures input from these entities as well 
as users of the river on the management strategies that would be needed 
to protect the river's resources.
    As passed by the House, H.R. 412 includes certain requirements for 
the study which we recommend deleting. These requirements include 
determining the effect of the designation on existing commercial and 
recreational activities and on activities concerning energy production 
and transmission infrastructure, and on the authority of state and 
local governments to manage those activities. They also include 
requiring the identification of any authorities that would compel or 
permit the Secretary of the Interior to include or participate in local 
land use decisions or place restriction on non-federal lands, or that 
could be used to condemn property. And, they include requiring the 
identification of all private property located in the study area. The 
purpose of conducting a study is to determine whether a river meets the 
established criteria for eligibility for the National Wild and Scenic 
Rivers System. We believe that the existing criteria used for making 
that determination result in a sufficient amount of information and 
analysis of the effects of a Wild and Scenic River designation. The 
additional requirements included in these bills could potentially 
increase the cost of the study and the time required to complete it.
    This concludes my prepared remarks, Mr. Chairman. I would be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                               on s. 1189
    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1189, a bill to adjust the boundaries of Paterson Great Falls 
National Historical Park to include Hinchliffe Stadium, and for other 
purposes.
    The Department would support S. 1189 if amended as described later 
in this statement. The inclusion of Hinchliffe Stadium within the park 
boundary would facilitate the National Park Service's role in 
preserving and interpreting a nationally significant cultural resource 
associated with the history of African-American achievement and racial 
integration.
    S. 1189 would amend the enabling legislation for Paterson Great 
Falls National Historical Park to include Hinchliffe Stadium, one of 
the few remaining stadiums in the country to have hosted Negro League 
baseball, within the park boundary. The stadium is located on 
approximately 6 acres of land adjacent to the existing park boundary. 
The park currently encompasses a large portion of the Great Falls 
Historic District, which is composed of resources associated with 
Paterson's industrial history. By including the stadium within the park 
boundary, this iconic property would be brought under the provisions of 
the park's enabling act that authorize the National Park Service to 
enter into cooperative agreements to identify, interpret, restore, and 
provide technical assistance for preservation of the property. As 
introduced, the bill would also authorize the National Park Service to 
accept the donation of the property.
    Hinchliffe Stadium, an historic 10,000-seat Art Deco structure, was 
built as a public works project between 1931 and 1932 and served as a 
venue for professional and amateur baseball, automobile and motorcycle 
racing, entertainment and school athletic competitions. The stadium has 
been owned and operated by the Paterson Public School District since 
1963. The School Board closed the stadium in 1996. In March 2013, four 
years after Congress authorized the Paterson Great Falls National 
Historical Park, Hinchliffe Stadium was designated a National Historic 
Landmark.
    The stadium's national significance is tied to its history as a 
Negro League Baseball venue be-tween 1932 and 1944, serving as the home 
field for the New York Black Yankees, the New York Cubans, the Newark 
Eagles and others. Hinchliffe games featured hometown favorite and 
future Hall of Famer Larry Doby, who in 1947 would become the first 
African-American ball player to integrate the American League. As cited 
in the National Historic Landmark study, Hinchliffe also derives its 
significance from its integral role in the social history of the city. 
Many of Paterson's silk and other mill workers formed teams and played 
in the stadium, making it an important part of the fabric of community 
life in industrial Paterson during the Great Depression and in decades 
beyond.
    To raise public awareness of Hinchliffe's threatened status, the 
National Trust for Historic Preservation named the stadium to its 2010 
list of America's 11 Most Endangered Historic Places and included it on 
their inaugural list of America's National Treasures. The National 
Trust has since been directly involved in seeking to preserve the 
stadium, and in establishing a Steering Committee comprised of the 
National Trust, the City of Paterson, the Paterson Board of Education, 
the Friends of Hinchliffe Stadium and the National Park Service. 
Through the efforts of the Steering Committee, approximately $1.2 
million in funding has been secured to undertake a partial restoration 
of the stadium, work that recently commenced. The restoration and 
stabilization project will identify the actions necessary to preserve 
and fully restore the stadium for future use.
    At a special meeting of the Paterson Board of Education in May 
2013, the Board voted unanimously to support legislation that would 
include the stadium within the boundary of the park, with the proviso 
that the school district not relinquish control of the stadium, require 
National Park Service acquisition of the property, or permit the 
National Park Service to acquire or manage the stadium without the 
express support of the school district.
    The Paterson Board of Education and the National Park Service are 
in agreement about the desirability of maintaining ownership of the 
stadium by the Paterson Public School District. We believe that the 
role of the National Park Service with respect to the stadium should be 
limited to providing interpretation, education, and technical 
preservation assistance. For that reason, the Department would support 
S. 1189 only if the bill is amended to prohibit the National Park 
Service from acquiring ownership of the stadium. We would be pleased to 
provide the committee with recommended language.
    We also recommend that the legislation be amended to reference an 
updated map, which would require striking ``March 2013'' and inserting 
``April 2014'' on line 14 of page 2 of the bill. And, we note that the 
word ``containing'' needs to be inserted between the words ``land'' and 
``Hinchliffe'' on line 9 of page 2.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions you may have.
                        on s. 1389 and h.r. 1501
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide the Department of the Interior's views on S. 
1389 and H.R. 1501, as passed by the House, bills to study the 
suitability and feasibility of designating the Prison Ship Martyrs' 
Monument in Fort Greene Park, in the New York City borough of Brooklyn, 
as a unit of the National Park System.
    The Department supports enactment of this legislation with 
amendments. However, we believe that priority should be given to the 24 
previously authorized studies for potential units of the National Park 
System, potential new National Heritage Areas, and potential additions 
to the National Trails System and National Wild and Scenic Rivers 
System that have not yet been transmitted to the Congress.
    S. 1389 and H.R. 1501 authorize a special resource study of the 
Prison Ship Martyrs' Monument. This study would determine whether this 
site meets the National Park Service's criteria for inclusion in the 
National Park System of national significance, suitability, and 
feasibility, and need for National Park Service management. The study 
would also consider other alternatives for preservation, protection, 
and interpretation of the resources. We estimate the cost of the study 
to range from $100,000 to $200,000, based on similar types of studies 
conducted in recent years.
    The Prison Ship Martyrs' Monument commemorates the sacrifice of 
over 11,000 patriots who died while incarcerated in British prison 
ships anchored off Brooklyn during the American Revolution. The 
monument was constructed in 1908 and is located in Fort Greene Park. 
Designed by the architect Stanford White and set in a landscape 
designed by the landscape architects Calvert Vaux and Frederick Law 
Olmsted, it is 149 feet tall and constructed of granite. Prominent 
sculptural elements were executed by Adolph Alexander Weinman. The 
monument's base includes a crypt containing some the remains of the 
prisoners recovered from the Brooklyn waterfront in the nineteenth 
century. Also, Fort Greene Park was the location of American 
fortifications during the Battle of Long Island, and has been 
classified as a ``Class A Battlefield Commemorative Property'' in the 
National Park Service Report to Congress on the Historic Preservation 
of Revolutionary War and War of 1812 Sites in the United States, dated 
September 2007.
    Construction of the monument was funded jointly by the federal 
government and the City of New York; it is currently owned by the New 
York City Department of Parks and Recreation. Both the monument and 
Fort Greene Park are contributing resources to the Fort Greene Historic 
District that is listed on the National Register of Historic Places.
    For both S. 1389 and H.R. 1501, we recommend an amendment to change 
the reporting requirement for the study from one year after enactment 
of the bill to three years after funding is made available, consistent 
with the requirements for special resource studies in the National Park 
System General Authorities Act. Further, since the name of the act has 
been enacted into law, we recommend section 1(b)(2) of S. 1389 be 
amended to reflect this.
    We also recommend that the committee act on S. 1389, rather than 
H.R. 1501. If the committee acts on H.R. 1501, we recommend an 
amendment deleting certain requirements for the study. Specifically, we 
urge deleting section 1(b)(3)(d), which would require an analysis of 
the effect of designation as a unit of the National Park System on 
existing commercial and recreational activities, and on activities 
concerning energy production and transmission infrastructure, and on 
the authority of state and local governments to manage those 
activities. We also urge deleting section 1(b)(3)(e), which would 
require an identification of any authorities that would compel or 
permit the Secretary of the Interior to influence or participate in 
local land use decisions or place restrictions on non-federal lands. 
The purpose of conducting a special resource study is to determine 
whether a resource meets the criteria for inclusion in the National 
Park System and, if it does not, to provide information on alternative 
means to protect the resource. We believe that the special resource 
study requirements under existing law result in a sufficient amount of 
information and analysis of the effects of including a resource in the 
National Park System. These additional requirements could potentially 
increase the cost of the study and the time required to complete it.
    Mr. Chairman, this concludes our prepared statement. I would be 
happy to respond to any questions about this matter.
                        on s. 1520 and h.r. 2197
    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 1520 
and H.R. 2197, bills to amend the Wild and Scenic Rivers Act to 
designate segments of the York River and associated tributaries for 
study for potential inclusion in the National Wild and Scenic Rivers 
System.
    The Department supports enactment of this legislation with 
amendments. However, we feel that priority should be given to the 24 
previously authorized studies for potential units of the National Park 
System, potential new National Heritage Areas, and potential additions 
to the National Trails System and National Wild and Scenic Rivers 
System that have not yet been transmitted to Congress.
    S. 1520 and H.R. 2197, which are substantially identical, would 
authorize the National Park Service to study 11.25 miles of the York 
River and its tributaries in York County, Maine, for potential 
inclusion in the National Wild and Scenic Rivers System. The York River 
watershed drains 33 square miles located almost entirely in the 
communities of Eliot, Kittery, and York, and flows into the Gulf of 
Maine through York Harbor. We estimate the cost of the study to be 
approximately $300,000, based on similar studies recently conducted by 
the National Park Service (NPS).
    The York is a small, highly scenic, and very historic watershed. 
Navigable portions of the York and its tributaries offer excellent 
recreation for small powerboats, canoes, and kayaks. The ecological 
resources of the York and its importance to the Gulf of Maine have been 
recognized through the close association with the nearby Wells National 
Estuarine Research Reserve. York Harbor and the York River were 
essential to the early commercial activity of the region and many 
important historic sites from the 18th and 19th Centuries have been 
documented and preserved.
    The Northeast Regional Office of the NPS recently completed a 
reconnaissance survey of the York River at the request of 
Representative Chellie Pingree, the sponsor of H.R. 2197. The survey 
provided a preliminary evaluation of the approximately 11 miles of 
river that would be studied under S. 1520 and H.R. 2197 as a step 
toward a full Wild and Scenic River Study. The findings of the survey 
indicate that segments of the York River exhibit the characteristics 
and resource values likely to meet eligibility criteria for inclusion 
in the National Wild and Scenic Rivers System. In addition, over the 
course of the past four years, the NPS has responded to interest and 
inquiries from local advocates and town officials regarding a potential 
Wild and Scenic Rivers study for the York River, and there appears to 
be strong local support for protecting the river system.
    If enacted, the NPS intends to undertake the study in close 
cooperation with the affected communities, interested organizations, 
and relevant agencies of the State of Maine through a partnership-based 
study approach. The partnership-based approach is recognized in Section 
10(e) of the Wild and Scenic Rivers Act as a means of encouraging state 
and local governmental participation in the administration of a 
component of the National Wild and Scenic Rivers System. The 
partnership-based approach also allows for development of a proposed 
river management plan as part of the study, which helps landowners and 
local jurisdictions understand their potential future roles in river 
management should Congress decide to designate part or all of the 
rivers being studied.
    Although the Wild and Scenic Rivers Act requires the development of 
a comprehensive river management plan within three years of the date of 
designation, it has become the practice of the NPS to prepare this plan 
as part of a study of potential wild and scenic rivers when much of the 
river runs through private lands. This allows the NPS to consult widely 
with local landowners, federal and state land management agencies, 
local governments, river authorities, and other groups that have 
interests related to the river prior to determining if the river is 
suitable for designation. Early preparation of the plan also assures 
input from these entities as well as users of the river on the 
management strategies that would be needed to protect the river's 
resources.
    Both H.R. 2197 and S. 1520 include certain requirements for the 
study which we recommend deleting. These requirements include 
determining the effect of the designation on existing commercial and 
recreational activities and on activities concerning energy production 
and transmission infrastructure, and on the authority of state and 
local governments to manage those activities. They also include 
requiring the identification of any authorities that would compel or 
permit the Secretary of the Interior to include or participate in local 
land use decisions or place restriction on non-federal lands, or that 
could be used to condemn property. And, they include requiring the 
identification of all private property located in the study area. The 
purpose of conducting a study is to determine whether a river meets the 
established criteria for eligibility for the National Wild and Scenic 
Rivers System. We believe that the existing criteria used for making 
that determination result in a sufficient amount of information and 
analysis of the effects of a Wild and Scenic River designation. The 
additional requirements included in these bills could potentially 
increase the cost of the study and the time required to complete it.
    This concludes my prepared remarks, Mr. Chairman. I would be happy 
to answer any questions you or other committee members may have 
regarding this bill.
                               on s. 1641
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1641, a bill to establish the 
Appalachian Forest National Heritage Area, and for other purposes.
    The Department supports the objectives of Title I of S. 1641, which 
would designate the Appalachian Forest National Heritage Area. This 
area has been found to meet the National Park Service's interim 
criteria for designation as a National Heritage Area. However, the 
Department recommends that Congress pass program legislation that 
establishes criteria to evaluate potentially qualified National 
Heritage Areas and a process for the designation, funding, and 
administration of these areas before designating any additional new 
National Heritage Areas.
    Regarding Title II, which provides for the extension of funding 
authority for the National Coal Heritage Area and the Wheeling National 
Heritage Area, the Department recognizes the important work that has 
been done by the organizations involved with both national heritage 
areas. However, we recommend that Title II be amended to authorize an 
extension for both heritage areas' program funding until such time as 
the National Park Service (NPS) has completed an evaluation and report 
on the accomplishments of the area and the future role of the NPS; and 
until national heritage area (NHA) program legislation is enacted that 
standardizes timeframes and funding for designated national heritage 
areas.
    The NPS is initiating phase-in of a funding formula for NHAs, which 
is a merit-based system for allocating heritage area funding that 
considers a variety of factors based upon criteria related to program 
goals, accountability, and organizational sustainability. When fully 
implemented, the performance-based funding formula plan will reward NHA 
entities that bring in additional non-Federal investment and that have 
developed a sustainability plan. The Department would like to work with 
Congress to determine the future federal role when national heritage 
areas reach the end of their authorized eligibility for heritage 
program funding. We recommend that Congress enact national heritage 
area program legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides their designation and 
administration as a national system. National heritage area program 
legislation would provide a much-needed framework for evaluation of 
proposed national heritage areas, guiding planning and management, 
clarifying roles and responsibilities, and standardizing timeframes and 
funding for designated areas.
    Title I of S. 1641 would establish the Appalachian Forest National 
Heritage Area encompassing 16 counties in northeastern West Virginia 
and two counties in western Maryland, a region that has a rich history 
of human activity shaped by the geography of the forested central 
Appalachian Mountains. The proposed local coordinating entity would be 
the Appalachian Forest Heritage Area, Inc., a non-profit organization 
that currently coordinates forest-related heritage tourism activities 
in this region. The provisions in this bill are similar to provisions 
in most of the other NHA designation bills that have been enacted in 
recent years, including a total authorization of $10 million and a 
sunset date for the authorization of funding 15 years after the date of 
enactment.
    The Appalachian Forest Heritage Area, Inc. prepared a feasibility 
study for designation of the area as a national heritage area several 
years ago. The National Park Service reviewed the study and found that 
it met the NPS interim criteria contained in National Heritage Area 
Feasibility Study Guidelines. The Appalachian Forest Heritage Area, 
Inc. was informed of this finding in a letter dated August 16, 2007.
    The area encompassed by the proposed NHA is a significant part of 
the central Appalachian highlands that has a long history of timber 
harvesting, forest management, and the production of forest products. 
It is an area that provided resources for industrial expansion in the 
late 19th and early 20th Centuries, but where large portions of the 
forests have regrown. Areas within the proposed NHA include the 
Monongahela National Forest, portions of the George Washington National 
Forest, the Canaan Valley National Wildlife Refuge, and the Seneca 
Rocks-Spruce Knob National Recreation Area, along with a large number 
of state forests and parks and areas protected by nonprofit 
conservation organizations. The extensive hardwood forests and 
undeveloped rural character of the area provide scenic vistas, 
opportunities for nature observation, and outdoor recreation 
opportunities.
    There are also numerous historic and cultural sites within the 
area, such as historic sites from the logging era and Civilian 
Conservation Corps structures. It is an area well-suited to demonstrate 
the connection between forest and forest products, and the folklife, 
music, dance, crafts, and traditions of central Appalachia. Designation 
as a NHA would help the region realize the full potential of the 
cultural, natural, historic, and recreational resources of the region.
    Title II of S. 1641 would extend the authorization of funding for 
the National Coal Heritage Area until September 30, 2017. The National 
Coal Heritage Area was established in 1996 by Public Law 104-333. Its 
funding authorization, which expired in 2012 under that law, has been 
extended through appropriations acts through September 30, 2015. In 
total, the NHA has received approximately $3.6 million, and every 
federal dollar has been matched at least once with non-federal funds or 
in-kind services.
    The National Coal Heritage Area spans 13 counties in the 
Appalachian Mountains of West Virginia and includes significant 
resources such as coal mines, camps, company stores, train depots, 
memorials, parks, National Register Districts, and trails. Its mission 
is to preserve, protect, and interpret historic, cultural, and natural 
resources associated with West Virginia's coal mining heritage to 
stimulate tourism and economic development, enhancing the quality of 
life for residents. The NPS is currently concluding an evaluation of 
this NHA, as required under Public Law 110-229.
    Title II would also extend the authorization of funding for the 
Wheeling National Heritage Area until September 30, 2017. The Wheeling 
National Heritage Area was established in 2000 by Public Law 106-291. 
Its funding authorization will expire under that law on September 30, 
2015. In total, the NHA has received approximately $9.7 million of the 
total $10 million authorized to be appropriated, and every federal 
dollar has been matched in accordance with its enabling act.
    The Wheeling National Heritage Area encompasses significant 
historic and cultural resources in and around City of Wheeling, West 
Virginia, including many that are National Historic Landmarks or listed 
on the National Register of Historic Places. Wheeling played an 
important role in the development and establishment of a multitude of 
industries in the United States that facilitated the Nation's 
expansion. The NHA helps preserve the city's Victorian architecture, 
waterfront park, historic city markets, and renovated industrial 
buildings.
    We recommend a technical amendment to the Title II heading and to 
the section subheadings to make it clear that the bill would extend the 
authorization for federal funding for the two national heritage areas, 
instead of reauthorizing the national heritage areas. While both 
National Coal and Wheeling face sunset dates for their federal funding, 
their national heritage area designations will not sunset.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or any other members of the subcommittee may 
have.
                               on s. 1718
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1718, a bill to modify the boundary of Petersburg National 
Battlefield in the Commonwealth of Virginia, and for other purposes.
    The Department supports S. 1718.
    S. 1718 would authorize two modifications to the boundary of 
Petersburg National Battlefield. First, the bill would expand the 
currently authorized boundary of Petersburg National Battlefield by an 
additional 7,238 acres. The boundary expansion proposal results from an 
analysis of ``core battlefields'' and a subsequent boundary adjustment 
study conducted as part of Petersburg National Battlefield's General 
Management Plan completed in 2005. Second, the bill would effect a land 
exchange between the Secretary of the Interior and the Secretary of the 
Army involving approximately one acre under the each Department's 
administrative jurisdiction.
    The City of Petersburg lies in the corridor of intensive growth 
from Washington, D.C., to south of Richmond, Virginia. The region 
surrounding Petersburg National Battlefield has been and is currently 
experiencing significant development pressures impacting areas 
immediately adjacent to the park and unprotected battlefield sites. 
This development not only threatens park resources and public 
enjoyment, but also the core portions of the battlefields. The park 
commemorates the Petersburg Campaign, the longest sustained combative 
military front on American soil, in both time and distance. When 
Congress created the park in 1926, only a fraction of the battlefield 
acreage associated with the 26 major battles of the Petersburg Campaign 
was included in the original boundary. The additional battlefields 
proposed to be added to the park by S. 1718 will allow the public to 
better understand the size, complexity, and duration of the 9+ month 
Petersburg Campaign and siege while offering protection to existing 
park resources.
    In January 2002, in response to significant development pressures 
in the region surrounding the park and as part of its General 
Management Plan process, Petersburg National Battlefield undertook a 
detailed assessment of battlefields in the Petersburg Campaign cited in 
the Civil War Sites Advisory Commission (CWSAC) report of 1993 entitled 
``Report on the Nation's Civil War Battlefields.'' The CWSAC report 
identified 100,000 acres of the Petersburg battlefields as ``core 
battlefields'' encompassing all of the critical phases defined for a 
battle. Of the 100,000 acres cited, 23,000 acres were determined to 
retain historic integrity.
    During its more detailed analyses of the 23,000 acres, the park 
concentrated on those portions of the battlefields that were south of 
the Appomattox River and directly associated with the siege or defense 
of Petersburg, and that were identified as Class A (decisive) and Class 
B (major) by the CWSAC. Additionally, the park used historical maps and 
documentation to further refine the acreage to that constituting the 
portion of the battlefield on which both armies were engaged directly 
and that had a bearing on the outcome for each battle. Park staff 
further analyzed the integrity of these areas and their potential for 
public access and interpretation. The analyses found that 7,238 acres 
met the criteria for integrity and interpretability.
    The estimated time period for acquisition of the 7,238 acres of 
these nationally significant lands is 15-20 years. Virtually all of the 
land subject to the boundary adjustment represents a mixture of private 
and non-profit, organization-owned parcels. Agricultural and 
conservation easements will be the preferred method of acquisition for 
most parcels. Easements enable protection of these battlefields from 
inappropriate development while retaining private ownership and 
compatible use of the land. Where easements are not possible, and there 
is interest by the landowners, other acquisition methods, such as 
donation and fee simple acquisition from willing sellers based on 
available funding, will be utilized for battlefield preservation.
    Under a 2008 estimate, the total estimated cost of purchasing in 
fee simple all of the 7,238 acres would be $29.7 million. Protection of 
land through easements and donations, which is anticipated for a large 
portion of the lands, would likely significantly lower acquisition 
costs. The estimated cost for capital expenses (trails, wayside 
exhibits, rehabilitation of existing visitor contact station, etc.) and 
expansion-related costs (surveys, hazardous materials studies, etc.) is 
$1.9 million. Development of visitor services and interpretation at 
these new battlefield locations would be minimal and include small 
parking areas, wayside exhibits, and trail and other enhancements to 
the sites. The annual increase in park operation and maintenance is 
estimated to be $531,000. Development and operational maintenance 
numbers are in 2014 dollars. All funds would be subject to NPS 
priorities and the availability of appropriations.
    Public response to the General Management Plan and the proposed 
boundary expansion have been uniformly favorable among local 
governments, organizations, and individuals. The Dinwiddie County Board 
of Supervisors adopted a resolution supporting future legislation to 
expand the boundary of the park as outlined in the General Management 
Plan. Many civic organizations in the Petersburg region have also 
indicated support for the proposal.
    The bill would also effect a transfer of administrative 
jurisdiction between the Secretary of the Army and the Secretary of the 
Interior involving two small parcels of land. Following the attacks of 
September 11, 2001, the Army was required to erect a perimeter fence 
around Fort Lee Military Reservation, located adjacent to Petersburg 
National Battlefield. The fence intruded slightly into the boundary of 
the park. Effective upon enactment of this bill, the Army would receive 
administrative jurisdiction over the 1.170 acres of park land where the 
perimeter fence is located and the National Park Service would receive 
1.171 acres of land at Fort Lee. The Secretary of the Army is 
supportive of this provision. There is no cost associated with this 
exchange.
    Mr. Chairman, that concludes my statement. I would be happy to 
answer any questions that you or other members of the subcommittee may 
have regarding this bill.
                               on s. 1750
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to provide the views of the Department on S. 1750, a bill 
to authorize the Secretary of the Interior or the Secretary of 
Agriculture to enter into agreements with States and political 
subdivisions of States providing for the continued operation, in whole 
or in part, of public land, units of the National Park System, units of 
the National Wildlife Refuge System, and units of the National Forest 
System in the State during any period in which the Secretary of the 
Interior or the Secretary of Agriculture, is unable to maintain normal 
level of operations at the units due to a lapse in appropriations, and 
for other purposes.
    The Department strongly opposes S. 1750. We have a great deal of 
sympathy for the businesses and communities that experienced a 
disruption of activity and loss of revenue during last fall's 
government shutdown and that stand to lose more if there is another 
funding lapse in the future. However, we disagree generally with the 
idea of enacting laws to try to lessen the impact of a future 
government shutdown for a few select governmental activities rather 
than protecting all such activities by avoiding a lapse in 
appropriations. We also believe that this legislation specifically, 
with its mandate to enter into agreements to reopen public lands at the 
request of a state, would be very difficult to execute. Furthermore, we 
are concerned that agreements to have states provide funding for 
activities that are inherently Federal in nature, even for a short 
period of time, would undermine the longstanding framework established 
by Congress for the management of Federal lands under the stewardship 
of the Department.
    S. 1750 would require the Secretary of the Interior and Secretary 
of Agriculture to enter into agreements with States or their political 
subdivisions, upon their request, to accept funds to open National Park 
units, National Wildlife Refuges, Bureau of Land Management lands, and 
National Forests. The authority would be in effect only during a period 
when the Secretary is unable to operate and manage the units at normal 
levels. The bill would also provide for reimbursement for the amounts 
provided to the Secretaries to reopen the sites when appropriations are 
enacted providing retroactive funding, or when the State or political 
subdivision establishes that entrance fees were collected for the 
period covered by the agreement. If those requirements are not met, the 
Secretary would have discretionary authority to provide to 
reimbursement to the states, subject to the availability of 
appropriations.
    The desire to avoid the kind of disappointment to the public and 
disruption of economic activity that results from a lapse in Federal 
appropriations is understandable. When the partial government shutdown 
occurred from October 1 through October 16, 2013, a lot of attention 
was focused on effects of closures of national parks, national wildlife 
refuges, public lands managed by the Bureau of Land Management, and 
national forests--all places that are highly valued by the public for 
their recreational offerings and that serve as economic engines for the 
communities in which they are located.
    It was because of the critical importance of these sites that the 
Secretary of the Interior agreed to reopen several of them using 
donated funds during the partial shutdown. As the shutdown entered its 
second week, the National Park Service entered into donation agreements 
with six states to accept the donation of funds necessary to allow the 
National Park Service to temporarily reopen 13 national park units. In 
these cases, the states were concerned enough about the loss of 
economic activity associated with certain national parks to use their 
own funds to alleviate the impact of park closures.
    These agreements did help a select number of businesses and 
communities. However, they should not be held up as a model of how the 
Federal government should do business. The national parks that were 
opened during the shutdown were fortunate to be located in states that 
had the resources and political will to fund them. The National Park 
Service, the Bureau of Land Management, and the U.S. Fish and Wildlife 
Service, which all seek to treat the land units under their stewardship 
equitably, have grave concerns about enshrining in law a process that 
favors units located in states willing to donate funds to operate them 
over those located in other states.
    Furthermore, the agreements were designed to be temporary, 
emergency measures for some individual situations, and would not 
necessarily work for operating all Federal lands. Even for those sites 
where agreements might work, the potential difficulty of executing 
agreements on the scale envisioned by S. 1570-every agreement that 
every state or political subdivision requests-at a time when most of 
the agencies' staff would be furloughed, cannot be overstated. During 
last October's partial shutdown, it was an enormous burden on the 
National Park Service and the Department, with their skeletal staffs, 
to execute just six agreements to reopen 13 park units. If a large 
number of states requested such agreements for a large number of sites 
in a future shutdown, the agencies likely would not have the capacity 
to respond to all of the requests.
    The 2013 Federal government shutdown had terrible impacts for 
American citizens, businesses, communities, states, and the economy as 
a whole. These impacts are summarized in the report released by the 
Office of Management and Budget entitled ``Impacts and Costs of the 
October 2013 Federal Government Shutdown'' (November 2013). The report 
makes clear that the economic effects and disruption to lives and 
activities from the shutdown were felt far and wide. Enacting a law to 
try to avoid the impact of a future shutdown on specified activities is 
not a responsible alternative to simply making the political commitment 
to avoid a shutdown in the future by providing appropriations for all 
the vital functions the Federal government performs.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or any other members of the subcommittee may 
have.
                               on s. 1785
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1785, a bill to modify the boundary of Shiloh National Military Park 
in the States of Tennessee and Mississippi, to establish Parker's 
Crossroads Battlefield in the state of Tennessee as an affiliated area 
of the National Park System, and for other purposes.
    The Department supports S. 1785.
    S. 1785 would add three sites related to the Siege and Battle of 
Corinth to the boundary of Shiloh National Military Park. In 1991, the 
``Siege and Battle of Corinth Sites'' was designated a National 
Historic Landmark. The Corinth Battlefield Protection Act of 2000 
(Public Law 106-271) authorized the creation of the Corinth Unit, as 
part of Shiloh National Military Park, to ``interpret the Siege and 
Battle of Corinth and other Civil War actions in the area in and around 
the city of Corinth, Mississippi.'' The legislation defined a large 
partnership role with state, local, and private park partners in the 
planning, development and interpretation of the unit. The law also 
authorized a special resource study to identify and determine any other 
areas that would be appropriate for inclusion in the unit.
    The ``Corinth Special Resource Study and Boundary Adjustment 
Environmental Assessment,'' completed in 2004, identified 18 sites that 
have a high degree of integrity and significant resources that would 
provide opportunities for public enjoyment, and recommended that these 
be included in the boundary of the Corinth Unit of Shiloh National 
Military Park. In 2007, Congress amended the Corinth Battlefield 
Protection Act of 2000 (Public Law 110-161, Section 127) to expand the 
boundary of the Corinth Unit of Shiloh National Military Park to 
include 12 of those sites.
    S. 1785 would further modify the boundary of Shiloh National 
Military Park to include three of the six remaining sites identified in 
the 2004 special resource study. These three sites--the battlefields of 
Fallen Timbers, Russell House, and Davis Bridge--would contribute 
significantly to telling the remarkable story of the Union Army's 
Mississippi Valley Campaign during the Civil War, especially the Battle 
of Shiloh, Tennessee and the Siege of Corinth, Mississippi. The 
Mississippi Valley Campaign was a major milestone on the road that led 
to the final success of the Union Army in the war and the ultimate 
reunification of the nation.
    The first battlefield that S. 1785 would include in Shiloh's 
authorized boundary is Fallen Timbers. On April 8, 1862, after two days 
of fierce fighting at Shiloh, Major General Ulysses S. Grant dispatched 
Brigadier General William T. Sherman on a reconnaissance to investigate 
Confederate intentions. Sherman encountered a large Confederate field 
hospital protected by a force of Southern cavalry under Lieutenant 
Colonel Nathan Bedford Forrest in an area called Fallen Timbers. 
Sherman advanced against the Confederate force and captured the field 
hospital with its surgeons and about 250 wounded Southern soldiers and 
about 50 wounded Union soldiers that had been previously captured by 
the Confederates. After this engagement, the Confederates retreated to 
Corinth and Sherman returned to Shiloh Church. Thus, the final shots of 
the Battle of Shiloh were fired at Fallen Timbers. A cautious and 
methodical Union advance would now mark the beginning of the advance 
upon, and siege of Corinth.
    The Fallen Timbers Battlefield site consists of 468 acres of 
agricultural and forested land, a small portion of which is developed. 
The Civil War Trust has acquired approximately 270 acres of this land 
with the intention of donating it to the federal government. The 
remaining 198 acres that would be included in the boundary are in 
private ownership.
    The second battlefield that S. 1785 would include in Shiloh's 
authorized boundary is the Russell House. On May 17, 1862, during the 
advance upon Corinth, Union forces led by Major General Sherman, fought 
a Confederate brigade and compelled the southern force to abandon its 
strong outpost at the Russell House situated on the Tennessee-
Mississippi state line. Because the position possessed a great natural 
strength, Sherman's men lost no time fortifying it and driving the 
enemy further south toward Corinth.
    The pastoral setting of the Russell House Battlefield retains a 
high degree of integrity, contains the extant remains of field 
fortifications, and has high potential for archeological survey and 
research. The approximately 666-acre tract that would be included in 
the boundary is in private ownership.
    The third battlefield that S. 1785 would include in Shiloh's 
authorized boundary is Davis Bridge. On October 5, 1862, Union troops 
attacked a retreating Confederate force at Davis Bridge on the Hatchie 
River. The Federals drove the Confederates back across the river, 
seized the bridge, and charged into a thicket east of the river. 
Confederates defending the heights overlooking the crossing to the east 
inflicted heavy casualties on the Federals and checked their further 
advance, thereby permitting the defeated Confederate force to retreat 
south into Mississippi. The engagement at Davis Bridge was the last 
Confederate offensive in Mississippi.
    In 1998, a 598-acre portion of the Davis Bridge Battlefield was 
listed in the National Register of Historic Places. The bridge across 
the Hatchie River has long since washed away and the banks of the river 
have undergone erosion, but the 1,090 acres proposed to be included in 
the park boundary retain a high degree of integrity with much of the 
acreage remaining in agricultural cultivation or woodlands. The State 
of Tennessee owns approximately 845 of these acres. An approximately 
five-acre plot, which is a contributing property to the Siege and 
Battle of Corinth National Historic Landmark, has been donated to the 
National Park Service by the Davis Bridge Memorial Foundation.
    If this legislation is enacted, we anticipate that we would acquire 
the majority of land by donation and that we would not develop visitor 
services or facilities at the three sites for the foreseeable future. 
Therefore, land acquisition and development costs would be minimal. Our 
current estimate for administrative costs associated with land donation 
at the three sites is $60,000 to cover title searches, environmental 
site assessments, and closing actions.
    S. 1785 would also establish Parker's Crossroads Battlefield in the 
State of Tennessee as an affiliated area of the National Park System. 
The bill designates the city of Parkers Crossroads and the Tennessee 
Historical Commission as the management entity for the affiliated area 
and authorizes the Secretary of the Interior to provide technical 
assistance and enter into cooperative agreements with the management 
entity for the purpose of providing financial assistance for the 
marketing, marking, interpretation, and preservation of the affiliated 
area. As an affiliated area, Parker's Crossroads Battlefield would 
continue under non-federal ownership and management, but the owner 
would be required to administer the site consistent with laws 
applicable to units of the National Park System.
    Affiliated areas comprise a variety of locations in the United 
States that preserve significant properties outside of the National 
Park System. Some of these have been designated by Acts of Congress and 
others have been designated administratively. All draw on technical 
assistance or financial aid from the National Park Service.
    The Parker's Crossroads Battlefield is listed in the National 
Register of Historic Places and is significant for its role in the 
military history of the Civil War and its archeological potential to 
yield information concerning the battle. The Parker's Crossroads 
Battlefield was the final engagement of Confederate now-Brigadier 
General Nathan Bedford Forrest's West Tennessee raid of December, 1862 
which resulted in the disruption of Major General Ulysses S. Grant's 
supply lines as his army advanced towards Vicksburg. Forrest's raid and 
the simultaneous destruction of Grant's supply depot at Holly Spring, 
Mississippi, caused Grant to end his overland campaign against 
Vicksburg.
    Since the battle, the area has remained largely in agricultural 
fields and forests consistent with its appearance in 1862, and the site 
retains a high degree of integrity. It is likely that the site contains 
physical remnants of the battle which can provide information 
concerning troop movements and areas where primary fighting occurred. 
The site is known to contain the remains of soldiers who were killed 
during the fighting and other burials may have also occurred there.
    We recommend amending both of the map references in S. 1785 to 
allow for more current maps to be substituted. We would be happy to 
provide the committee with recommended language and updated maps. We 
may also suggest some technical amendments.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or any members of the subcommittee may have.
                               on s. 1866
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1866, a bill to provide for an extension of the 
legislative authority of the Adams Memorial Foundation to establish a 
commemorative work in honor of former President John Adams and his 
legacy.
    The Department supports S. 1866 with two amendments.
    This bill would extend to December 2, 2020, the authorization for 
establishing a memorial in the District of Columbia or its environs to 
honor President John Adams and his legacy.
    The authority to establish the John Adams memorial was originally 
enacted on November 5, 2001. The Adams Memorial Foundation (Foundation) 
requested that the subject of the commemoration be determined to be of 
preeminent and lasting significance to the nation so that the proposed 
memorial might be placed in Area I, a request that was considered 
favorably by the National Capital Memorial Advisory Commission (NCMAC) 
in 2002 and recommended to Congress. Public Law 107-315, enacted on 
December 2, 2002, granted the Foundation the additional authority to 
seek a site within Area I for the memorial.
    Authorizations under the Commemorative Works Act (CWA) have a 
seven-year sunset period, which extends from the date Area I authority 
is granted by Congress, to allow time to obtain a building permit and 
begin construction of a memorial. The Foundation was unable to select a 
site, design the memorial, receive the requisite approvals, or raise 
sufficient funds for the construction of the memorial by the expiration 
of its authority on December 2, 2009, seven years after the enactment 
of the Area I authority. Public Law 111-88 extended the Foundation's 
authority until September 30, 2010, and Public Law 111-169 further 
extended it until December 2, 2013.
    With the additional seven years of legislative authority provided 
by S. 1866, the Foundation should be in a viable position to achieve 
site and design approvals as well as to raise the minimum 75 percent of 
the funds sufficient to build the memorial. Should the Foundation meet 
these thresholds, the Secretary of the Interior may exercise her 
authority under the CWA to grant an additional three-year 
administrative extension to allow the Foundation to finalize 
construction documents and raise the balance of necessary funding. The 
Department recognizes that the Foundation has worked diligently through 
the process of securing a site location within Area I, including 
appearing before the NCMAC on numerous occasions. The Area I approval 
by Congress in 2002 would continue to be valid under this proposed 
extension of authority. The Department is cognizant of the complexities 
involved in selecting a location for this memorial, and looks forward 
to continuing to work with the Foundation as it moves forward through 
this process.
    P.L. 107-62 establishes an account for the deposit of excess funds 
with the Secretary of the Treasury. The Department recommends one 
amendment that would establish the account with the National Park 
Foundation consistent with Section 8906(b)(3) of the CWA, and similar 
to authorizing laws for other memorials. The Department also recommends 
the bill be amended to clarify the disposition of excess funds should 
the authority to establish the memorial lapse. We would be glad to work 
with the Subcommittee on these two amendments.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members may have.
                               on s. 2031
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2031, a bill to amend the act to provide for the establishment of the 
Apostle Islands National Lakeshore in the state of Wisconsin, and for 
other purposes, to adjust the boundary of that National Lakeshore to 
include the lighthouse known as Ashland Harbor Breakwater Light, and 
for other purposes.
    The Department supports the enactment of S. 2031 with the 
amendments discussed below.
    S. 2031 would adjust the boundary of the Apostle Island National 
Lakeshore (Lakeshore) to include the Ashland Harbor Breakwater Light, 
thereby transferring ownership of the historic 1915 lighthouse to the 
National Park Service (NPS) from the U.S. Coast Guard in accordance 
with previously enacted legislation which mandates that any Federal 
property located within the boundaries of the Lakeshore be transferred 
to the Secretary of the Interior without further administrative action. 
S. 2031 ensures that the U.S. Army Corps of Engineers can maintain the 
breakwater, and, in accordance with the terms of the previously enacted 
legislation, the U.S. Coast Guard can continue to maintain a Federal 
aid to navigation in the lighthouse. All three agencies would be 
required to cooperate in their operations so that each of their agency 
missions is served.
    Apostle Islands National Lakeshore, located on the south shore of 
Lake Superior, is responsible for the care of what renowned lighthouse 
historian F. Ross Holland, Jr., has described as ``the largest and 
finest single collection of lighthouses in the country.'' The park 
manages six historic light stations, and a total of eight standing 
light towers--more than in any other unit in the National Park System. 
All of the lighthouses currently located within the boundary of the 
Lakeshore, as well as the Ashland Harbor Breakwater Light, are listed 
on the National Register of Historic Places.
    The Lakeshore has developed into one of the premier locations in 
the National Park System for historic preservation and education 
centered on lighthouses, including interpretive programs highlighting 
the stories of light keepers and the expansion of the United Sates in 
the late 19th century through maritime commerce. In 2006, Apostle 
Islands rehabilitated the 1863 Raspberry Island Lighthouse, which is a 
very popular visitor attraction. This year, the Lakeshore is concluding 
a major historic preservation project that will rehabilitate the 1856 
Old Michigan Island Light, the oldest in the park, and significantly 
improve conditions at four other light stations.
    All of the lighthouses currently managed by Apostle Islands 
National Lakeshore were transferred from the U.S. Coast Guard to the 
National Park Service as part of a Congressionally authorized boundary 
adjustment and land transfer in 1986 that mandated that any Federal 
property located within the boundaries of the Lakeshore be transferred 
to the administrative jurisdiction of the Secretary of the Interior. At 
the time of the 1986 transfer, the future of the Ashland Light was not 
in question.
    In May 2012, the Coast Guard announced its intent to dispose of the 
Ashland Light under the National Historic Lighthouse Preservation Act 
(NHLPA). The NHLPA, enacted in 2000 as an amendment to the National 
Historic Preservation Act, provides a public process for the disposal 
of Federally owned historic light stations by allowing them to be 
transferred at no cost to Federal agencies, State and local 
governments, nonprofit corporations, educational agencies, and 
community development organizations. The first step is the 
determination of the property as ``excess to service requirements'' by 
the U.S. Coast Guard and its identification as a historic structure. 
This determination is reported to the General Services Administration 
and notice is given that applications may be made for the structure. If 
an application is accepted, the lighthouse is simply transferred to the 
applicant subject to compliance with requirements to maintain the light 
and make it available to the public.
    No public or private entity, aside from the NPS, expressed interest 
in obtaining and maintaining the Ashland Light through the NHLPA 
process. However, as the Ashland Light is not within the existing park 
boundary, a boundary adjustment is needed to clarify that the property 
will be administered as part of the park.
    The Ashland Light sits in Lake Superior's Chequamegon Bay, less 
than two miles offshore of the small city of Ashland, Wisconsin. The 
tower is visible from most of the city's waterfront, and the light 
shines brightly at night. Images of the Ashland Light are everywhere in 
the city; they adorn the logos of the local newspaper, the Chamber of 
Commerce, and many local businesses. Few residents, however, have 
actually visited the Ashland Light or understand the vital role it 
played in one of the busiest ports on Lake Superior a century ago.
    The Ashland Light is currently in fair condition, but its long-term 
survival as part of the nation's maritime heritage is not assured. The 
NPS and the local community are optimistic that the condition could be 
improved and appropriate visitor educational opportunities could be 
provided in the future if the Ashland Light were managed as part of 
Apostle Island National Lakeshore. With the addition of the Ashland 
Light, the NPS would manage all of the nationally significant historic 
lights in the region, further enhancing the park's role in historic 
lighthouse preservation and education.
    The Department would recommend two amendments.
    The Department recommends deleting the portion of the amendment 
made in Section 2 that provides buffer zone language. The park boundary 
adjustment in S. 2031 includes only the lighthouse itself, not any of 
the waters of the Bay. The NPS has no authority to manage or permit 
activities outside of park boundaries. Fishing, boating, snowmobiling, 
and all other existing uses of the Bay's waters are not affected by 
this bill. The buffer zone language is unnecessary.
    The Department also recommends that the portion of Section 2 of the 
bill directing the Federal agencies to cooperate in their operations be 
amended to clarify Congressional intent. The bill does not otherwise 
alter the statutory standards or other mandates of the three agencies, 
nor does it affect the ongoing need for them to work cooperatively to 
carry out those mandates in the area, as they currently do with respect 
to other lighthouses within the boundary. We would be glad to work with 
the Subcommittee to amend the existing language to ensure that the bill 
does not affect the missions of these agencies.
    Mr. Chairman, this concludes my testimony. I am prepared to answer 
any questions from members of the Committee.
                               on s. 2104
    Mr. Chairman, thank you for the opportunity to appear before you 
today to provide the Department of the Interior's views on S. 2104, a 
bill to require the Director of the National Park Service to refund to 
States all State funds that were used to reopen and temporarily operate 
a unit of the National Park System during the October 2013 shutdown.
    S. 2104 requires the Director of the National Park Service to 
reimburse each State that provided funds to open and temporarily 
operate a unit (or units) of the National Park System in October 2013, 
when there was a lapse in appropriations for most Federal government 
activities. The bill specifies that the reimbursement shall be carried 
out using funds appropriated for the National Park Service after 
enactment of this legislation. We estimate that the cost of reimbursing 
the States would be approximately $2 million.
    From October 1 through October 16, 2013, the National Park Service, 
along with other bureaus and offices of the Department of the Interior, 
implemented a shutdown of our activities due to a lapse in 
appropriations. Under the closure determination and notice issued by 
the Director of the National Park Service, and consistent with 
applicable law, the National Park Service closed and secured all 401 
national parks across the country, suspended all activities, and 
furloughed more than 20,000 National Park Service employees.
    In response to the economic impacts that the park closures were 
having on many communities and local businesses, as the shutdown 
entered a second week, Secretary Jewell announced that the Department 
would consider agreements with Governors who indicated an interest and 
ability to fully fund National Park Service personnel to reopen 
specified national parks in their States. Six States--Arizona, 
Colorado, New York, South Dakota, Tennessee, and Utah--signed donation 
agreements with the Department to open a total of 13 park units that 
are all significant contributors to tourism in the States where they 
are located. State donations under these agreements totaled 
approximately $3.6 million. Once these agreements were signed and the 
funds were transferred, the National Park Service reopened the national 
parks in accordance with the specific agreements.
    Under the terms of the agreements, the States donated to the 
National Park Service lump sum payments in advance to cover the cost of 
operating the parks for a specific number of days. Further, these 
agreements stipulated that funds donated and used to re-open the parks 
could not be returned to the States. The employees who returned to work 
in these parks during the shutdown were paid for these days out of the 
funds donated by the States. When Congress passed a continuing 
resolution providing appropriations for the first three and a half 
months of FY 2014 on October 16, 2013, the National Park Service was 
able to resume operations on October 17, 2013, and stop charging 
employee time against the funds that had been donated by the States.
    Once the shutdown ended, the National Park Service immediately 
began the process of reimbursing the six States for the portion of 
donated funding that was not expended to operate the parks, which 
totaled approximately $1.6 million. However, the National Park Service 
does not have the authority to reimburse States for the portion of 
funding that was expended (approximately $2 million); an act of 
Congress is needed for that. S. 2104 would provide that authority. We 
would like to point out that, as written, the source of funds for 
repayment will be derived from future appropriations, not from funds 
received by the parks in FY14.
    Mr. Chairman, this concludes my testimony, and I would be happy to 
answer any questions you or other members of the subcommittee may have.
                               on s. 2111
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2111, a bill to reauthorize the Yuma Crossing National Heritage Area 
(NHA).
    The Department recognizes the important work of the Board and Staff 
of the Yuma Crossing National Heritage Area Corporation to preserve 
Yuma, Arizona, a natural crossing area on the Colorado River, and a 
landmark in America's westward expansion. We recommend that S. 2111 be 
amended to authorize an extension for heritage area program funding 
until such time as the National Park Service (NPS) has completed an 
evaluation and report on the accomplishments of the area and the future 
role of the NPS; and until national heritage area program legislation 
is enacted that standardizes timeframes and funding for designated 
national heritage areas. In this case, we note that funding is 
currently authorized for the Yuma Crossing NHA through FY 2015.
    The NPS is initiating phase-in of a funding formula for NHAs, which 
is a merit-based system for allocating heritage area funding that 
considers a variety of factors based upon criteria related to program 
goals, accountability, and organizational sustainability. When fully 
implemented, the performance-based funding formula plan will reward NHA 
entities that bring in additional non-Federal investment and that have 
developed a sustainability plan. The Department would like to work with 
Congress to determine the future federal role when national heritage 
areas reach the end of their authorized eligibility for heritage 
program funding. We recommend that Congress enact national heritage 
area program legislation during this Congress.
    There are currently 49 designated heritage areas, yet there is no 
authority in law that guides the designation and administration of new 
heritage areas as a national system. Program legislation would provide 
a much-needed framework for evaluating proposed national heritage 
areas, offer guidelines for successful planning and management, clarify 
roles and responsibilities of all parties, and standardize timeframes 
and funding for designated areas.
    S. 2111 would extend the authorization for federal funding for the 
Yuma Crossing NHA for 15 additional years, until September 30, 2030. 
The Yuma Crossing NHA was established in 2000 by Public Law 106-319. 
Since its creation, this NHA has become the nexus of the Yuma, Arizona, 
community, bringing together a multitude of partners including business 
and Quechan Indian Tribe leaders; economic development organizations; 
city, county, state, and federal government representatives; and 
members of the agricultural community to focus on improving regional 
recreation, economic development, historic preservation efforts, and 
natural resource conservation opportunities. In total, the NHA has 
received $4.2 million in federal Heritage Partnership Program funding, 
and every federal dollar has been matched at least once with non-
federal funds.
    Yuma Crossing NHA is an example of how effective collaborative 
efforts can be in supporting local communities and economies. This NHA 
has made tremendous progress over the last decade revitalizing Yuma's 
riverfront, which was once an overgrown thicket of non-native trees and 
underbrush and a corridor for illegal activities. Thanks to the work 
coordinated and accomplished by the NHA, working with the Bureau of 
Reclamation and other state and federal agencies, the Yuma Crossing NHA 
has reconnected the community to the Colorado River, created an 
extensive multi-use recreational trail system and restored more than 
400 acres of wetlands. The effectiveness of Yuma Crossing NHA in 
creating an increased sense of community for the region, expanding 
regional recreational opportunities, supporting the restoration of 
critical wetlands habitat and important community cultural assets, and 
leveraging local financial and human capital support cannot be 
overstated.
    The Yuma Crossing NHA has succeeded in leveraging its relationships 
and abilities to better the overall community. For instance, in 2008-
2009, when faced with a severe economic recession, Arizona State Parks 
contemplated closing the Yuma Quartermaster Depot and the Yuma 
Territorial Prison, both key state historical parks within the City of 
Yuma. In response to this situation, the City of Yuma and the Yuma 
Crossing NHA agreed to lease and manage the two parks, rather than see 
them shuttered. The community embraced this collaborative effort and 
demonstrated its support by donating $70,000 during the first two 
months of the parks' new management. Since then, the NHA has upgraded 
the parks' museum exhibits, reduced operational costs, and increased 
visitation.
    We recommend a technical amendment to the long title of the bill to 
make it clear that the bill would extend the authorization for federal 
funding for the national heritage area, instead of reauthorization of 
the national heritage area. While the Yuma Crossing NHA faces a sunset 
date for its federal funding, its national heritage area designation 
will not end.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                               on s. 2221
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2221, a bill to extend the authorization for the Automobile National 
Heritage Area in Michigan.
    The Department recognizes the important work of the MotorCities 
National Heritage Area Partnership in preserving, interpreting and 
promoting the automotive and labor heritage of Michigan. We recommend 
that S. 2221 be amended to authorize an extension for heritage area 
program funding until such time as the National Park Service (NPS) has 
completed an evaluation and report on the accomplishments of the area 
and the future role of the NPS; and until national heritage area (NHA) 
program legislation is enacted that standardizes timeframes and funding 
for designated national heritage areas. Because the sunset date for the 
authorization of funding for the MotorCities NHA is September 30, 2014, 
the FY 2015 Budget proposes a one-year extension (through FY 2015).
    The NPS is initiating phase-in of a funding formula for NHAs, which 
is a merit-based system for allocating heritage area funding that 
considers a variety of factors based upon criteria related to program 
goals, accountability, and organizational sustainability. When fully 
implemented, the performance-based funding formula plan will reward NHA 
entities that bring in additional non-Federal investment and that have 
developed a sustainability plan. The Department would like to work with 
Congress to determine the future federal role when national heritage 
areas reach the end of their authorized eligibility for heritage 
program funding. We recommend that Congress enact national heritage 
area legislation during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas as a national system. Program legislation 
would provide a much-needed framework for the evaluation of proposed 
national heritage areas, offer guidelines for successful planning and 
management, clarify the roles and responsibilities of all parties, and 
standardize timeframes and funding for designated areas.
    S. 2221, as introduced, would extend the authorization of federal 
funding for the Automobile National Heritage Area for an additional 16 
years until September 30, 2030. The Automobile NHA was designated in 
1998 by Public Law 105-355 to preserve the cultural and historic 
landscapes associated with the automobile in Southeastern and Central 
Michigan. The NHA covers 10,000 square miles and includes portions of 
16 counties, and 250 townships and municipalities, in southeast and 
central Michigan. The mission of this NHA is focused on raising 
awareness and understanding about the impact of the automobile on this 
region with an emphasis on increasing tourism, expanding education and 
encouraging revitalization. This is accomplished through voluntary 
partnerships with communities and citizens, and local, state, and 
federal agencies emphasizing public access, economic development, 
regional planning and interpretive programs that highlight the role of 
auto and labor history in the region.
    We also recommend a technical amendment to the bill that would 
allow the name of the heritage area to reflect the common parlance of 
MotorCities NHA, rather than Automobile NHA. Public Law 105-355 
designated the Automobile National Heritage Area and the Automobile 
National Heritage Area Partnership as the management entity for the 
NHA. In subsequent years, the management entity has been renamed the 
MotorCities National Heritage Area Partnership. An amendment to change 
the name of the heritage area to reflect the name of the management 
entity would eliminate the dual names used for the heritage area.
    During its 16 years of existence, the MotorCities National Heritage 
Area Partnership has a significant record of achievement and, with 
government funding assistance since its establishment, has shown 
significant success in working with partners and the federal government 
to preserve, interpret, and promote the significant resources of the 
local communities within the region. In total, the NHA has received 
over $6.3 million in federal funding, and every federal dollar has been 
matched at least once with non-federal funds and in-kind services.
    The MotorCities National Heritage Area partnership has undertaken 
preservation, education and tourism initiatives to great success. It 
has worked with its partners to save the Ford Piquette Avenue Plant, 
the birthplace of the Model T automobile. Once semi-abandoned and 
threatened with demolition, today Henry Ford's 1906 automotive factory 
stands and interprets the story of the first affordable automobile for 
Americans. This National Historic Landmark is open for tours and 
events. In order to build an understanding of the interconnected 
stories of the MotorCities NHA, the group has begun a Wayside Exhibit 
program to create a comprehensive system of approximately 250 outdoor 
exhibits in communities throughout central and southeastern Michigan 
that connect the auto and labor history of the region. Done in 
partnership with a seven year grant from the Federal Highway 
Administration Department of Transportation and Michigan's Department 
of Transportation, the signage will commemorate the shared automotive 
heritage and increase public awareness of the interrelated sites within 
the NHA to locals and visitors alike. The Heritage Area understands 
that tourism is a driving economic factor within the region and has 
been working on a tourism collaboration effort called ``Autopalozza'' 
with their state partners at the State Travel Michigan and the Detroit 
Convention and Visitors Bureau. This umbrella group functions to 
promote the various major, special, automotive attractions that are 
particular to the State of Michigan. With innovative partnerships like 
this, the NHA reaches a much broader audience for visitors, and exposes 
the heritage area to a national audience.
    The management entity has worked tirelessly to connect nearly 1,200 
auto-related sites, attractions and events, the largest concentration 
of auto-related resources in the world. The heritage area management 
entity facilitates public private partnerships for the preservation of 
heritage resources and remembers the auto industry's past while 
celebrating its future. The auto industry centered in Michigan put the 
world on wheels, created the American middle class, and continues to 
define the way we live, work and play.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                               on s. 2264
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2264, a bill to designate memorials to the service of members of the 
United States Armed Forces in World War I, and for other purposes.
    The Department supports S. 2264 with two amendments.
    S. 2264 would redesignate Pershing Park in the District of Columbia 
as the National World War I Memorial and allow for the enhancement of 
the park through the construction of appropriate sculptural and other 
commemorative elements, including landscaping, to further honor the 
service of members of the United States Armed Forces in World War I. 
The bill also designates the Liberty Memorial of Kansas City at 
America's National World War I Museum in Kansas City, Missouri, as the 
National World War I Museum and Memorial. Finally, the bill makes 
amendments to the World War I Centennial Commission Act.
    The Department has testified previously on other bills which sought 
to designate a National World War I Memorial in either the District of 
Columbia or at the Liberty Memorial in Kansas City, Missouri. In the 
111th Congress, S. 760 and H.R. 1849 proposed designating the Liberty 
Memorial as the National World War I Memorial, while S. 2097 would have 
rededicated the District of Columbia War Memorial as a National and 
District of Columbia World War I Memorial. In the 112th Congress, H.R. 
938 proposed to designate the Liberty Memorial as the National World 
War I Museum and Memorial, and the District of Columbia War Memorial as 
the District of Columbia and National World War I Memorial. In each 
case, the Department testified that it was premature to establish a 
National World War I Memorial without studying existing sites that may 
already serve that role. The Department also testified that a national 
memorial to World War I already exists in the District of Columbia.
    General John J. Pershing Park, located in the area along 
Pennsylvania Avenue between 14th and 15th Streets NW, was built by the 
Pennsylvania Avenue Development Corporation and is now under the 
jurisdiction of the National Park Service. The park includes a statue 
of General Pershing and artwork detailing the major battles in World 
War I that involved U.S. troops. Quotations on the existing World War I 
Veterans Memorial at Pershing Park include General Pershing's tribute 
to the officers and men of the American Expeditionary Forces of World 
War I and a commemoration of those who served in the United States Navy 
in World War I. The Department believes that this is the appropriate 
site to commemorate World War I.
    The National Capital Memorial Advisory Commission (NCMAC) has 
concluded that the existing World War I Memorial at Pershing Park 
serves today as a national memorial to the veterans who served in World 
War I. On July 23, 2013, NCMAC considered H.R. 222, which would have 
established a new and separate memorial to the veterans of World War I 
within the District of Columbia. The Commission unanimously recommended 
enhancing the existing World War I Memorial in Pershing Park rather 
than establishing a second memorial. More recently, on May 6, 2014, 
NCMAC considered S. 2264 and its companion bill, H.R. 4489. The intent 
of the bill to enhance the existing commemoration at Pershing Park was 
met with unanimous approval.
    S. 2264 directs that there will be no infringement upon the 
existing District of Columbia War Memorial, and provides for compliance 
with the Commemorative Works Act (CWA), with two exceptions. The bill 
waives section 8905 with regard to site selection, as Pershing Park is 
an existing memorial site and the bill only calls for its re-
designation. The bill, also, waives section 8908(b) of the CWA, as the 
Area I designation process is precluded by re-designation of Pershing 
Park. The Department agrees with these waivers. It further prohibits 
Federal funds from being used for the design, establishment, or 
enhancement of a memorial or commemorative work by the WWI Centennial 
Commission.
    Because of the importance of World War I to the history of the 
United States and consistent with the treatment of memorials to other 
significant wars fought by our country, the Department believes that 
this bill would designate the National World War I Memorial as a new 
unit of the National Park Service, which would in turn be managed by 
the National Mall and Memorial Parks. We recommend that language be 
included in the text of the legislation establishing the memorial as a 
separate unit of the National Park System.
    The Department also recommends striking ``national'' from the name 
of the title of the memorial to redesignate Pershing Park in the 
District of Columbia as the World War I Memorial. No other memorials to 
our country's wars sited in the District of Columbia have ``national'' 
in their title, including the World War II Memorial, the Korean War 
Veterans Memorial, and the Vietnam Veterans Memorial. H.R. 4489, as 
reported by the House Natural Resources Committee, includes this 
recommendation. We believe siting the World War I Memorial in our 
nation's capital will allow the memorial to stand on its own and 
provide appropriate recognition to honor the service and sacrifice of 
all those who fought in this war.
    The proposed amendments are attached. In addition, the Department 
of Justice advises that it has constitutional concerns with S. 2264, 
which it intends to convey to the Committee by separate transmission.
    This concludes my testimony on S. 2264, and I would be happy to 
answer any questions you may have.
Proposed amendment to S. 2264
    On page 2, strike lines 17-19 and insert:

          ''(a) REDESIGNATION.--Pershing Park in the District of 
        Columbia is hereby redesignated as the `World War I Memorial', 
        a separate unit of the National Park System.''
                               on s. 2293
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2293, a bill to clarify the status of the North Country, Ice Age, 
and New England National Scenic Trails as units of the National Park 
System.
    The Department does not object to S. 2293.
    S. 2293 would amend the National Trials System Act to require the 
North Country, Ice Age, and New England National Scenic Trails to be 
designated as units of the National Park System. The National Park 
Service (NPS) has carefully considered the concerns of Congressional 
members that certain trails are excluded from equal participation in 
NPS funding and programs because they are not currently counted as 
units of the National Park System. Although most of these concerns have 
been addressed through administrative actions, the National Park 
Service would not object if Congress determines that conferring unit 
status on these trails is the most expedient means of addressing any 
perceived inequality. The NPS recommends that the potential concerns of 
local communities be considered prior to undertaking any change to a 
particular trail's designation to ensure continued public support, 
which is critical to the success of our long distance trails.
    The NPS administers, or co-administers, a total of 23 long-distance 
trails, including three that are counted as units of the National Park 
System. In addition to the Appalachian National Scenic Trail, which was 
established in 1968 and listed as a unit of the National Park System in 
1972, the Potomac Heritage National Scenic Trail, and the Natchez Trace 
National Scenic Trail were listed as units in the mid-1980's through an 
administrative decision reflecting the extent of Federal land ownership 
and the NPS' administration of these trails.
    Regardless of how the trails are counted, all of the long-distance 
trails administered by the National Park Service are, by law, part of 
the National Park System. Therefore, designating any trail as a unit 
does not change the management of that trail, or affect any existing 
agreements, easements, or other legal instruments in effect for the 
administration of the trail. However, we recognize that this difference 
in the manner in which certain trails are designated may have led to 
the perception that the trails are receiving unequal treatment.
    The National Park Service has taken steps to assure that trails 
have equal access to NPS funding and that the public is aware of the 
National Scenic and Historic Trails on the NPS website and other forms 
of media. We also worked with the National Park Foundation, our 
Congressionally authorized philanthropic partner, to allow the long 
distance trails to be considered for grant funding.
    The National Park Service recognizes and values the unique 
relationship and partnerships that have been developed with communities 
along these national trails. We will continue to work with the trail 
partners to improve communications and address any of the concerns that 
have been regarding equal participation.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you may have.
                               on s. 2318
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 2318, a bill to reauthorize the 
Erie Canalway National Heritage Corridor Act.
    The Department recognizes the important work of the Erie Canalway 
National Heritage Corridor Commission (Commission) and its primary 
partner, the Erie Canalway Heritage Fund, Inc., in preserving, 
interpreting, and promoting the 524-mile system of historic canals that 
compose the Erie Canalway. We recommend that S. 2318 be amended to 
authorize an extension for the Commission until such time as the 
National Park Service (NPS) has completed an evaluation and report on 
the accomplishments of the Erie Canalway National Heritage Corridor 
(Corridor) and the future role of the NPS, and to provide for the 
transition of management of the Corridor from the Commission to the 
Erie Canalway Heritage Fund, Inc., during the evaluation period. We 
further recommend that National Heritage Area (NHA) program legislation 
be enacted that standardizes timeframes and funding for designated 
national heritage areas.
    The NPS is initiating phase-in of a funding formula for NHAs, which 
is a merit-based system for allocating heritage area funding that 
considers a variety of factors based upon criteria related to program 
goals, accountability, and organizational sustainability. When fully 
implemented, the NPS funding formula plan will reward NHA entities that 
bring in additional non-federal investment and that have developed a 
sustainability plan. The Department would like to work with Congress to 
determine the future federal role when national heritage areas reach 
the end of their authorized eligibility for heritage program funding. 
We recommend that national heritage area program legislation be enacted 
during this Congress.
    There are currently 49 designated national heritage areas, yet 
there is no authority in law that guides the designation and 
administration of these areas as a national system. Program legislation 
would provide a much-needed framework for the evaluation of proposed 
national heritage areas, offer guidelines for successful planning and 
management, clarify the roles and responsibilities of all parties, and 
standardize timeframes and funding for designated areas.
    S. 2318, as introduced, would extend the authorization of the 
Commission for an additional 15 years, until December 21, 2030. The 
Erie Canalway National Heritage Corridor was designated by Public Law 
106-554, enacted on December 21, 2000, to preserve, interpret, promote, 
and provide access to the Erie Canalway's historical, natural, 
cultural, scenic, and recreational resources. That law established the 
Commission to develop and implement the Canalway Plan and foster 
initiatives within the Corridor, and provided for the Commission to 
sunset 10 years after enactment. Section 8203 of Public Law 111-11 
extended the authorization for the Commission for an additional five 
years, until December 21, 2015.
    As the designated authority for implementing the Canalway Plan, the 
Commission serves as the management or local coordinating entity. A 
more limited extension of the Commission's authorization would enable 
it to continue beyond December 21, 2015, as the entity able to receive 
federal heritage area funding while a transition to the local 
coordinating entity takes place. Through FY 2014, the Corridor has 
received approximately $8.4 million.
    The Erie Canalway National Heritage Corridor encompasses the most 
commercially enduring and historically significant system of canals in 
the United States. This waterway played a key role in turning New York 
City into a preeminent center for commerce, industry, and finance. 
Besides being a catalyst for growth in the Mohawk and Hudson Valleys, 
these canals helped open up western America for settlement and for many 
years transported much of the Midwest's agricultural and industrial 
products to domestic and international markets. The Corridor covers 
4,834 square miles, includes portions of 23 counties and 234 
municipalities, and is home to 2.7 million people across the state of 
New York. The mission of the Corridor is focused on preserving and 
sharing the extraordinary heritage of the Erie Canalway, promoting the 
Corridor as a world-class tourism experience, and fostering vibrant 
communities connected by the waterway. This is accomplished through 
close collaboration among the Commission, the Erie Canalway Heritage 
Fund, Inc., and voluntary partnerships with communities and citizens, 
and local, state, and federal agencies.
    As mentioned earlier in this statement, the Department recommends 
that S. 2318 be amended to provide for the Erie Canalway Heritage Fund, 
Inc., (Fund) to be the local coordinating entity for the Corridor. The 
Fund is a 501(c)(3) nonprofit organization that has been established 
exclusively for charitable, educational, and civic purposes. It focuses 
its activities on implementing the vision formed by the citizens of the 
Erie Canalway National Heritage Corridor and is a key partner with the 
Commission in helping to implement the Corridor's preservation and 
management plan. We would be happy to work with the committee on 
language that would provide for the appropriate transition of 
management of the Corridor from the Commission to the Fund.
    Amending the bill to provide for the nonprofit organization to be 
the local coordinating entity would be consistent with the general 
trend of other national heritage areas that were first authorized with 
commissions as the management entity. As our experience with heritage 
areas has grown, we have found that nonprofit organizations have 
certain advantages over federal commissions as local coordinating 
entities, including the fact that they do not sunset and they are 
better situated to do the fundraising needed to sustain the heritage 
area as it moves toward self-sufficiency. At this time, only three of 
the 49 authorized national heritage areas, including Erie Canalway, 
have federal commissions serving as their management or local 
coordinating entities.
    Finally, we recommend a technical amendment to the title of the 
bill to make it clear that the bill would reauthorize the Commission 
rather than the entire Erie Canalway National Heritage Corridor Act, 
which suggests that the Corridor designation faces expiration. While 
the Commission faces a sunset date in 2015, the Act establishing the 
Corridor as a national heritage area does not sunset.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                               on s. 2346
    Mr. Chairman, thank you for the opportunity to appear before this 
committee to present the Department's views on S. 2346, the National 
Discovery Trails Act of 2014.
    The National Park Service, in accordance with P.L 102-461, 
conducted a study on the feasibility and desirability of adding the 
American Discovery Trail (ADT) to the National Trails System. This 
study, which was transmitted to Congress in 1998, found that the ADT 
could be appropriate for designation as a new class of national trails, 
separate from National Scenic Trails or National Historic Trails. 
Nevertheless, we recommend that the Committee defer action on S. 2346 
until such time as private-sector partners are able to demonstrate the 
capacity to support such an endeavor, as well as the level of public 
backing necessary to ensure its continued success. Further, prior to 
supporting any proposal to amend the National Trails System Act to 
include any new category of trails, the National Park Service would 
recommend additional discussions between the NPS, the bill's sponsor, 
and advocates of the National Discovery Trail concept to clarify the 
purpose of National Discovery Trails and determine if the need for such 
trails could be met through an existing category of national trail.
    Finally, we would propose several amendments to address concerns 
with language that could hinder effective management of the trail 
corridor, particularly the limitations on acquisition authority.
    S. 2346 amends the National Trails System Act by adding ``National 
Discovery Trails'' as a new category of trail that may be designated as 
part of the Act and designates the American Discovery Trail as the 
first National Discovery Trail. The bill further amends the National 
Trails System Act by establishing the following criteria for National 
Discovery Trails: the trail must link one or more areas within the 
boundaries of a metropolitan area, and should connect to other trails; 
the trail must be supported by a competent trail-wide volunteer-based 
organization and have extensive local and trail-wide support by the 
public, user groups, and by affected State and local governments; and, 
the trail must pass through more than one state and be a continuous, 
walkable route. Further, the bill requires the appropriate Secretary to 
administer the trail in cooperation with a trail-wide volunteer based 
organization, and to develop a comprehensive management plan for the 
trail.
    The ADT was proposed in 1990 as a continuous mid-continent, coast-
to-coast trail to link metropolitan areas to the nation's major long-
distance trails, as well as to shorter local and regional trails. In 
October 1992, through P.L. 102-461, Congress directed the Secretary of 
the Interior to study the feasibility and desirability of adding the 
ADT to the National Trails System. This study was completed in December 
of 1995, and submitted to Congress in 1998. The over 6000-mile route of 
the ADT, as described in this legislation and mapped in the feasibility 
study, extends from Cape Henlopen State Park in Delaware to Point Reyes 
National Seashore in California. The ADT crosses the states of Nevada, 
Utah, Colorado, Nebraska, Kansas, Iowa, Missouri, Illinois, Indiana, 
Ohio, Kentucky, West Virginia, Maryland, and the District of Columbia.
    The feasibility study team visited many parts of the trail's route, 
analyzed its purposes and goals as a stand-alone project and as an 
integral part of the National Trails System. Five purposes were 
identified that apply specifically to the ADT. These purposes were 
primarily based on the trail proponents' ideas and visions for the 
trail, and are as follows: provide a continuous coast-to-coast route 
for non-motorized users (e.g., hikers, bicyclists, equestrians); 
establish a marked route connecting representative examples of 
America's heritage; serve as an East-to-West spine, linking many major 
trails and strengthening the national network of trails; enable users 
to experience the spectrum of American landscapes; and create 
opportunities for people to meet, communicate with, and appreciate 
others from around America and the world.
    The National Park Service study team developed the following three 
alternatives based on its findings:

  <bullet> Alternative 1 examined the ADT as a potential National 
        Scenic Trail.
  <bullet> Alternative 2 recognized the unique characteristics of this 
        trail and suggested a new category of trails within the 
        National Trails System.
  <bullet> Alternative 3 explored taking no Federal action.

    S. 2346 is based on Alternative 2, a new category of long-distance 
trails.
    Under Alternative 2, Congress would authorize the ADT as a National 
Discovery Trail--the first of its kind. Congress would need to amend 
the National Trails System Act to include National Discovery Trails as 
an additional class of trails in the National Trail System before the 
ADT could be authorized as a National Discovery Trail.
    One of the primary reasons for proposing the establishment of 
National Discovery Trails would be to address a potential conflict with 
National Scenic Trails following roads. When the ADT was initially 
proposed, a guiding principle in identifying the trail's route was that 
it be located on public lands and rights-of-way to avoid the 
acquisition of private land. This meant that the proposed trail often 
was routed along roads. If it is authorized, long segments of the ADT 
will be on roads for the foreseeable future. However, the National 
Trails System Act specifically prohibits the use of motorized vehicles 
along National Scenic Trails. This new class of trails could be located 
along roadways, if necessary, to make the trails continuous. Unlike a 
National Scenic Trail, it would be acceptable--although not desirable--
for a National Discovery Trail to have segments where there were no 
opportunities for an off-road, non-motorized, trail experience.
    National Discovery Trails would have several other distinct 
features. Currently, there are no trails that are primarily intended to 
tie together existing trails and urban areas into the national network 
envisioned by the National Trails System Act. National Discovery Trails 
would be intended to link existing national, regional, and local trails 
into an integrated system, much like the way the interstate highway 
system functions. Similarly, these national trails would connect urban 
areas where most Americans live with rural and backcountry areas.
    Notwithstanding the potential benefits of creating a new class of 
national trails and authorizing the ADT as the first National Discovery 
Trail, we have a number of outstanding questions about the new 
classification, and in particular, the proposed ADT.
    Strong partnerships are vital to any national trail, and would be 
especially important in the structure envisioned by S. 2346. The 
Appalachian Trail was the model and impetus for the National Trails 
System. When that trail was established as a National Scenic Trail in 
1968, it was well-supported by a vibrant nonprofit organization, the 
Appalachian Trail Conference, with thousands of members and decades of 
trail-building experience. For the National Park Service, helping 
protect and administer the Appalachian Trail from the beginning has 
been a mutual partnership, with both the conference and the service 
offering their skills and strengths to keep the trail viable and 
intact.
    However, some of the trails subsequently established as part of the 
National Trails System have not had--and still do not have--strong 
partner organizations. In some cases, the Federal agency administering 
a trail has had to wait for such a group to get started or to assist in 
organizing it. Trail partnerships are essential to the well-being of 
the National Trails System. While S. 2346 endeavors to address this 
concern through a provision in the bill requiring that one of the 
criteria for establishing a National Discovery Trail is that there 
already exists at least one competent, volunteer-based organization for 
the proposed trail, backed up by extensive State and local public 
support, the NPS remains concerned that this provision may not prove 
sufficient to ensuring the capacity of the incoming partner 
organization. In the case of the ADT, the NPS is concerned that the 
trail does not currently meet the proposed threshold of competency and 
public support, and would recommend deferring action in designating it 
as a National Discovery Trail until such time as the ADT's private-
sector partners are able to demonstrate the capacity to support such an 
endeavor.
    Beyond specific questions about the ADT, the NPS would recommend 
that additional consideration be given to the purpose of introducing a 
new class of national trails, and the potential impact on existing 
national trails. As with any new designation, attention should be given 
to the justification, need, and demand for a new category of trails. 
The criteria and standards for determining if a particular trail is 
appropriate for designation should be very clearly defined. Further, if 
designated National Discovery Trails lack the capacity to ensure 
consistency and congruence with existing national trails, the public 
could be confused and the value of the National Trails System as a 
whole could be diminished.
    Other successful models of partner-driven and community-based long 
distance routes, such as the East Coast Greenway--an entirely volunteer 
and community-supported long distance trail primarily dedicated to non-
motorized routes traversing the numerous east coast states--could 
potentially provide similar benefits, while addressing concerns of 
Federal involvement and placing control of trail development with local 
and State entities. The NPS would welcome the opportunity to work with 
the bill's sponsor, and advocates of the National Discovery Trail 
concept, to address these issues and offer support in developing a 
model that meets the needs of all the parties involved.
    If the Committee moves forward on this bill, we would like to work 
with you on amendments to provide clarity and consistency. We are 
particularly concerned about language in two places where we believe 
State and local jurisdictions, which would have the primary 
responsibility for protecting and managing segments of National 
Discovery Trails, would be severely hampered in their ability to keep 
the trail open to the public and to provide recreational access by 
limiting land acquisition or appearing to limit rights-of-way.
    Mr. Chairman, this concludes my testimony. I will be glad to answer 
any questions that you or other members of the subcommittee may have.
                               on s. 2356
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2356, a bill to adjust the boundary of the Mojave National Preserve.
    The Department supports the enactment of S. 2356, but recommends 
two amendments regarding the acreage to be transferred out of the park 
and a qualification on the lands to be acquired by donation.
    S. 2356 would adjust the boundary of Mojave National Preserve to 
remove approximately 525 acres on the north side of the park from the 
boundary of the park. This acreage would be transferred to BLM for a 
proposed rail alignment. XpressWest is constructing a high-speed rail 
line from Victorville, CA, to Las Vegas, NV. The proposed route would 
follow and generally parallel Interstate 15 (adjacent to the north 
boundary of the Preserve), except for the grade to Mountain Pass, which 
is too steep and the road curve too sharp to allow for the rail line to 
follow the Interstate. The NPS lacks authority to grant rights-of-way 
for railroads; the BLM, however, has such authority and can grant any 
necessary permits, in accordance with section 501 of the Federal Land 
Policy and Management Act, to XpressWest to complete the project. The 
area proposed for transfer to the BLM would accommodate the grade and 
curve requirements for the proposed high-speed train through the 
Mountain Pass.
    As mitigation for the removal of land from the boundary of the 
park, this bill authorizes that other land would be acquired by 
donation. The bill authorizes approximately 4 acres of land be acquired 
for every acre of land removed from the preserve. The bill would 
authorize the transfer of 525 acres of National Park Service land to 
the Bureau of Land Management to accommodate the necessary railroad 
right-of-way, and the Preserve to receive in exchange a donation of 
approximately 2,100 acres of private land.
    S. 2356 also authorizes the Secretary of the Interior to permit 
cattle grazing, in accordance with applicable NPS laws and policies, on 
the land acquired under Section 3(a) by donation. The bill states that 
cattle grazing shall take place during the period beginning on the date 
on which the land is acquired and ending on the date that is 25 years 
after the date on which the land is acquired, to the same extent 
permitted on the day before the date of enactment of the Act.
    The NPS allows agricultural grazing if it is specifically 
authorized in a park's enabling legislation. Section 510(a) of P.L. 
103-433, the enabling legislation for Mojave National Preserve, 
specifies that the privilege of grazing domestic livestock on lands 
within the preserve shall continue to be exercised at no more than the 
current level, subject to applicable laws and NPS regulations. NPS 
Management Policies state that, ``The Service will phase out the 
commercial grazing of livestock whenever possible and manage 
recreational and administrative uses of livestock to prevent those uses 
from unacceptably impacting park resources.''
    We recommend two amendments to S. 2356. Section 3(a)(2) authorizes 
the transfer of administrative jurisdiction of approximately 525 acres 
of land from the National Park Service (NPS) to the Bureau of Land 
Management (BLM). The official map, numbered 170/120,846-B, delineates 
the transfer of approximately 520 acres. The Department recommends that 
the acreage in the bill be amended to match the map.
    Section 3(a)(1) authorizes the acquisition by donation of 
approximately 4 acres of land within or adjacent to the boundary of the 
preserve to be used for mitigation for every 1 acre of land removed 
from the preserve. The Department recommends that the donated land be 
qualified as land identified in the Mojave National Preserve's Land 
Protection Plan as suitable for fee acquisition. We will be happy to 
work with the committee on the appropriate language for the second 
amendment.
    Mr. Chairman, this concludes my testimony. I am prepared to answer 
any questions from members of the Committee.
                               on s. 2576
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2576, a bill to establish the 
Maritime Washington National Heritage Area.
    The Department supports the objectives of S. 2576. The Maritime 
Washington National Heritage Area has been found to meet the National 
Park Service's interim criteria for designation as a National Heritage 
Area. However, the Department recommends that Congress pass program 
legislation that establishes criteria to evaluate potentially qualified 
National Heritage Areas and a process for the designation, funding, and 
administration of these areas before designating any additional new 
National Heritage Areas. The Department also recommends a technical 
amendment to provide for an official NPS map to accompany the 
legislation.
    There are currently 49 designated national heritage areas, although 
there is no authority in law that guides their designation and 
administration as a national system. National heritage area program 
legislation would provide a much-needed framework for evaluation of 
proposed national heritage areas, guiding planning and management, 
clarifying roles and responsibilities, and standardizing timeframes and 
funding for designated areas.
    S. 2576 would establish the Maritime Washington National Heritage 
Area to include Federal, State, local and tribal lands that allow 
public access and are at least partly located within one-quarter mile 
landward of the shoreline from Gray's Harbor to the Canadian border and 
extending through the City of Seattle to include Lake Union. This 
``Salt Water Coast'' covers 3,000 linear miles of coastline.
    The proposed local coordinating entity would be the Pacific 
Northwest Maritime Heritage Advisory Council operating under the 
Washington Trust for Historic Preservation.
    A Feasibility Study for a Washington State National Maritime 
Heritage Area was completed and published by the Washington Department 
of Archaeology and Historic Preservation in April 2010. The NPS 
conducted a review of the study for consistency with the interim 
National Heritage Area Feasibility Study Guidelines. The review of this 
document and a subsequent revised Statement of Importance and boundary 
justification, submitted March 5, 2012, found that it meets these 
criteria. The Washington Trust for Historic Preservation was informed 
of this finding in a letter dated June 5, 2012.
    The unique geography of the Puget Sound, northern coast, and Grays 
Harbor region reflects a maritime history both before and after our 
nation's borders were set. The steep terrain of glacier-clad mountain 
ranges juxtaposed to saltwater shoreline with a temperate climate 
enabled native people build a complex culture around canoe routes and 
salmon cycles. By the late 18th century Spanish, English, and Russian 
explorers were mapping and naming places in the region in the name of 
science and the interest of colonial empire. After the 49th parallel 
was established as the nation's northern border in 1846, this new 
corner of the country entered a dramatic period of social, political 
and military development. The vast conifer forests were easily 
accessible for timber production and the coastal geography made 
possible its transport to the developing American west. The timber 
trade and the abundant marine resources--especially salmon--of the 
Strait of San Juan de Fuca, Puget Sound, and the Pacific Ocean, 
attracted American, European, and Pan-Asian settlers who provided the 
labor for thriving port economies such as Port Angeles, Port Townsend, 
and Port Gamble.
    The proposed Maritime Washington National Heritage Area stretches 
from northern points of entry at Bellingham and Blaine south to the 
protected harbors of Aberdeen and Hoquiam. The focal point of the 
heritage area is the greater Puget Sound area, a system of 
interconnected marine waterways, harbors, bays, and inlets along the 
shores of the San Juan Archipelago and the many waterfront towns, 
cities, and ports that have grown up here over time. The naval 
facilities on Puget Sound have built and repaired vessels in their 
fleet for over a century. Today, the region still relies on these 
waterways to make up the largest marine highway system--its famous 
ferries--for day-to-day transportation.
    The cultural landscape of the region tells the stories of a rich 
Native American civilization, development of the farthest territorial 
corner of the United States, of gold rushers and ship builders, and of 
a gateway to Alaska, Asia, and the seaports of the world. Traditional 
Native American sites, lumber towns, logging mills, salmon processing 
plants, historic ships, lighthouses, museums, and a host of other 
maritime-related objects, sites, and traditions relate these stories 
and make up the proposed Maritime Washington National Heritage Area. 
The designation would strengthen and encourage the partnership of 
organizations that have for two decades been committed to the 
recognition, preservation, and continued economic, recreational, and 
educational use of this landscape and its resources.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or any other members of the subcommittee may 
have.
                               on s. 2602
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2602, a bill to establish the 
Mountains to Sound Greenway National Heritage Area in the State of 
Washington.
    The Department supports the objectives of S. 2602. The Mountains to 
Sound Greenway area has been found to meet the National Park Service's 
interim criteria for designation as a National Heritage Area. However, 
the Department recommends that Congress pass program legislation that 
establishes criteria to evaluate potentially qualified National 
Heritage Areas and a process for the designation, funding, and 
administration of these areas before designating any additional new 
National Heritage Areas. The Department also recommends a technical 
amendment to provide for an official NPS map to accompany the 
legislation.
    There are currently 49 designated national heritage areas, although 
there is no authority in law that guides their designation and 
administration as a national system. National Heritage Area Program 
legislation would provide a much-needed framework for evaluation of 
proposed national heritage areas, guiding planning and management, 
clarifying roles and responsibilities, and standardizing timeframes and 
funding for designated areas.
    S. 2602 would establish the Mountains to Sound Greenway National 
Heritage Area to include lands within the Yakima River basin upstream 
of Manastash Creek and the cities of Ellensburg, Roslyn, Cle Elum, and 
South Cel Elum in Kittitas County. It would also include all lands in 
the Snoqualmie River, Cedar River, and Lake Washington watersheds, the 
Puget Sound near shore watersheds within and including the cities of 
Seattle and Shoreline, and 22 additional cities in King County.
    The proposed local coordinating entity would be the nonprofit 
corporation Mountains to Sound Greenway Trust (Trust).
    NPS review of the Mountains to Sound Greenway National Heritage 
Area Feasibility Study completed by the Trust in March 2012, found that 
the study did not meet the NPS Interim National Heritage Area 
Feasibility Study Guidelines. The NPS requested the Trust provide a 
revised statement of national importance; themes and a list of 
associated resources; a summary of traditions, customs, beliefs and 
folk life; and a boundary justification. The NPS received the Addendum 
from the Trust on May 27, 2014, which (1) explained that the Mountains 
to Sound Greenway National Heritage Area is nationally important for 
its association with the expansion of our national transportation 
system and the creation of our modern timber industry; (2) identified 
three themes associated with the region's national importance and their 
related historic and natural resources; (3) summarized the ongoing 
traditions, customs, beliefs, and folklife that interprets and 
celebrates the region's national importance; and (4) justified the 
proposed boundary in relation to the strategic assemblage of resources 
and opportunities for conservation, recreation and education, as well 
as public interest in this national heritage area designation.
    The proposed Mountains to Sound Greenway National Heritage Area 
tells a nationally important story of how the Northern Pacific and 
Milwaukee railroads, and later the Sunset Highway and Interstate 90, 
created the final section of an historic transportation corridor that 
wove the Northwest into the nation's fabric, opened up trade between 
the United States and Asia, and led to the development of the nation's 
modern timber industry.
    Although the Puget Sound area was part of the United States by 
1950, the Cascade Range isolated the region from the rest of the 
nation, with little access to its abundant natural resources and 
sheltered deep-water ports. Chartered by President Lincoln in 1864, the 
Northern Pacific Railroad was constructed along a Native American 
pathway through the nearly impassible Snoqualmie Pass to reach Seattle 
20 years later. The connection of the Eastern seaboard and Great Lakes 
with the farthest reaches of the continental United States reinforced 
the newly drawn American-Canadian border. The City of Seattle grew into 
a booming hub for shipbuilding and the trade of foreign goods and the 
region's own wealth of natural resources, opening the country's first 
trade routes on what we now call the Pacific Rim. Rail towns sprung up 
along the main lines with mill and coal towns on the spurs, while piers 
stretched into Puget Sound, attracting immigrant workers whose 
descendants live in the region today.
    The Milwaukee Road crossed the Cascades in the early 1900s using 
pioneering tunneling and electrification techniques. The high speed 
electric trains of the Milwaukee Road carried Japanese silk to New 
York, the nation's most precious rail commodity after gold and silver 
bullion, but the railroad made its money carrying passengers to ski, 
hike, and climb at Snoqualmie Pass. The conservation ethic that 
developed in the region from enjoyment of the region's natural beauty 
is strongly held today.
    Washington's modern economy is descended directly from the Northern 
Pacific Land Grant that was used to build the railroad. In place of 
public financing, the railroad received the largest federal land grant 
in American history. The railroad was granted 40 million acres--every 
other square mile of land in a checkerboard pattern up to forty miles 
on either side of the right-of-way. This consolidated ownership, as 
well as steam technology brought by the railroad, created the booming 
timber industry that helped rebuild San Francisco after the 1906 
earthquake and fueled shipbuilding in World War I. Airplanes being 
produced for the military on a large scale for the first time were 
built from the region's prized spruce trees. Demand for this aircraft 
led William Boeing to found a company in the region in 1916 that 
supplies the nation's air transportation industry today.
    Plantation forestry involving sustained-yield harvest and 
reforestation was invented in 1937 by William Weyerhauser, who had 
amassed one and a half million acres of Washington timberland. He 
established the first seedling industry at Snoqualmie Falls and began 
to manage timber across multiple harvests, a radical idea at the time. 
This remains the industry standard across much of the country today.
    The cultural heritage of the Mountains to Sound Greenway National 
Heritage Area is alive in the ethnic diversity of the region's 
population, in the traditions, customs and celebrations, and in 
museums, festivals, historic sites, and interpretive trails that both 
residents and visitors enjoy today. Following modern-day political and 
land-management structures, the proposed heritage area boundaries are 
pragmatic, thus offering the best formula for long-term success as 
communities seek to manage, enhance, and interpret resources across 
this landscape.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or any other members of the subcommittee may 
have.

    Senator Udall. Thank you, Ms. Goldfuss.
    Mr. Smith.

    STATEMENT OF GREG SMITH, ACTING ASSOCIATE DEPUTY CHIEF, 
     NATIONAL FOREST SYSTEM, FOERST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Smith. Thank you, Mr. Chairman. I have a comment on two 
bills. Mr. Chairman, I am Greg Smith, the acting associate 
deputy chief, National Forest System, and we thank you for the 
opportunity to be here.
    Browns Canyon. The USDA supports S. 1794. We defer to the 
Department of the Interior regarding the provisions of the bill 
affecting the BLM. S. 1794 would designate approximately 22,000 
areas of Federal land that are managed by two agencies, the 
Bureau of Land Management and the Forest Service, as the Browns 
Canyon National Monument.
    Within the monument, 7,900 acres of public land managed by 
the Bureau of Land Management, and 2,500 acres managed by the 
National Forest System, on the Sedalia Ranger District, on the 
Pike and San Isabel National Forest, would be designated as the 
Browns Canyon Wilderness.
    S. 1794 would designate approximately 12,060 acres of 
national monument and 2,500 acres of wilderness to be 
administered by the Forest Service, as depicted on the map 
entitled ``Browns Canyon National Monument'' dated November 7, 
2013.
    We have determined these lands designated to be compatible 
with the current Pike and San Isabel National Forest Plan. 
Therefore, Senate bill 1794 provides existing grazing in the 
national monument and wilderness shall continue, and motorized 
and mechanical transports shall be prohibited in the portion of 
the national monument east of the Arkansas River, except on 
roads and trails open to such uses on the date of enactment of 
this Act.
    Additionally, grazing permits or leases for national 
monument areas shall continue to be administered and no 
curtailment of grazing in the national monument or wilderness 
shall occur due to the designation of this Act.
    Nothing in this Act affects the use of any allocation of 
water, water rights, or interest in lands on the date of 
enactment of this Act, and the Forest Service may prescribe 
measures to control non-invasive plants and noxious weeds 
within the National Forest System portions of the national 
monument and wilderness.
    Subsection 7 stipulates that Forest Service Road 184 within 
the new national monument shall be maintained as a Level II 
road. Subsection 3 would allow the temporary closure of the 
roads to any and all use to protect the public safety and for 
maintenance and other administrative uses. Forest Service Road 
184 within the proposed national monument is currently open, 
and in accordance with laws and regulations, will be maintained 
administratively to prevent resource damage, trespassing, and 
public safety issues.
    However, the department does not support specifying the 
maintenance level in this legislation. In addition, we 
recommend several technical corrections to the bill, as 
detailed in our testimony, regarding the type, the date of the 
map on the record, and also minor technical area wording in 
Section 7, invasive species and noxious weeds.
    Mr. Chairman, this completes my testimony on this bill.
    Senator Udall. Thank you, Mr. Smith. We will now turn to 
questions from members of the committee. Senator Baldwin, I 
know you have a busy schedule.
    Senator Portman. He has one more bill, I think.
    Senator Udall. You have one more bill?
    Mr. Smith. One more bill.
    Senator Udall. I am sorry. I was excited to get to 
questions. My apologies.
    [Laughter.]
    Mr. Smith. The USDA supports S. 2392. The Wild and Scenic 
Rivers Act, Public Law 90-542, protects the free flowing 
conditions, water conditions, and outstanding remarkable 
natural, cultural, and recreational values of some of our most 
precious waters.
    It also provides an opportunity to build partnerships among 
landowners, river users, tribal nations, and all levels of 
government.
    S. 2392 amends Section 3(a) of the Act to designate certain 
segments of East Rosebud Creek in Carbon County, Montana as 
components of the Wild and Scenic Rivers System. It adds a 13 
mile segment from the source of the creek in the Absaroka-
Beartooth Wilderness to East Rosebud Lake as a wild river, and 
a 7 mile segment below East Rosebud Lake to the first private 
land as a recreational river.
    This bill is consistent with the Custer National Forest 
Land and Resource Management Plan, which identifies the 
segments as eligible for designation as a wild and recreational 
river, respectively.
    The Custer National Forest has not conducted a suitability 
study on East Rosebud Creek. As eligible rivers, these segments 
are currently managed by the Custer National Forest in a manner 
that is consistent with the proposed designations.
    The proposed designations would prohibit future FERC, 
Federal Energy Regulatory Commission, licenses of any new 
hydroelectric projects or facilities directly affecting those 
creeks. There are no existing FERC licenses or no pending 
proposals for licenses in the Rosebud Creek area.
    Congressional designation of the two segments would not 
disrupt or alter existing management or use of areas 
surrounding the East Rosebud Creek, but would require 
additional planning and monitoring for the creek and adjacent 
Custer National Forest lands.
    We recommend that Section (b) be deleted as the river 
segments' proposed designation because they are entirely 
bounded by National Forest System lands.
    Mr. Chairman, this does conclude my statement.
    [The prepared statements of Mr. Smith follow:]
Prepared Statement of Greg Smith, Chief, National Forest System, Forest 
                   Service, Department of Agriculture
                               on s. 1794
    Mr. Chairman, I am Greg Smith, Acting Associate Deputy Chief, 
National Forest System, U.S. Forest Service. Thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
(USDA) regarding S.1794, the ``Browns Canyon National Monument and 
Wilderness Act of 2013.''
    S. 1794 would designate approximately 22,000 acres of federal land 
that are managed by two federal agencies, the Bureau of Land Management 
and the Forest Service as the Browns Canyon National Monument. Within 
the Monument, 7,960 acres of public lands managed by Bureau of Land 
Management and 2,500 acres of National Forest System lands on the 
Salida Ranger District on the Pike and San Isabel National Forests 
would be designated as the Browns Canyon Wilderness.''
    USDA testified in support of the designation of the Browns Canyon 
before the House Natural Resource Committee, regarding H.R. 4289, the 
Colorado Wilderness Act of 2009, on March 11, 2010. At that time, USDA 
expressed concern regarding allowing continued motorized use of Turret 
Road; in S. 1794 the wilderness boundary has changed and thus has 
remedied our concern. S. 1794 would designate approximately 12,060 
acres of National Monument and 2,500 acres of Wilderness to be 
administered by the Forest Service, as depicted on the map titled 
``Browns Canyon National Monument'' dated November 7, 2013. We have 
determined these land designations to be compatible and congruent with 
the management prescriptions in the current Pike and San Isabel 
National Forest Plan. Therefore, USDA supports S. 1794. We defer to the 
Department of the Interior regarding provisions in the bill affecting 
BLM.
    S. 1794 provides that existing grazing in the National Monument and 
Wilderness shall continue and motorized and mechanical transport shall 
be prohibited in the portion of the National Monument east of the 
Arkansas River, except on roads and trails open to such uses on the 
date of enactment of this Act. Additionally, grazing permits or leases 
for the National Monument area shall continue to be administered and no 
curtailment of grazing in the National Monument or Wilderness shall 
occur due to the designation of this Act. Nothing in this Act affects 
the use or allocation of any water, water right, or interest in water 
on the date of enactment of this Act and the Forest Service may 
prescribe measures to control nonnative invasive plants and noxious 
weeds within the Forest Service portion of the National Monument and 
Wilderness.
    Subsection 7(a)(2)(D)(i) stipulates that Forest Service Road 184 
within the new National Monument shall be maintained as a Level II 
Road. Subsection (iii) would allow for temporarily closures of the road 
to any and all uses to protect public safety and for maintenance or 
other administrative uses. Forest Service Road 184 within the proposed 
National Monument is currently open, and in accordance with laws and 
regulation will be managed administratively to prevent resource damage, 
trespass, or public safety issues. However, the Department does not 
support specifying the maintenance level in this legislation.
    In addition, we recommend several technical corrections to the 
bill, the first regarding the date of the map on record at the BLM 
Salida, CO, office. The map is dated November 5, 2013, not November 7, 
2013 as written in S. 1794. We also recommend additional technical 
corrections to Section 7(e), `Invasive Species and Noxious Weeds', in 
order to be consistent with law, regulation and policy; the words 
`nonnative' and `plants' should be struck and the word `species' should 
be inserted in place of `plants'.
    This concludes my testimony. I would be happy to answer any 
questions.
                               on s. 2392
    Mr. Chairman, I am Greg Smith, Acting Associate Deputy Chief, 
National Forest System, U.S. Forest Service. Thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
(USDA) regarding S. 2392, the ``East Rosebud Wild and Scenic Rivers 
Act''
    The Wild and Scenic Rivers Act, Public Law 90-542 (16 U.S.C. 1271-
1287, as amended) protects the free-flowing condition, water quality, 
and outstandingly remarkable natural, cultural, and recreational values 
of some of our most precious waters. It also provides an opportunity to 
build partnerships among landowners, river users, tribal nations, and 
all levels of government.
    S. 2392 amends Section 3(a) of the Act to designate certain 
segments of East Rosebud Creek in Carbon County, Montana, as components 
of the Wild and Scenic Rivers System. It adds a 13-mile segment from 
the source of the creek in the Absaroka-Beartooth Wilderness to East 
Rosebud Lake as a wild river, and the 7-mile segment from below East 
Rosebud Lake to the first private land as a recreational river.
    The Department supports S. 2392.
    The bill is consistent with the Custer National Forest Land and 
Resource Management Plan Amendment Number 2, approved December 15, 
1989, which identifies the segments as eligible for designation as wild 
and recreational respectively. The Custer National Forest has not 
conducted a suitability study for East Rosebud Creek; therefore, the 
Department does not have a recommendation regarding designation under 
the Wild and Scenic Rivers Act. However, as eligible rivers, these 
segments are currently managed by the Custer National Forest in a 
manner consistent with the proposed designations.
    The proposed designations would prohibit future Federal Energy 
Regulatory Commission's (FERC) licensing of any new hydroelectric 
facility on, or directly affecting, these creek segments. There is no 
existing FERC license, or pending proposals for licenses, in the East 
Rosebud Creek area.
    Congressional designation of these two segments would not disrupt 
or alter existing management or use of the area surrounding East 
Rosebud Creek, but would require additional planning and monitoring for 
the creek and adjacent Custer National Forest lands.
    We recommend that Section 3(b) be deleted as the river segments 
proposed for designation are entirely bounded by National Forest System 
lands.

    Senator Udall. Thank you, Mr. Smith. I wanted to see--
Senator Baldwin has a busy schedule--if she had any questions 
for the witnesses.
    Senator Baldwin. Thank you, Mr. Chairman. I do, one, 
hopefully brief.
    Senator Udall. Take your time.
    Senator Baldwin. Ms. Goldfuss, I am really proud that my 
home State has hosted two of the scenic trails that I discussed 
in my opening statement earlier. I love hiking, so I really had 
the pleasure of taking advantage of these spectacular trails.
    As you heard, unfortunately, Wisconsin's Ice Age Trail and 
North Country Trail, as well as the New England National Scenic 
Trail, do not enjoy full unit status that other national scenic 
trails do that are administered under the National Park 
Service.
    We actually have in this country 3 trails with full status 
and 3 without. So, I wonder if you could just share with us why 
this disparity exists.
    Ms. Goldfuss. I wish I had an easy answer for you.
    Senator Baldwin. I wish you did, too.
    Ms. Goldfuss. I assume the question would not be asked if 
you knew it already.
    Senator Baldwin. That is 4 years of correspondence back and 
forth.
    Ms. Goldfuss. Exactly. In preparation for this hearing, we 
have had many discussions internally looking at some of the 
enabling legislation and some of the administrative decisions 
that came about in the disparity between the two categories 
that we have, 3 as units, 3 as not.
    All I can say is we agree that it is inconsistent, and I 
just hope you can continue to work with us on this, because we 
do have administrative authorities that we can use, and we also 
want to keep working through some of the questions that your 
office has raised.
    Senator Baldwin. I appreciate that, and certainly think 
that if we were to advance this legislation, we would have real 
clarity. So, I appreciate your answer. I have been working on 
this for about 4 and a half years, previously as a member of 
the House and now as a member of the Senate, and I look forward 
to continuing to work together.
    Thank you. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Baldwin.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman. I guess my 
questions are going to go to the point I made earlier about the 
need for us to be good stewards of the Park Service and with 
all the backlogs that we have, to make sure we are not 
continuing to expand the Park Service in ways that might look 
attractive short term but put us even further behind in terms 
of our ability to maintain the properties, and again, be good 
stewards.
    So, as I look at this, the bills that modify or expand 
boundaries, S. 1189, S. 1718, S. 1785, S. 2031, S. 2356, they 
all seek to expand National Park units.
    So, my question for you, Ms. Goldfuss, would be how much 
land is involved overall, and how much land is currently in 
private ownership. Do you know the answers?
    Ms. Goldfuss. Are you saying cumulatively for all the bills 
that we have presented today?
    Senator Portman. Cumulatively, yes. I was lumping together 
all these one, two, three, four, five that all expand or modify 
boundaries.
    Ms. Goldfuss. I apologize. I do not have the exact number 
for all of the bills. I could attempt to add, but it would be 
very rough.
    Senator Portman. Why not give us an example, for instance, 
the Mojave National Preserve, or the Paterson Great Falls 
National Historical Park?
    Ms. Goldfuss. Paterson Great Falls is the addition of a 
stadium that neighbors the park, so it is small in acreage, and 
actually the Park Service would not be taking over or in the 
amendment we are proposing, we would not be taking it over, it 
would be a preservation easement that would be placed over the 
actual stadium. The city of Paterson and the school district 
there would hold on to the actual ownership of the stadium.
    When it comes to the battlefield in----
    Senator Portman. Let's just back up for a second on the 
stadium. I have seen a photograph of it. It would be putting an 
easement on to preserve it. What would that require in terms of 
additional personnel from the Park Service or costs for the 
Park Service?
    Ms. Goldfuss. If the legislation were to be passed, we 
would have to look at--right now, we have staff on the ground, 
so incorporating that would not take additional staff 
immediately. We would want to look at what the interpretation 
needs were and how we would incorporate that into the existing 
unit.
    So, I would not have numbers right now in terms of 
additional personnel, and then we would have to study what 
requirements we have in terms of maintaining that stadium. 
There have been studies that are pretty large in terms of the 
upkeep for that, but that would not be a burden we would take 
on initially.
    Senator Portman. How about the Mojave National Preserve?
    Ms. Goldfuss. So, 2,100 acres would be eventually donated 
to the National Park Service, but at this time, those acres 
have not been identified for donation yet.
    Senator Portman. Again, and maybe there is a better example 
of this, Shiloh or Petersburg or Apostle Islands, as we talked 
about, what does that mean in terms of the Park Service, in 
terms of additional personnel, additional costs?
    Ms. Goldfuss. Unfortunately, it is going to be unique to 
each unit. If you look at the Apostle Islands----
    Senator Portman. Let's take the 2,100 acres at Mojave, 
let's say that is in fact donated.
    Ms. Goldfuss. Right.
    Senator Portman. Donations are great, but then the upkeep 
and the maintenance, the stewardship. I assume the park would 
have a role there.
    Ms. Goldfuss. Correct, and in that particular case, we have 
asked that the lands identified be tied to our land protection 
plan for the park, so in that case, when the lands are donated, 
if they are of high resource value, it is actually a benefit 
for us, because it is easier to manage the area when it is 
connected. So, whether it is private ownership in holdings' 
areas right next to the park--I mean I think Apostle Islands 
actually might be an example of what you are looking for, where 
we are taking on an additional lighthouse.
    Senator Portman. Yes.
    Ms. Goldfuss. From our perspective, history does not stop, 
even though we have an enormous maintenance backlog, that is a 
top priority for us to address, and thank you so much for your 
comments on the Centennial in the beginning.
    We really see the Centennial as an opportunity to prepare 
the parks for our next generation and our second century. We 
have the responsibility at the same time to address historic 
moments in time. That is part of our mission. We cannot 
disconnect them.
    So, although we recognize the maintenance backlog is 
something we are working very hard to address and a top 
priority in our budgeting, we also see that opportunities to 
include new pieces of history and tell the story for all 
Americans are very important as we continue going forward.
    Senator Portman. Would it be possible for you to give the 
subcommittee an analysis of each of these? I am sure you have 
it. How much it will increase the operating expenses at each 
unit, and also just specifically, how many more personnel would 
be required, so we have that for the record.
    Ms. Goldfuss. Yes, definitely, we will get you want we can.
    Senator Portman. You know, again, you talked about the 
maintenance backlog. What is the impact on the maintenance 
backlog? Is it going to make it even worse? I assume it does, 
because we are not talking about additional funding in these 
bills. We are talking about acquisitions.
    How about hunting and fishing? When you look at some of 
these new proposed park units, S. 1389, S. 1785, S. 2293, for 
instance, areas where I assume there would be hunting and 
fishing currently underway. What is proposed there? Do you 
know?
    Ms. Goldfuss. I wish I had all the names memorized with the 
numbers. If you can tell me which ones you are talking about.
    Senator Portman. S. 1389.
    Ms. Goldfuss. S. 1389. So, that is in New York City, the 
Prison Ship Martyrs' Monument Preservation Act, so it is a park 
actually in Brooklyn, so hunting and fishing----
    Senator Portman. Probably not a lot of hunting there.
    Ms. Goldfuss. Right, not a lot of hunting there.
    Senator Portman. Yes. Although, it looks pretty wooded.
    [Laughter.]
    Senator Portman. OK. Let's leave Brooklyn out of this, 
although it does look--they probably have some wild turkeys 
there.
    [Laughter.]
    Senator Portman. How about S. 1785.
    Ms. Goldfuss. OK, Shiloh National Military Park. Let me 
just find out where Shiloh is.
    Senator Portman. Shiloh Battlefield in Tennessee.
    Ms. Goldfuss. I can get you the information on hunting in 
that particular battlefield area, but once again, I am not sure 
it is a major concern in the area. It is pretty residential.
    Senator Portman. What might be most helpful is if you would 
just give us an analysis, again, for purposes of analyzing 
these where you think it is an issue, and whether there is a 
way to deal with that.
    Ms. Goldfuss. We would be happy to.
    Senator Portman. The language in S. 2104 suggests 
approximately $2 million was advanced from the States to the 
Park Service to keep different units open. What is the exact 
figure that will be reimbursed to the States listed in the 
legislation? We talked about that earlier. How much will each 
State be receiving?
    Ms. Goldfuss. Two million is the total, and we can get you 
a breakdown by State.
    Senator Portman. OK. That would be helpful. Do you have any 
sense of how many visitors were lost nationwide when those 
units were closed for the shutdown, which I think was about 16 
days?
    Ms. Goldfuss. Yes. So, there was a loss. We did a report 
soon after the shutdown to look at the impacts. There was about 
$414 million lost nationally in gateway communities, and around 
11 million visitors nationally.
    Senator Portman. Wow. This includes local community impacts 
from the gateway communities?
    Ms. Goldfuss. Excuse me?
    Senator Portman. That would include the local community 
impact?
    Ms. Goldfuss. Correct.
    Senator Portman. OK. Does the inclusion of 4(c)(1) in that 
S. 1750 language allow the States to receive a refund for all 
the amounts provided to the Parks Service without returning any 
fees that might have been charged to visitors during the 
shutdown? How do you deal with that? I assume there were fees 
still collected in some of those places--or not?
    Ms. Goldfuss. I am sorry. Could you repeat the question?
    Senator Portman. Were there fees collected during that 
period?
    Ms. Goldfuss. In the parks that were closed?
    Senator Portman. Yes, when the States took them over.
    Ms. Goldfuss. I will have to get back to you on how we 
handled the fee collection during that period of time and how 
much money----
    Senator Portman. Can you just let us know?
    Ms. Goldfuss. Yes. I believe we did carry on in the parks 
that were reopened by the States, but I do not have an exact 
figure on that.
    Senator Portman. Have you netted that out in terms of the 
amount to be repaid?
    Ms. Goldfuss. We will get it for you.
    Senator Portman. OK. That is great. Thank you very much. 
Mr. Smith, just quickly, on yours, you did a good job 
describing them on the lands, you have BLM/U.S. Forest Service 
involvement here.
    With regard to the Colorado River--I am sorry--the Colorado 
Wilderness Act amendment, which would be S. 1794, I guess, just 
a question, why were those areas not originally included in the 
Colorado Wilderness Act? Do you know?
    Mr. Smith. My understanding is it was originally put in the 
Wilderness Act but it was larger; and I think it was taken out.
    Senator Portman. OK. Why will the BLM and the Forest 
Service and others maintain control over the purposed area 
instead of the land being classified as a National Park Service 
national monument?
    I understand BLM and Forest Service are going to maintain 
control over some of the areas.
    Mr. Smith. I think basically we have been managing those 
lands together for some time, so I think that is the reason we 
went that way. I do not have any knowledge of why it was not 
proposed for transfer to the Park Service. I think it is just 
the way they have been managed. Most of them have been managed 
as the proposed designation as it is already, so I think it was 
just the logical flow, to just keep it within the BLM and 
Forest Service.
    Senator Portman. OK. With regard to the Wild and Scenic 
Rivers Act designations, S. 412, S. 1520, H.R. 2197 and S. 
2392, from the testimony earlier, it sounds like the 
designations, at least for the one in Montana, is not going to 
change the purposed uses of the river or the water uses or the 
surrounding land. Is that true with all these?
    Mr. Smith. That is correct.
    Senator Portman. Great. Thank you very much. I appreciate 
it. Thank you, Mr. Chairman. Thanks for the answers in your 
follow up.
    Senator Udall. Thank you, Senator Portman, for a thorough 
review of many of these important bills.
    I wanted to just respond to Senator Portman's important 
questions about Browns Canyon. As I understand it, and we will 
make sure it is very clear for the record, the land proposed in 
the wilderness--for the wilderness in my bill, there has been a 
wilderness study a year for more than 20 years, to determine 
whether it was part of the original process, and therefore, 
would have been designated as a wilderness study area in the 
first Bush administration.
    Because it was identified as having wilderness qualities, 
it has been managed as a tier one Roadless area because of its 
wild and undisturbed nature.
    As I mentioned, in 2005/2006, Congressman Hefley, with whom 
Senator Portman and I both served in the House, proposed 22,000 
acres, give or take, as wilderness in this area. For a number 
of reasons, it did not get to the finish line but there was a 
lot of support that was generated at that time.
    One of the reasons we did not get to the finish line was 
there was still local concerns, and over the next 8 years, I 
worked along with a lot of other stakeholders to get to a point 
where there is just broad support for this, as I mentioned in 
my earlier remarks.
    So, with that, let me turn to Mr. Smith, just for comments. 
You let it be known you support the two bills you are 
testifying on, the Browns Canyon National Monument designation, 
and the East Rosebud Creek Wild and Scenic Rivers' site. I do 
not have any questions for you, although that could change over 
the next few minutes.
    One other point, since we are talking about Browns Canyon 
again. Senator Portman had asked about the management of the 
area. There was an unique arrangement, Senator Portman, that 
was derived 6 or 8 years ago between the BLM, the Forest 
Service and our Department of Wildlife and Natural Resources in 
Colorado.
    They share costs. They share management. Given the mixed 
ownership of the area, it has actually been an exemplary, I 
should say, partnership. We maintained that.
    That was one of the conditions that locals asked us to 
embrace because again, it has worked very well, it has given 
the rafting companies and the anglers and many others certainty 
about whatever permitting processes are necessary, and how 
those lands are managed.
    It is very, very uplifting when you go there and see how 
this corridor is managed, from the trash that is generated to 
the launches themselves, and the way the various users 
coordinate on the river corridor, whether it is anglers, 
whether it is the rafters or the hikers. There are equestrians 
that use the area as well.
    It is a nice creative way in which to manage that river 
corridor.
    So, let me turn to Ms. Goldfuss. Let me ask you first about 

S. 2104, which would authorize appropriations to reimburse the 
States which donated funds to keep certain national parks open 
during the government shutdown last year.
    It is my understanding that the parks that received State 
donations ultimately received their full Federal appropriation, 
so they actually received double funding during the shutdown. 
Is that your understanding as well? It may get at sort of what 
Senator Portman was trying to discover, if you will. He has a 
keen eye. He used to head the OMB. We want to make sure his 
questions are answered.
    Ms. Goldfuss. Yes, that is correct. They did get their full 
appropriation and got the donation during the period of time of 
the shutdown.
    Senator Udall. My next question is to S. 1189, which would 
modify the boundaries of Paterson Great Falls National 
Historical Park in New Jersey to add the Hinchliffe Stadium to 
the park.
    When the park was designated, the stadium was excluded from 
the proposed park boundary because of questions about its 
historical significance. The Park Service now supports adding 
the stadium to the park boundary.
    What accounts for those change of views with respect to 
including the stadium in the park? Has there been a re-
evaluation of the historical significance of the site?
    Ms. Goldfuss. Yes, that is correct. Since the original 
legislation, there has been a report and a review, and it has 
actually been designated as a national historical landmark, so 
we have identified that significance.
    Senator Udall. Thank you for that clarification. Continuing 
with you, several of the bills on today's agenda would extend 
the authorization period for specific National Heritage Areas 
so that they could continue to receive Federal funding.
    In recent years, the committee has included language in 
Heritage Area bills requiring the Park Service to conduct an 
evaluation of the area prior to the expiration of its funding 
authorization, and to make recommendations about the need for 
future funding requirements, so Congress could in the end 
better evaluate how successful the Heritage Area has performed.
    I want to make sure I understand the Park Service's 
position on these various Heritage Area funding 
reauthorizations. Your recommendation is that evaluations 
should be conducted for these areas before they are given long 
term funding reauthorizations; is that correct?
    Ms. Goldfuss. Correct. We are looking at the extension so 
that we can have the time to conduct the actual evaluation and 
reports that would give you that information.
    Senator Udall. Let me follow up on a related issue that you 
raised. Every time the Park Service has testified on a bill to 
establish a new National Heritage Area, the testimony 
recommends that action on the bill be deferred until program 
legislation is enacted, which would better define the 
designation and administration of these areas.
    From what I understand, most recent Heritage Area 
designations have had studies which have been approved by the 
Park Service prior to designation, and for the most part, the 
management language in every Heritage bill is essentially the 
same.
    What would Heritage Area program authority add beyond the 
requirements that are currently included in all of those bills?
    Ms. Goldfuss. We look at the program authority similar to 
the creation of the Park Service as a whole and the system. So, 
initially, we had individual parks, and then once we had a 
collective of individual parks, we needed a system and a 
framework for actually managing each of the parks.
    The Heritage Areas, we have now had 30 years, 49 different 
Heritage Areas, and in terms of coordinating and really setting 
up a framework for the future on these, it is helpful to have 
that program legislation in place to administer them.
    Senator Udall. One final Heritage Area related question, 
apart from your recommendation for action on the 3 proposed 
Heritage Areas, Appalachian Forest in West Virginia, the 
Maritime and Mountains to Sound Heritage Areas in Washington 
State, have the appropriate studies been completed and 
reviewed, and are all 3 areas appropriate for designation as 
National Heritage Area sites?
    Ms. Goldfuss. Yes, that is true. They have all been found 
suitable and we worked closely with the communities on the 
ground to make sure they understand those needs and identified 
the right characteristics.
    Senator Udall. I am going to go off my formal list of 
questions. So, do you still feel like the Heritage Area system 
is administered more on an ad hoc basis than, if you will, a 
consistent or formulaic basis using ``formulaic'' in a positive 
way, not a critical way?
    Ms. Goldfuss. Our Heritage Area staff in the system does an 
amazing job to set up the framework, and we do apply the same 
standards as much as we can, but it is similar to any of the 
systems and programs that we administer. Having legislative 
authority and actual criteria that is in law is helpful for 
administering things in perpetuity.
    Senator Udall. We have a number of National Heritage Areas 
in Colorado which have proven their worth many times over, and 
we want to continue to improve the administration as well as 
the education and availability of those areas.
    I want to work more with you all as we move forward.
    Ms. Goldfuss. They are huge opportunities to coordinate on 
the ground.
    Senator Udall. Yes, and clearly, I believe, within the Park 
Service mission. Now, let me move to S. 1866. That would extend 
the legislative authority for the Adams Memorial. The memorial 
was initially authorized, I believe, in 2001. The Commemorative 
Works Act provides 7 years for the sponsoring organization to 
generate the required permits and raise the funding needed to 
build the memorial.
    In the past, several memorials have had their legislative 
authority extended multiple times. Why? The sponsors were 
unable to raise enough money to begin construction. You are 
familiar with that.
    As a result of those many extensions, the Park Service 
recommended a change to the law which authorized it to 
administratively extend the authority an additional 3 years, if 
the sponsor met certain requirements. I think that is right.
    You are now supporting extending authorization for this 
memorial an additional 7 years or a total of 19 years. Is this 
acknowledgement that the time requirements in the Commemorative 
Works Act are still unworkable?
    Ms. Goldfuss. I would say it depends on which memorial we 
are looking at and the ability of the outside groups to 
actually raise the funds. So, we would not say that the 
timeframes are unworkable. It really depends.
    We have seen many that have met and been able to accomplish 
their goals in the timeframe that is given in the Commemorative 
Works Act, but for those that cannot, we need the ability to 
extend it, and then we also feel that the timeframes are 
necessary to reevaluate and make sure that it is still a viable 
proposal.
    Senator Udall. Your judgment is the Adams Memorial has 
potential, the Adams Memorial is important enough, the Adams' 
family has such a significant historical place in America, that 
we should keep this possibility alive?
    Ms. Goldfuss. Correct; yes.
    Senator Udall. Let me turn to S. 2293. It would clarify 
that 3 national scenic trails shall be administered as units of 
the National Park Service. Senator Baldwin spoke about this 
earlier. Why is legislation necessary for this, and to pile on 
ever so gently, why have you not classified the 3 trails the 
same as the other national scenic trails?
    Ms. Goldfuss. I will just extend what I said to Senator 
Baldwin. The case is not clear here. There is administrative 
authority in terms of addressing this question of unit status.
    Through this hearing and through our conversations with 
Senator Baldwin, we are going to take a closer look at this, 
because it is somewhat nomenclature. For the most part, we 
administer and apply the same set of standards and different--
you know, the trails are able to get the same amount of our 
attention and funding.
    So, for us, we do not feel like there is a disparity 
between the trails, but we recognize that it can seem 
inconsistent and we need to take a closer look.
    Senator Udall. I look forward to seeing your analysis and 
understanding further where we are and where we might go. It is 
impressive looking at the National Scenic Trails System. I did 
not know the extent to which there were these kinds of 
opportunities.
    Once again, America leads the way, and it makes me really 
proud to see this, and I know we will work to further enhance, 
support and protect these trails, and I would bet add some 
additional ones because it seems to be something certainly 
Senator Portman and I spend time on, get excited about, 
providing greater access to the incredibly diverse nature of 
our landscapes in America.
    Senator Portman, I am finished with my questions. Do you 
have any other thoughts?
    Senator Portman. No, I do not. Thank you. I appreciate the 
follow up. I know at least the staff on our side did not have 
all the answers, so that would be helpful as we move forward 
from this hearing.
    Ms. Goldfuss. Most definitely.
    Senator Portman. Thank you.
    Senator Udall. If there are no further questions, I want to 
thank both of you for taking the time to come to the Hill, and 
for your thoughtful and informative testimony.
    Some members of the committee may submit additional 
questions in writing. If so, we may ask you submit answers for 
the record. I know you will be happy to comply with those 
requests. We will keep the hearing record open for 2 weeks to 
receive any additional comments.
    The subcommittee is adjourned.
    [Whereupon, at 3:33 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    [Responses to the following questions were not received at 
the time the hearing went to press:]
        Questions for Christina Goldfuss from Senator Murkowski
    Question 1. Some of the bills in the hearing seek to expand 
National Park Units. How much of the land involved in these proposed 
expansions is currently in private ownership? How many additional acres 
will be added to the National Park System?
    Question 2. Will expanding the boundaries under S. 1189, S. 1718, 
S. 1785, S. 2031, and S. 2356 require any additional personnel to work 
at each location? What will the total cost of expansion be in each 
case?
    Question 3. If S. 1189, S. 1718, S. 1785, S. 2031, and S. 2356 are 
signed into law, how will it affect the annual operating expenses at 
each location?
    Question 4. How will the new units under S. 1389, S. 1785, and S. 
2293 add to, or affect, the maintenance backlog?
    Question 5. How is the land under consideration in S. 1641, S. 
2576, and S.2602 currently being utilized? Will the National Heritage 
Area designation change how the land is currently being used?
    Question 6. Is any land under consideration in S. 1641, S. 2576, 
and S.2602 privately owned? If so, have any of the land owners objected 
to these proposals?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

  Statement of Bill Imbergamo, Executive Director, the Federal Forest 
                           Resource Coalition
    On behalf of the over 390,000 Americans who earn their living 
managing our National Forests and BLM forest lands, we applaud the 
introduction of the Public Access to Public Lands Guarantee Act of 
2013. The recent unnecessary closure of the National Forests System and 
BLM lands created significant disruption for our members and 
potentially vast liability for the Federal government.
    Of course, as you note, it is strongly preferable for Congress and 
the Administration to simply avoid any future government shutdowns. 
Further, it is incumbent upon Congress to take action immediately to 
stabilize appropriations and provide full year funding bills for our 
Federal land management agencies. The Forest Service and BLM have been 
funded since 2008 by a series of 12 short-term omnibus bills and 
Continuing Resolutions, which have last on average just 5 months. In 
fiscal year 2013, the Forest Service field units did not receive their 
final allocation of appropriations until half way through the fiscal 
year.
    The Forest Service faces significant obstacles as it attempts to 
manage the our public forests. Most of these consist of frivolous 
appeals and litigation by groups who do not support forest management. 
These groups exploit the laws passed by Congress and interpreted by the 
Courts. These difficulties are compounded when the agency budget is 
unstable, unpredictable, and passed in short-term chunks. Congress must 
act to clarify the tangle of laws that enable this type of dilatory 
behavior.
    Your legislation would be helpful in the unfortunate event that the 
Congress and President fail once again to find common ground, leading 
to another unnecessary shutdown. Many states are capable of assuming 
management responsibility on the National Forest System. Having such a 
process in place would help prevent unnecessary disruption of vital 
forest management activities. We look forward to working with you on 
this legislation.
                                 ______
                                 
 Statement of Phyllis Baxter, Executive Director of Appalachian Forest 
                    Heritage Area, Inc., on S. 1641
    Mr. Chairman. Thank you for the Subcommittee's consideration of S. 
1641 to establish the Appalachian Forest National Heritage Area. We 
would like to offer brief comments in support of this bill and to share 
with you some of the ongoing benefits of this endeavor.
    Appalachian Forest Heritage Area celebrates the central Appalachian 
forest including its history, culture, natural history, forest 
management and products. Our grassroots partnership has been operating 
as an ad hoc heritage area initiative for over ten years within 
eighteen counties in the highlands of West Virginia and western 
Maryland. Our organization promotes rural community development through 
heritage tourism development and forest conservation.
    We have developed diverse stakeholder support, identified assets 
related to forest heritage, and established an organization through a 
broad range of partnerships with public, non-profit, and private 
entities. We have completed a Feasibility Study addressing the National 
Heritage Area criteria identified by the National Park Service, and 
supported by over 165 support letters. This study has been reviewed and 
approved by the National Park Service as meeting those criteria. In 
completing this study, and through our planning, operations, and 
efforts to seek national designation, we have done all that we can to 
follow the steps and standards set forth in the proposed National 
Heritage Area program bill, so that if and when such a bill is passed, 
we will be fully compliant with its provisions and expectations.
    Appalachian Forest Heritage Area has operated as a sustainable 
organization for more than ten years, demonstrating that we are 
committed to helping build the future for our unique and nationally 
significant forest region. We explore the relationship between the 
Appalachian highlands forest and the people who live within it by 
developing interpretive products to share multiple forest heritage 
themes and stories, connecting cultural heritage and natural tourism 
sites, and establishing a forest heritage museum and information 
center. We mobilize volunteers to assist cooperating public lands and 
private landowners with forest conservation efforts such as non-native 
invasive species control, tree plantings, and recreation improvements. 
We administer a dynamic AmeriCorps program which places members with 
local sites providing direct service for conservation, historic 
preservation, and heritage development.
    We are seeking National Heritage Area designation primarily because 
this honor will acknowledge the nationally significant role that the 
Appalachian Forest has had in our nation's history, and will provide 
recognition of the importance of our region's forest heritage resources 
historically and today. National Heritage Area designation will provide 
us with access to technical assistance and resources that will help us 
reach out more effectively across the entire 18-county, two-state area, 
and enable us to accomplish much more to benefit our forests, our area, 
and our communities.
    National Heritage Areas are a proven strategy to support 
collaborative regional efforts where stakeholders are working together 
to preserve their nationally significant resources while leveraging 
those resources for appropriate growth and community benefit. 
Appalachian Forest Heritage Area is working every day towards 
accomplishing these goals for our rural, under-developed area. We ask 
you to support this Bill to establish the Appalachian Forest National 
Heritage Area to recognize, protect, and help develop the forest 
heritage assets of this outstandingly beautiful, nationally significant 
region.
    Thank you for your attention to our efforts.
                                 ______
                                 
  Statement of Land Management, Department of the Interior, on S. 1794
    Thank you for inviting the Department of the Interior to testify on 
S. 1794, the Browns Canyon National Monument and Wilderness Act. The 
Department supports S. 1794 as it applies to lands administered by the 
Bureau of Land Management (BLM) and defers to the Department of 
Agriculture regarding lands within the National Forest System Lands.
                               background
    Browns Canyon is characterized by its rugged beauty, colorful 
outcroppings and the abundant wildlife of the Arkansas River Valley. 
The west side of the proposed national monument features Browns Canyon 
which descends 3,000 feet to the Arkansas River. From the river, the 
land climbs dramatically to an elevation of 10,000 feet. A significant 
herd of bighorn sheep resides within Browns Canyon and it is an 
important winter range for deer and elk. Hunters and hikers alike take 
in the spectacular vistas across the Arkansas Valley to the 14,000 foot 
peaks of the Collegiate Range, while the gulches and canyons offer 
exceptional opportunities for solitude.
    The Arkansas River is one of the nation's most popular whitewater 
rafting destinations, with more than 300,000 visitors floating it 
annually. Nearly half of these visitors float the nationally-renowned 
Browns Canyon segment. In addition to whitewater rafting, visitors 
enjoy fishing, hunting, hiking, backpacking, camping, horseback riding, 
snowshoeing and photography in the area.
    For over a decade, bipartisan proposals have been proposed to 
protect Browns Canyon. Local elected officials, sportsmen's groups and 
business owners have endorsed Senator Udall's current proposal to 
permanently protect this dramatic landscape.
                                s. 1794
    S. 1794 proposes to designate nearly 22,000 acres of Federal land 
in Chaffee County, Colorado, as the Browns Canyon National Monument. 
The bill further proposes to designate over 10,000 acres of the 
national monument as wilderness. Approximately 9,750 acres of the 
proposed monument and 7,960 acres of the proposed wilderness are lands 
currently managed by the BLM, and approximately 12,060 acres of the 
proposed monument and 2,500 acres of the proposed wilderness are lands 
currently managed by the U.S. Forest Service. Each agency would 
continue to manage these areas following designation.
    Each of the national monuments and National Conservation Areas 
(NCAs) designated by Congress to be managed by the BLM is unique. 
However, these designations typically have critical elements in common, 
including: withdrawal from the public land, mining, and mineral leasing 
laws; limiting off-highway vehicles to roads and trails designated for 
their use; and language that charges the Secretary of the Interior with 
allowing only those uses that further the conservation purposes for 
which the unit is established. Furthermore, these Congressional 
designations should not diminish the protections that currently apply 
to the lands. This bill honors these principles, and we support the 
monument's designation as it applies to lands managed by the BLM.
    The core of the proposed national monument would be designated as 
the Browns Canyon Wilderness. This area meets the definition of 
wilderness; the land and its community of life are largely untrammeled. 
It has retained its primeval character and has been influenced 
primarily by the forces of nature, with outstanding opportunities for 
primitive recreation or solitude.
    Under the bill, most of the existing Wilderness Study Area (WSA) 
will be incorporated into the Browns Canyon Wilderness. Approximately 
120 acres of land within the WSA will not be designated as wilderness 
and would be released from WSA status. These released acres along the 
Arkansas River will be managed as part of the monument, but release 
from WSA status will provide more flexibility in the area contiguous to 
the river.
    We would like the opportunity to work with the sponsor on an 
updated map prior to markup of the legislation.
                               conclusion
    Thank you for the opportunity to testify in support of S. 1794, we 
look forward to its swift passage.
                                 ______
                                 
  Statement of Kathie Younghans, Amicas Restaurant and Microbrewery, 
                               Salida, CO
    Dear Senator Udall:
    We the undersigned* businesses support you in moving forward to 
designate a National Monument for the Browns Canyon Area along the 
Arkansas River in Colorado. Browns Canyon provides a unique combination 
of exciting whitewater, wildlife and wilderness recreation. We believe 
a national monument designation would preserve Browns Canyon while 
sustaining jobs, growing our economy and protecting Colorado's quality 
of life for generations to come.
---------------------------------------------------------------------------
    * Other names and organizations have been retained in subcommittee 
files.
---------------------------------------------------------------------------
    The area is renowned for offering a range of year-round 
opportunities for exploring Colorado's outdoors. Browns Canyon is the 
most popular whitewater rafting destinations in the nation and folks 
regularly visit to go whitewater rafting, kayaking, hiking, hunting and 
fishing in Browns Canyon and biking and off-roading in the surrounding 
area. As a national monument, Browns Canyon would attract tourists 
statewide, nationally and internationally who will visit our Valley, 
spend their well-earned dollars and boost our economy all while 
appreciating this remarkable Colorado landscape.
    A designation would attract public attention and increase tourism 
to the Arkansas River Valley. We support your efforts to protect Browns 
Canyon and ask you to move as quickly as possible to secure a much 
deserved national monument designation to help promote our community 
and tourism to the area.
                                 ______
                                 
  Statement of April Prout-Ralph, Marketing Director, Chaffee County 
                            Visitors Bureau
    The Chaffee County Visitors Bureau would like to extend its support 
for the designation of Browns Canyon as a National Monument. We will 
support any proposals which do not deny access to any user groups.
    More than 150,000 visitors will annually float this stretch of the 
Arkansas River with a commercial rafting organization. In Colorado 
outdoor recreation generates more than $10 billion in annual revenues 
to our state economy and supports close to 107,000 jobs. Many 
businesses in Chaffee County depend on tourists and the tourism 
activities they come to enjoy.
    Permanent protection such as a National Monument creates visibility 
for local communities which help safeguard and highlight the amenities 
that attract visitors and businesses that support and thrive from 
increased tourism.
    A 2011 study of 17 recently established National Monuments found 
that without exception, local communities experienced economic growth 
following a monument's designation. Both jobs and tourism increased in 
those areas where national monuments had been established.
                                 ______
                                 
    Statement of Katie Blackett, CEO, and Scott Braden, Director of 
          Conservation, the Colorado Mountain Club, Golden, CO
    The Colorado Mountain Club (CMC) fully supports designation of a 
new national monument and wilderness to protect the outstanding 
recreational opportunities and natural resources of Browns Canyon on 
the Arkansas River. CMC, in particular, appreciates the leadership of 
Sen. Udall for starting a conversation around protecting Browns Canyon.
    Founded in 1912 and celebrating our Centennial this year, CMC 
boasts over 7,000 members and 14 chapters across the state. CMC members 
engage in over 3,000 hikes, trips and activities per year, the majority 
in our state's iconic Rocky Mountains. We have been active in 
conservation issues since our founding; indeed CMC members were deeply 
involved in the establishment of Rocky Mountain National Park in 1916. 
Since that time we have advocated for protection of wild places and 
have defended opportunities for human-powered recreation.
    One of Colorado's crown jewels, Browns Canyon offers a range of 
year-round recreational opportunities in a beautiful and wild setting. 
In addition to being the nation's most popular whitewater rafting 
destination, Browns also offers hiking, kayaking, hunting, fishing and 
photography opportunities. The whitewater tourism industry in the 
Arkansas valley has a total economic impact of $60 million per year. A 
national monument designation will only increase the name recognition 
and thus the tourism for the region.
    The Outdoor Industry Association's recent study found that outdoor 
recreation is one of the bright spots of our national economy, with an 
annual contribution of $646 billion and creation of 6.1 million jobs. 
We urge our leaders to find ways to facilitate this growth in outdoor 
recreation, and protection of our public lands is one of the most 
effective ways to make sure we nurture our outdoors recreation economy. 
Additionally, Colorado College's State of the Rockies survey found that 
78% of Coloradans believe that we can protect land and water and have a 
strong economy at the same time, and that 67% of Coloradans self-
identify as conservationists, and that this label bridges partisan, 
ethnic and rural/urban lines in the state.
  Statement of David N. Potts, Chaffee County Commissioner, Board of 
                       Commissioners, Salida, CO
    As a sitting County Commissioner of Chaffee County, Colorado I 
extend my support for the creation of the Browns Canyon National 
Monument. For all to understand that tourism is the current economic 
foundation of Chaffee County, that the rafting industry has not yet 
recovered from the drought of 2002 and we need to recognize the 
international marketing advantage that the industry will benefit from 
by floating through the Browns Canyon National Monument.
    By supporting the creation of the Browns Canyon Monument, I 
understand from the presentation of the proposal that no existing uses 
will be affected in any manor detrimental to those uses. The proposal 
also states that the Turret Trail (FS 184) will remain intact for its 
current total of nearly seven miles.
    In the development of ``The Management Plan'' there needs to be an 
element of understanding for impact on Chaffee County's infrastructure, 
specifically County Roads 194, 301 & 300. These county roads will be 
the main and easiest accessible routes to the proposed monument other 
than the Arkansas River. The county should be a member in standing of 
the ``Management Team'' with the Bureau of Land Management, the U.S. 
Forest Service and the Colorado Parks & Wild Life and receive due 
consideration for any further development, maintenance and general 
upkeep of these county roads because of the anticipated increase of 
use.
    This letter of support speaks only for me and not for the Chaffee 
County Board of Commissioners as a whole.
 Statement of Pete Maysmith, Executive Director, Conservation Colorado
    Dear Senator Udall,
    Thank you for sponsoring the Browns Canyon National Monument with 
Wilderness Act and your leadership on winning permanent protection for 
this Colorado icon. You have created a well-rounded bill that reflects 
input and significant support from from a vast array of stakeholders; 
that is an impressive accomplishment.
    Conservation Colorado applauds S. 1794 and is excited to see 
progress, especially its upcoming hearing before the National Parks 
subcommittee. Your bill would create a 22,000 acre national monument 
centered on the Arkansas River, and additionally designate a 10,500 
acre wilderness area within the monument. Your Browns Canyon National 
Monument proposal would allow for rafting and fishing to continue on 
the clear flowing waters, and preserve the canyon for future 
generations.
    Conservation Colorado recently commissioned a statewide poll on how 
constituents feel about designation of Browns Canyon National Monument. 
A resounding 77% said that they support designation. This support was 
widespread across rural and urban parts of Colorado, among men and 
women, including Republicans as well as Democrats. In particular, 
suburban women were especially supportive.
    The stretch of the Arkansas River that runs through Browns Canyon 
is one of the most popular white-water recreation areas in the country. 
It brings in $55 million each year to the local economy. Last year, 
rafters spent nearly 50,000 more user days on Colorado rivers, 
including an increase of 10,000 user days on the Arkansas River alone. 
The Arkansas River is continually the highest grossing river in 
Colorado.
    Recently, the non-partisan research organization Headwaters 
Economics analyzed the economic growth connected to the seventeen 
national monuments that were designated between in 1982 and 2011 in 
eleven Western states. The study showed that population, employment, 
personal income, and per capita income either remained steady or 
improved in the areas surrounding the national monuments. Permanent 
protection of Browns Canyon as a national monument creates visibility 
that will likely be a strong economic benefit for local communities 
given that the designation will safeguard and highlight the very 
amenities that attract people and businesses to Chaffee County. 
National monuments develop into long-term economic boosts for their 
communities and states by increasing and improving tourism, recreation, 
and the relocation of businesses and people.
    A national monument designation will guarantee the social, 
environmental, and economic legacy of Browns Canyon remains unaltered 
for future generations to be able to continue to enjoy as we do today.
    Thank you again for your efforts.
                                 ______
                                 
               Statement of Martin Walsh, Mason City, IA
    To Whom it May Concern:
    I would like to submit my support for the National Scenic Trails 
Parity Act to bring various long distance hiking trails to the same 
protection as the Appalachian Trail and others.
    Two of the trails being considered, the North County Trail and the 
Ice Age Trail service the Midwestern United States, an area severely 
lacking in National Parks and public land in general. As a resident of 
Iowa and a lifelong Midwesterner, I think it is crucial to grant these 
trails the protection and significance allotted by this act.
    Thank You.
                                 ______
                                 
                Statement of Gary Klatt, Whitewater, WI
   national park unit status for the ice age, north country, and new 
                     england national scenic trails
    I am heavily invested in the Ice Age Trail as a 21 year active 
volunteer and board member of the Ice Age Trail Alliance. We are at a 
good and difficult place in our development right now. Good because we 
have an excellent, hard-working and effective staff and a strong 
volunteer base. Difficult because we have put our planned 1000+ mile 
trail down on most of the easy places--e.g. public land and willing 
landowners. The remaining 400 miles we need to complete will require 
impressive work and money as we compete with developers and convince 
landowners to give or sell us access. Having Unit Status will be a huge 
help in our efforts to extend our trail and in getting folks to value 
hiking and being outdoors.
                                 ______
                                 
                         Statement of Rita Fox
    Please vote in favor of giving National Park Unit Status to the Ice 
Age, North Country, and New England National Scenic Trails so that they 
would have the same status as the Appalachian, Natchez Trace, and 
Potomac Heritage National Scenic Trails. I would like to see the Ice 
Age National Scenic Trail (and two others) administered by the National 
Park Service, given the same status within the agency and make us 
eligible for the array of new funding and resource support appropriated 
to support the National Park System.
    With the Ice Age Trail so accessable to people in the state of 
Wisconsin, it is important to me to see it get all the help it can to 
exist. I have hiked the entire 1100 miles and work on the Mobile Skill 
Projects and appreciate all it takes to build and maintain trail such 
as ours. This help would be welcomed. Thank you.
                                 ______
                                 
Statement of Bruce E. Matthews, Executive Director, North Country Trail 
                              Association
    The North Country Trail Association supports the passage of S. 
2293, the National Scenic Trails Parity Act. There is no logic or 
rationale in the current--and inexplicable--disparity among National 
Park Service-administered trails, with three having unit status 
(Appalachian, Natchez Trace and Potomac Heritage) and all the 
advantages associated in their management thusly, and three other 
relegated to a lesser status (North Country, Ice Age and New England). 
For many years, professional staff within the National Park Service as 
well as the major citizen support groups have attempted to redress this 
clear disparity, to no avail.
    The North Country Trail Association greatly appreciates the 
leadership of Senators Baldwin, Levin, Markey and Blumenthal with this 
bill, and we urge the Senate to correct this disparity and accord equal 
status to all the national scenic trails administered by the National 
Park Service.
                                 ______
                                 
               Statement of Dean Paynter, Janesville, WI
    This message is in support of S. 2293 which confers National Park 
Unit Status on the Ice Age National Scenic Trail as well as the North 
Country National Scenic Trail and the New England Trail. The Ice Age 
Trail passes through the heart of the City of Janesville and is the 
focal point of trail systems in our community. Enhancements to the Ice 
Age National Scenic Trail are beneficial to everyone in Wisconsin.
    The Ice Age National Scenic Trail is comparable to other trails 
with unit status, like the Appalachian and Pacific Crest Trails. It is 
comparable in length, in regional significance, in geologic scientific 
study, as a tourism asset, as it shows off the beauty of the State of 
Wisconsin.
    We very much appreciate the attention of the Energy and Natural 
Resources Committee to this important issue.
    Thank you!
                                 ______
                                 
                     Statement of Marjorie DeJongh
    I am writing to request your support of the Ice Age Trail as part 
of the National Scenic Trails Parity Act.
    This trail helps stimulate the local economy and protect the 
environment at the same time. Thank you for your consideration and 
assistance.
                                 ______
                                 
                     Statement of David W. Phillips
    Dear Senator Landrieu,
    I am writing to you to express my strong support for Senate Bill 
2293, The National Scenic Trails Parity Act.
    I am now 70 years old and have remained active and in good health 
in large part because of an active lifestyle. National Scenic Trails 
have provided me recreation, inspiration and spiritual solace since my 
boyhood. I still view an early backpacking trip on the Appalachian 
Trail in Pennsylvania as a turning point in my teen years, a time when 
my life's path had begun to take me in a very negative direction. 
Something happened on that trip that opened up other, more positive 
possibilities. I have now lived more than half of my life in Wisconsin 
and have used the North Country Trail and the Ice Age Trail as 
opportunities to connect with nature, history and the better qualities 
of my fellow human beings.
    I have worked as a volunteer on the Ice Age Trail for thirty-eight 
years and have a deep understanding of its uniqueness and importance. 
Not only does it connect some of the most outstanding features of the 
last ice age, it is unique in that it connects communities of people 
all along the way. Yes, it is like other long distance trails in that 
it goes through lots of wild country, but it also connects villages and 
towns along the way, giving people of all ages an opportunity to walk 
out of their towns and enjoy and be inspired by the forests, farmland, 
prairies and wetlands that sustain us physically and spiritually. 
Wisconsin is infinitely more beautiful once we leave the highway. A 
well maintained footpath is the best way to experience that beauty.
    The Ice Age Trail is about 60% complete at this time. The work done 
thus far has involved a tremendous number of volunteer hours and 
financial assistance from individuals and businesses. The completion of 
the last 40% of the trail will require an all out effort by all 
partners. Enactment of the National Scenic Trails Parity Act will be a 
critical component to realize this goal.
    Thank you for consideration of my letter. I will appreciate an 
opportunity to have it placed in the hearing record.
                                 ______
                                 
     Statement of the Mountains to Sound Greenway Trust, on S. 2602
    Chairman Udall, Senator Portman and Members of the Subcommittee, 
thank you for holding today's hearing. I am Cynthia Welti, Executive 
Director of the Mountains to Sound Greenway Trust, and am pleased to 
offer these comments in support of S. 2602 to establish the Mountains 
to Sound Greenway National Heritage Area. The Trust would like to thank 
Senator Cantwell and her staff for their hard work with us and the 
National Park Service to develop the consensus legislation pending 
before the Committee. We also appreciate the support from Senator 
Murray for this legislation. Finally, we would also like to thank 
Congressman Reichert for introducing a House companion. A broad 
coalition of residents, businesses, government agencies, elected 
officials, and nonprofit organizations has come together in support of 
this designation effort because they are excited about the economic, 
cultural, and community benefits that National Heritage Area status 
will provide. This designation fits the Mountains to Sound Greenway for 
the major role this area played in the formation of our nation, and 
continues to serve today as a model of natural areas in balance with 
economic growth.
                             the landscape
    The Mountains to Sound Greenway is located in Washington State and 
encompasses 1.5 million acres surrounding Interstate 90 from Seattle, 
across the crest of the Cascade Mountains, to Ellensburg in Central 
Washington. The Greenway contains conserved public forests and parks, 
private rural farms and working forests, and the fifteenth-largest 
metropolitan area in the nation. The Mountains to Sound Greenway is a 
large, lived-in, iconic landscape, spanning three watersheds, with more 
than 900,000 acres of public land, 1,600 miles of recreational trails, 
28 cities, and more than 1.4 million residents. The Greenway provides 
easy access to outdoor recreation and nature for millions of people, a 
key to the quality of life in Washington State.
                                history
    The Mountains to Sound Greenway is nationally important for its 
association with the expansion of our national transportation system 
and the creation of our modern timber industry. Beginning with the foot 
paths that Native Americans used to cross the Cascade Mountains, 
Snoqualmie Pass has funneled cultural exchange between east and west 
for thousands of years. This unique geography shaped travel routes, 
drove commerce and culture, and inspired bold acts of development and 
groundbreaking conservation.
    The footpath over Snoqualmie Pass linked the Coast Salish tribes 
with Yakama people of the Columbia Plateau, and ultimately, through an 
extensive trading network, to the Great Plains. The route they 
established, following the lowest pass in the North Cascades, went on 
to shape how this region and the United States developed.
    The Oregon Treaty of 1846 which set the US northern boundary west 
of the Rocky Mountains, included the Puget Sound area, key to the 
nation's future trade routes. However, the daunting natural barrier of 
the Cascades mountain range kept the region and its valuable assets 
isolated from the rest of the nation. While the mountains, forests, and 
waterways of the region were rich in natural resources, and offered 
extremely valuable deep-water harbors on the Pacific Ocean, these 
assets were not available because of the lack of overland connection to 
the established markets of the eastern United States.
    In 1864, President Lincoln signed the charter for a northern 
transcontinental railroad, mandating that the terminus be on Puget 
Sound. Lacking cash to fund the massive construction effort, the United 
States awarded the Northern Pacific Railroad the largest land grant in 
American history. The government transferred forty million acres, or 
two percent of the contiguous United States, to the railroad as a 
subsidy for building the rail line.
    Construction of the Northern Pacific, and later the Milwaukee 
Railroad, through the Snoqualmie Pass area was crucial in connecting 
this remote corner to the rest of the nation. This historic 
transportation corridor forged a singularly rugged traverse through the 
last frontier of the continental United States, before descending 
through vast stands of timber to reach the estuarine complex of Puget 
Sound. These east-west transcontinental rail lines, and later the 
Sunset Highway and Interstate 90, connected the Atlantic seaboard and 
the Great Plains with Seattle and Puget Sound, weaving the Pacific 
Northwest into the nation's fabric and placing the last link in the 
chain allowing full trade between the United States and Asia.
    The towering rainforests are a defining feature of the Pacific 
Northwest, and the Northern Pacific Railroad land grant has been 
instrumental in shaping the timber industry as a cornerstone of the 
region's economy. The privatization of massive quantities of federal 
land in the Cascades changed timber's business model, transforming the 
industry from a collection of small, temporary operations to long-term 
resource management of tree harvesting in the Cascades. This led to 
sustainable harvesting practices that have been replicated across the 
nation.
    The Northern Pacific Railroad saw the potential value of the 
forests alongside its tracks, and was determined to capitalize on that 
resource. They created a timber subsidiary that became Plum Creek 
Timber, the largest private landowner in the nation to this day. Some 
of the land was sold to other timber interests, including 900,000 acres 
that launched the Weyerhaeuser timber company. Both Plum Creek and 
Weyerhaeuser are still based in the Seattle area.
    This wealth of timber that provided the resource base to complete 
our nation's rail system in the late 1800s went on to supply crucial 
construction materials to power the American war machine in World War 
I. Boeing was founded in the Seattle area to turn the region's spruce 
trees into war planes, and Douglas Fir was used to build ships for the 
U.S. Navy.
    The railroads, and the network of logging roads that came with 
them, created access to the Cascade Mountains for a wide array of 
outdoor recreation. Citizens of the region flocked to the mountains for 
skiing, hiking, mountaineering, and other endeavors, and began forming 
a special bond with their natural surroundings that still defines the 
region's culture today.
    By the mid-1950s, residents started to realize that it was possible 
for us to delve too deeply and overwhelm the natural bounty of the 
region. A new era of citizen-led conservation began. Local citizens 
united to create a sewage-treatment authority to clean up Lake 
Washington in the 1950's--a groundbreaking antecedent to the Clean 
Water Act. In the 1960's, voters enacted the largest park-bond issue in 
the country at that time to preserve and expand a network of parks and 
boulevards. In 1979, citizens of King County voted to preserve prime 
farmland in the county, the first time voters anywhere in the nation 
had voted to tax themselves to preserve farmlands. In the late 1980's, 
Washington State Parks acquired 300 miles of the defunct Milwaukee 
Railroad, leading to what is now the longest rail-trail conversion in 
the country.
                           greenway coalition
    By the mid-1980s, the Seattle region was beginning to boom with new 
technology industries and the population was growing rapidly. Concerned 
citizens realized that much of this growth would sprawl out from 
Seattle along Interstate 90. In 1991, community leaders formed a 
coalition of agencies, businesses, and activists, the non-profit 
Mountains to Sound Greenway Trust, to create and implement a common 
vision that would balance strong economic growth with retaining the 
region's defining characteristics: a dramatic physical landscape whose 
history is still very much intact, giving rise to and sustaining a 
unique ecological resource and a network of towns and cities 
inextricably tied to the land.
    In its first two decades of work, this Mountains to Sound Greenway 
coalition has rendered remarkable accomplishments. Working with large 
timber corporations and government agencies, partners have connected a 
major swath of public land, instituted new education programs, and 
involved hundreds of thousands of volunteers in trail renovation and 
ecological restoration.
                             heritage study
    After 20 years of successful collaboration in creating the 
Mountains to Sound Greenway, residents realized the time had come to 
gain official recognition of this special place in our nation that 
deserves special care. The National Heritage Area program stood out as 
the best vehicle for this recognition, providing a flexible framework 
and tools for formalizing partnerships and interpreting resources--
without affecting property rights or land management structures. In 
2009, the Mountains to Sound Greenway Trust initiated the Heritage 
Study, a public involvement campaign to gain formal recognition of the 
landscape, and to lay a pathway for the upcoming decades. The Heritage 
Study was a stakeholder-driven process that included more than 150 
meetings with more than 1,000 individuals.
    As a part of the Heritage Study, stakeholders from around the 
Greenway agreed upon boundaries. The boundaries of the proposed 
Mountains to Sound Greenway National Heritage Area are based on the 
history of the transportation corridor in the vicinity of Snoqualmie 
Pass, marked by the intersection of the Northern Pacific and Milwaukee 
Railroad transcontinental rail lines, the historic Sunset Highway, and 
today's Interstate 90. The boundaries encompass many of the railroad 
spur lines that stretched north and south from these transcontinental 
lines in the center of the Greenway, comprising an assemblage of 
resources that tell the Greenway's story with focus and integrity.
    The proposed boundaries are appropriate to the Greenway's 
nationally important themes. They are pragmatic, realistic, and follow 
modern-day political and land-management structures, thus offering the 
best formula for long-term success as Greenway communities seek to 
manage and interpret resources across this diverse landscape. They are 
based in strong public interest and hold significant opportunities to 
enhance the resources of this land and its nationally important story.
    The Greenway Trust studied the feasibility of establishing a 
National Heritage Area extensively and, working closely with the 
National Park Service, met all the agency's program criteria.
                           community support
    Nearly 2,000 elected officials, agencies, businesses, and 
individuals have expressed their support of the Mountains to Sound 
Greenway National Heritage Area, and are excited about the benefits of 
this non-regulatory approach to conservation.
    Major corporations, such as supporters Microsoft, Expedia, CH2M 
HILL, and Recreational Equipment Inc. (REI), see the advantages of 
locating near an inspiring landscape with easy access to mountains, 
lakes, and trails. Elected officials know the long-term benefits of 
engaging the whole community in local planning. The legislation has 
support from Governor Inslee, the entire King County Council, and all 
Kittitas County Commissioners. A wide range of nonprofits support 
designation, drawn by the opportunities to protect quality of life 
while conserving natural and historic resources and growing tourism. 
Between the Kittitas County Historical Museum in Ellensburg, the Museum 
of History and Industry in Seattle, the Association of King County 
Historical Organizations, and a dozen others, the campaign has robust 
backing from the historical community.
    This designation will help us keep the balance between urban and 
natural areas as people continue to move here. It will build an 
awareness of this unique landscape that highlights its historical 
contributions to the nation and draws tourism dollars to local 
communities. Designating the Greenway as a National Heritage Area will 
also empower citizens, businesses, interest groups, and government 
agencies to work together more efficiently toward ensuring the Greenway 
remains a cornerstone of this broad community for generations to come. 
With National Heritage Area designation, we can promote a shared vision 
of the Greenway that will aid in raising private funds to leverage 
government grants and vastly increase the productivity of our efforts.
    Thank you again for this opportunity to share our region's national 
significance with the Subcommittee. We ask for your support and 
advocacy for the Mountains to Sound Greenway National Heritage Area 
Act. Those of us in the region know that our home and landscape have 
played a special place in America's story, and we are ready to join 
Congress, the National Park Service, and the rest of the National 
Heritage Area network in sharing our stories with the nation. We 
welcome any questions you may have.
                                 ______
                                 
         Statement of the American Hotel & Lodging Association
    Dear Chair Landrieu and Ranking Member Murkowski,
    The American Hotel & Lodging Association (AH&LA), the sole national 
association representing all segments of the 1.8 million-employee U.S. 
lodging industry, strongly supports Senator Flake's legislation, 
S.1750, the Public Access to Public Land Guarantee Act, and S.2104, the 
National Park Access Act, and we thank the National Parks Subcommittee 
for holding a hearing to discuss these bills.
    During last year's government shutdown, many small businesses and 
communities across the country with economies that rely on our national 
parks lost hundreds of millions of dollars in economic activity due to 
the National Park Service's decision to wait more than a week before 
authorizing states to reopen and operate parks using non-federal funds. 
These communities' principal industry, and in some instances only 
significant industry, is tourism and this delay had very serious 
consequences. Hoteliers in particular were severely impacted by the 16-
day shutdown, during which our industry lost $115.2 million in economic 
activity.
    S.1750 provides valuable safeguards against shutdown delays in the 
future and would prevent interruptions in normal operation before they 
start by allowing the Administration to enter into agreements with 
states to allow for the continued operation of public lands due to a 
lapse in appropriations. In addition, S.2104 would help repair some of 
the economic impact on communities by requiring the federal government 
to refund to the states all state funds used to operate a unit of the 
National Park System during the October 2013 shutdown.
    S.1750 and S.2104 ensure that no matter what happens in Washington, 
the communities across the country that rely on national parks as their 
economic drivers will not face undue hardship. The successful operation 
of our national parks is crucial to the economic viability and job 
creation capabilities of the hotels, resorts, restaurants, retail 
outlets, and many other small businesses relying on park visitors. 
Consequently, we urge the full Senate Energy and Natural Resources 
Committee to prevent future economic uncertainty by scheduling a mark-
up of Senator Jeff Flake's legislation as soon as possible.
                                 ______
                                 
          Statement of Greg Bryan, Mayor, Town of Tusayan, AZ
    Dear Chair Landrieu and Ranking Member Murkowski,
    On behalf of the Town of Tusayan, Arizona, which sits at the 
southern entrance to Grand Canyon National Park, and the many 
businesses in our and surrounding communities, we would like to express 
our strong support for our Arizona Senator Flake's legislation S.1750, 
the Public Access to Public Land Guarantee Act, and S.2104, the 
National Park Access Act. We would also like to thank the National 
Parks Subcommittee for holding a hearing to discuss these bills.
    Our community, as well as communities across America, was severely 
impacted when the federal government shut down last fall for 16 days. 
Millions of dollars were lost in our community and hundreds of millions 
across our country in communities that depend upon our National Parks, 
Monuments and Recreation areas as key, if not sole, components for our 
economies. Not only were our citizens and businesses significantly 
impacted, but visitors from around the world arrived at great expense 
only to be turned away. Those types of impacts and reduction in trust 
in America's tourism industry have long term consequences for our 
country and communities.
    We need to have the confidence that our National Parks, Monuments 
and Recreation areas will not be used again as tools in political 
fights on Capitol Hill. We invest millions of dollars in our 
infrastructure as Towns and businesses, only to have it diminished by a 
sudden and complete closure during a critical part of our already short 
tourism season. Many businesses depended upon that last piece of 
opportunity to save funds to tide them over for the winter and have 
funds to start up the next year. It placed many in jeopardy of not 
being able to reopen the following year and forced them to lay off many 
staff that were facing the same hardship issues.
    We encourage the Subcommittee to look favorably on these pieces of 
legislation that will help to rebuild confidence in our National Park 
and destination tourism industry by assuring that those communities and 
states that choose to reopen during another government shutdown will 
have the opportunity to do so. It took 12 days last time for the 
National Park Service to decide there was a way to allow States to 
cover the cost of reopening our national treasures and those days cost 
us all dearly. We ask you to support S.1750 in its effort to make this 
process a defined one, not subject to political manipulations in the 
future. We hope there will never be another shutdown, but people, 
desires and motivations change and we see this as a prudent safety net 
for one of America's critical tourism industries and pieces.
    We would also encourage you to support S.2104, which will enable 
the repayment for thousands of dollars that were spent in reopening our 
Parks for 5 days during the last shutdown. When the budget was passed, 
the NPS was reimbursed for all lost wages and costs, as well as 
retained all entrance fees that were collected during that five day 
period. In essence they received a windfall by being paid by States and 
then paid by the government for the same services. We would ask that 
you see the integrity and moral value in seeing that we are reimbursed 
through this legislation.
    We very much appreciate the work this Subcommittee does and hope 
that you will see the relevancy and significant importance to our 
communities and States across America in these pieces of legislation. 
We would be most happy to provide any information needed and answer any 
questions the Subcommittee might have.
                                 ______
                                 
 Statement of Shawn Pomaville, Managing Director, Motorcities National 
                       Heritage Area, on S. 2221
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the MotorCities National Heritage 
Area Partnership regarding S. 2221, a bill to extend the authorization 
of the MotorCities National Heritage Area. These views are being 
presented by Shawn Pomaville, Managing Director of the MotorCities 
National Heritage Area.
    The MotorCities National Heritage Area Partnership, also known as 
the Automobile National Heritage Area Partnership, was established in 
1998 by Public Law 105-355 to interpret and protect the unique cultural 
and economic contributions Michigan has made to the automotive 
industry. The MotorCities National Heritage Area Partnership preserves 
and tells the story of American car-making and its global significance, 
a story that cannot be told anywhere else. It is the story of the 
automobile and its role in helping to establish and expand industry in 
the United States. It is the story of the role of the labor movement 
and the social impact of the automotive industry on past, present and 
future generations.
    The MotorCities National Heritage Area Partnership tells this 
unique story through regional partnerships and activities that 
celebrate the land, people, natural resources and communities. The 
methods by which we tell the story include education, preservation, 
interpretation and resource stewardship. Often referred to as the 
Silicon Valley of the automotive industry, the MotorCities National 
Heritage Area spans over 10,000 square miles in southeast Michigan and 
contains over 6 million people.
    During its 16 years of existence, the MotorCities National Heritage 
Area has had a significant record of achievement. It has worked closely 
with the business community; county and state governments; and multiple 
non-governmental organizations to build a network of partner sites 
dedicated to preserving and interpreting America's automotive story.
    According to an Evaluation Report issued by the University of 
Michigan-Dearborn's Institute for Local Area Government that concluded 
in 2013, the MotorCities National Heritage Area has achieved the 
proposed accomplishments envisioned in the authorizing legislation and 
subsequent General Management Plan, which set forth the framework and 
direction for the coordinating entity. These include the following:

  <bullet> MotorCities National Heritage Area has clearly helped to 
        preserve the historical, cultural and recreational resources 
        related to the region's auto and labor history, including 
        preservation for future generations.
  <bullet> MotorCities National Heritage Area has enhanced the region's 
        economic vitality through heritage tourism investments.
  <bullet> MotorCities National Heritage Area has increased the 
        organizational capacity of grantees and partner organizations.

    Working together, the network has developed several successful 
public projects which would not have otherwise been put in place. These 
projects prevent our history from merely sitting idle or simply 
crumbling away as would have been the case with the Ford Piquette 
Avenue Plant in Detroit. This is the site of Henry Ford's first factory 
built for Ford Motor Company and the birthplace of the Model T. With 
the assistance of the MotorCities National Heritage Area, the Piquette 
Plant has been transformed from a semi abandoned eyesore to a 
celebrated National Historic Landmark hosting thousands of tourists 
each year. This created an economic impact by spurring on more 
investment in the neighborhood. The economic benefits of heritage 
tourism projects such as this include creating new jobs and businesses, 
increasing tax revenues, and diversifying the local economy.
    An example of an interpretation and education project whose purpose 
is also to build a sense of regional identity, is the public Wayside 
Exhibit program. This program promotes heritage tourism and educates 
visitors and residents alike. Approximately 230 exhibits have been 
installed to tell the unique, automotive-related stories of the people, 
places and ideas that shaped the region.
    In 2012, the Northeast Regional Office of the National Park Service 
commissioned an economic impact study and hired an independent firm, 
Tripp Umbach, to measure the community and economic impact of the 
National Heritage Areas. As a leading expert in their field, Tripp 
Umbach has conducted more than 400 customized studies for major 
corporations, healthcare organizations, universities and non-profit 
organizations throughout the world. Tripp Umbach collected primary data 
from six National Heritage Areas, including information on operation 
and capital expenditures and tourism information. According to the 
Tripp Umbach study, the overall annual economic impact of National 
Heritage Areas in the United States is $12.9 billion, which is a direct 
result of federal funding provided annually for the Heritage 
Partnership Program within the National Park Service.
    The economic impact is comprised of three main areas: tourism, 
operational expenditures and grant-making activities, with the majority 
of the impact (99%) generated by tourism spending. These include:

  <bullet> $4.6 billion in direct impact (tourism spending, National 
        Heritage Area operational expenditures and grant making 
        activities);
  <bullet> $8.3 billion in indirect and induced impacts (employee 
        spending and businesses supporting the tourism industry).

    The study further concluded that National Heritage Areas support 
more than 140,000 jobs throughout the nation, including 94,000 jobs 
directly and 45,000 indirectly. The Tripp Umbach report concluded that 
the overall impact of National Heritage Areas and their related 
spending and operational activities generated $1.2 billion in Federal 
taxes. The type of taxes paid includes payroll taxes, income taxes and 
corporate taxes.''
    MotorCities National Heritage Area likewise leverages federal funds 
to great advantage. Since 2009, every $1 the MotorCities National 
Heritage Area has awarded through its community grant challenge program 
has been matched by more than $5 in funding or in-kind services. This 
reflects a major commitment of resources on the part of partners 
throughout the area. It is an example of how a modest investment of 
tax-payer dollars can have a significant impact in regions that need it 
the most.
    Continuing coordination and capacity building is required to 
protect the millions in federal and local investments made to date. 
According to the Evaluation from the University of Michigan-Dearborn's 
Institute for Local Area Government, without the Heritage Area and its 
affiliation with the National Park Service, it is unlikely that these 
partnerships and their benefits would continue, placing much of 
Michigan's automotive heritage at risk of disappearing.
    Michigan would lose the ability to leverage the cultural and 
historic linkages from its rich automotive heritage that contribute to 
a sense of pride in the region and afford a multitude of economic 
impacts.
    Our region tells the ongoing story of an industry and people that 
are integral to our national history, relevant to our present, and can 
provide unlimited inspiration for our future.
    Mr. Chairman, this concludes the testimony of the MotorCities 
National Heritage Area Partnership. Thank you.
                                 ______
                                 
  Statement of Andy Ingraham, President/CEO, National Association of 
              Black Hotel Owners, Operators & Developers,
    Dear Speaker Boehner, Leader Reid, Leader McConnell, and Leader 
Pelosi:
    The successful operation of our national parks is crucial to the 
economic viability of the hotels, resorts, restaurants, retail outlets, 
and many other small businesses relying on these park visitors. We 
commend Senator Jeff Flake and Congressman Steve Daines for their 
leadership in offering legislation to ensure the impacts felt during 
the recent government shutdown are not repeated in the future. With 
Rep. Daines' Protecting States, Opening National Parks Act (H. 3286) 
and, today, Senator Flake's Public Access to Public Lands Guarantee Act 
(S. XXX), we are one step closer towards putting safeguards in place to 
offset the threat of another damaging government shutdown. During the 
recent 16-day government shutdown, the National Park Service waited 
more than a week before authorizing states to reopen and operate 
national parks using non-federal funds. This delay resulted in the loss 
of hundreds of millions of dollars in economic activity in communities 
whose principle, and in some instances only, industry is tourism. Our 
national parks are integral to such communities, and with their closure 
thousands of citizen's livelihoods are impacted.
    S. XXX and H. 3286 provide valuable safeguards against such delays 
in the future and would prevent interruptions in normal operation 
before they start. In the event of a government shutdown, S. XXX would 
require the federal government to enter into an agreement with any 
state or municipality that offers non-federal funds to temporarily 
operate public lands, even if that reopening is only partial. 
Additionally, both bills would require the federal government to refund 
the state or municipality, if Congress retroactively appropriates funds 
or if the federal government collected entry fees for those lands 
during the shutdown.
    Unfortunately, uncertainty arising from the partisan gridlock in 
Washington continues to prevent any guarantee of avoiding future 
government shutdowns. This uncertainty will only further impair the 
ability of lodging and many other industries to continue driving 
economic growth and job creation. Senator Flake's and Rep. Daines' 
bills assure that no matter what happens in Washington, the small 
businesses and communities across the country that rely on national 
parks will not face undue economic uncertainty and strife.
    We urge the House of Representatives and the Senate to act quickly 
on this legislation to ensure the stability of the local economies 
throughout the country that rely on our national parks.
                                 ______
                                 
   Statement of Nathan Fey*, Colorado Stewardship Director, American 
                               Whitewater
---------------------------------------------------------------------------
    * Other names and organizations have been retained in subcommittee 
files.
---------------------------------------------------------------------------
    Dear Senator Udall and Congressman Lamborn:
    As a collective voice for the thousands of Colorado's citizens and 
visitors that recreate on our public lands and waters, we are writing 
in support of efforts to permanently protect Browns Canyon of the 
Arkansas River in Colorado.
    Outdoor Alliance Colorado (OAC) is a new coalition for human 
powered outdoor recreation that includes: the Colorado Mountain Club; 
the Colorado Mountain Bike Association; the Colorado networks of the 
Access Fund and American Whitewater; and Outdoor Alliance. OAC 
advocates for the protection and enjoyment of public lands and waters 
in Colorado, on behalf of those that hike, mountain bike, climb, 
paddle, ski and snowshoe.
    Browns Canyon of the Arkansas River comprises roughly 23,000 acres 
of Forest Service and BLM lands in Chaffee County. The area is renowned 
for providing year-round opportunities to climb, paddle, mountain bike, 
ski and hike. By preserving this incredible landscape that surrounds 
the Arkansas River, we can ensure that visitors and citizens alike can 
continue to benefit from inspiring recreational experiences, and 
continue to sustain and grow our local and regional economy.
    In Colorado, outdoor recreation generates over $10 billion annually 
in revenues to our state economy and supports 107,000 jobs. Activities 
like hiking, biking, climbing, camping, whitewater rafting, and 
kayaking, are enjoyed by nearly 4 million people each year, helping to 
generate $500 million in state tax revenue. People from across Colorado 
and the country regularly visit the region to enjoy these activities, 
and it is critical that Browns Canyon be protected to both ensure that 
the area will remain open to outdoor recreational pursuits and to 
preserve Colorado's outdoor legacy for future generations.
    Outdoor Alliance Colorado strongly supports permanent protection of 
Browns Canyon, to:

  <bullet> Preserve opportunities for solitude and human---powered 
        recreation including rafting, kayaking, climbing, biking and 
        hiking.
  <bullet> Ensure that the outdoor recreation opportunities and natural 
        legacy of this unique area remains intact for future 
        generations.
  <bullet> Permanently assure that no new road construction would 
        damage the area's watershed or wildlife habitat.

    For over a decade, there have been bipartisan efforts to protect 
this unique area, and therefore we request that you finally ensure this 
area receives the protection it deserves. Your leadership is needed and 
appreciated, so that future generations can experience the beauty, 
clean water and air, and wildlife that we have today.
                                 ______
                                 
 Statement of Christina King, Private Boaters Coalition Officer, Pikes 
                       Peak River Runners Officer
    The purpose of this letter is to provide written support for the 
Brown's Canyon National Monument. I recently attended the public 
meeting in Nathrop, Colorado on April 13, 2013. I listened to the many 
comments and am impressed with the responses and the detailed work done 
to date. My only regret is that the size of the proposed monument was 
decreased to the most recent proposed size.
    The Private Boaters Coalition & Pikes Peak River Runners (both 
based in Colorado) consists of groups of boaters who consider the 
Arkansas River their home river. They also travel to many western 
rivers and enjoy wild areas along whitewater rivers. The term ``private 
boaters'' is typically a misnomer but is a commonly used term that 
describes the self-outfitted public who regularly runs western rivers 
using their own skills and equipment. Private boaters support the 
protection of Brown's Canyon (through its close relationship to the 
Arkansas River). They recognize and support the value of protecting 
this area with a wilderness proposal. The Private Boaters Coalition and 
Pikes Peak River Runners represent at a minimum 300 private boaters 
probably more but we only track membership in our online community.
    The Arkansas River corridor is a wonderful place to see bighorn 
sheep, deer, occasional beaver and the general beauty of a wild area. 
Protecting these qualities through wilderness & national monument 
legislation ensures that future boaters will also enjoy these resources 
as we see them today. Legislating Brown's Canyon as a wilderness area 
(while not turning the Arkansas into a wilderness area) will protect 
the adjacent corridor areas as well as protecting this wild area as 
well. Private boaters are a strong presence in the Brown's Canyon area 
and contribute to the economic well-being of Buena Vista and Salida 
areas. Many boaters have purchased second (future retirement) homes 
including land in the valley and have strong ties to this area. Please 
protect this area and do not let the OHV motorized group dominate the 
decision to not allow more motorized use in the area. There are many 
areas outside of this boundary where they can ride. We want this area 
protected for quiet use and future recreational enjoyment by the many 
other non-motorized stakeholders involved. We are fine with continued 
grazing use but have seen first-hand evidence of cattle dung and 
erosion caused by cattle use along the river. Please continue to work 
with ranchers to control cattle use along the riverbanks. We work very 
hard to tread lightly and appreciate others who do the same.
    Please consider this letter as strong support of introducing the 
Brown's Canyon National Monument proposal. Please feel free to contact 
me if you have any questions.
                                 ______
                                 
   Statement of Thomas D. Rushin, Chairman, Board of Directors, Yuma 
               Crossing National Heritage Area, on S.2111
    Dear Mr. Chairman Udall, Ranking member Portman, and other 
distinguished members of the Subcommittee; I appreciate this 
opportunity to submit testimony on S.2111 on behalf of the Board of 
Directors of the Yuma Crossing National Heritage Area, as well as its 
many public and private partners.
    In 2000, when Senators John McCain and Jon Kyl introduced and 
secured enactment of legislation to designate the Yuma Crossing a 
National Heritage Area, Yuma, a city of 100,000 located in the 
southwest corner of Arizona, faced serious challenges.

  <bullet> Despite its location on the Colorado River, Yuma had become 
        disconnected from the river. A jungle of non-native vegetation, 
        infested with hobo camps, trash dumps and meth labs, made 
        access to the river nearly impossible and certainly dangerous.
  <bullet> Yuma's downtown riverfront was severely blighted. Originally 
        designated as a National Historic Landmark in the 1960's, the 
        Yuma Crossing NHL was categorized by the National Park Service 
        as in a ``threatened'' status.

    By 2002, the Yuma community had developed a management plan, which 
was approved by the Secretary of the Interior. The plan focused 
primarily on reclaiming Yuma's riverfront from an environmental, 
recreational and commercial standpoint.
    Since then, more than $100 million of public and private investment 
has transformed Yuma's riverfront with 400 acres of wetlands 
restoration, (considered a model in the desert Southwest); two large 
riverfront parks with 9 miles of waterside trails; and a revitalized 
downtown riverfront which has both rescued the National Historic 
Landmark and attracted substantial private investment along the 
Colorado River.
    How was this accomplished? While the National Park Service funds of 
about $3 million over the last 12 years has been important seed money 
used to leverage projects, that funding alone would not have made all 
this possible. In fact, no single investor or funder could have made 
this happen. And that is the point. Success has been based on creating 
strong partnerships among an extremely diverse set of stakeholders.
    Let me give you just three brief examples:

          1) The Yuma East Wetlands: Once overrun with salt cedar and 
        phragmities, 400 acres has now been restored with cottonwoods, 
        willows, and mesquites. Many believed that high soil salinity 
        and low river flows made restoration technically impossible. An 
        even greater challenge was to bring together the Quechan Indian 
        tribe, area farmers, and governmental agencies at all levels to 
        agree upon and implement a restoration plan-a voluntary and 
        cooperative plan that respected tribal concerns, conventional 
        farming practices, and private property rights. Not only was 
        the restoration completed, but in 2013, the local partners 
        struck an historic deal with the Lower Colorado River Multi-
        Species Conservation Program (Bureau of Reclamation) for a 50-
        year program of maintenance.
          2) The Heritage Area was able to bring together the City of 
        Yuma, a private developer, and historic preservation interests 
        to facilitate a $30 million investment in a riverfront hotel 
        and conference center. In the course of the project, the 
        Heritage Area integrated the telling of the Yuma Crossing story 
        into Pivot Point Plaza along the original 1877 rail alignment 
        of the first train to enter Arizona. The National Historic 
        Landmark has now been rescued from its threatened status.
          3) In 2010, when the deep recession and severe state budget 
        cutbacks threatened closure of Yuma's two state historic parks, 
        the Heritage Area stepped in to save the parks-working with the 
        City of Yuma, the Yuma Visitors Bureau and most importantly the 
        entire Yuma community-raising funds to renew and revitalize 
        their museums and grounds. Today, the parks are in a strong 
        financial position and Arizona State Parks has begun the 
        process of negotiating a long-term agreement to ensure local 
        management and empowering the local community.

    All three of these examples provide strong evidence of the need for 
the National Heritage Area's important and continuing role in Yuma's 
progress and the need to maintain our valuable partnership with the 
National Park Service. To that point, I have attached statements of 
support for reauthorization from Yuma City Council, Yuma County Board 
of Supervisors, the Quechan Indian Tribe, and the Yuma County Chamber 
of Commerce. As NPS Director Jon Jarvis has said, ``National Heritage 
Areas are places where small investments pay big dividends''. Yuma is a 
prime example.
    Our Heritage Area empowers local citizens and government to 
preserve their heritage resources, to tell their unique stories, and to 
revitalize their communities, and in so doing, they allow these 
citizens to improve the quality of their lives and their economic 
opportunities. I urge this Subcommittee to approve S. 2111 because the 
Yuma Crossing National Heritage Area has proved to be both very 
effective at preserving nationally significant resources and at using 
federal funds to leverage significant non-federal investment.
    Finally, I think it important to address an issue for which there 
has been a great deal of misinformation. Some Washington, DC-based 
interest groups have made allegations that the Yuma Crossing NHA has 
somehow threatened private property rights. Nothing could be further 
from the truth.
    Ten years ago, the Heritage Area and the Yuma Farm Bureau came 
together to clear up some misunderstandings, and the partnership with 
the farming community is as strong as ever. In fact, a 5th generation 
farmer, Patty Ware, serves on our Board and served as our Chair for a 
number of years. She became so exasperated with these unfounded rumors 
that she wrote a letter to the Heritage Foundation, a copy of which I 
am appending to my testimony. She never received a response. It is 
worth reading in its entirety, as it sets the record straight. But let 
me quote just a few sentences from the February 22, 2011 letter:

          ``Private property rights are the fundamental basis of our 
        way of life (farming). However, so is the truth. What you keep 
        dredging up and re-circulating is not the truth. . .Perhaps 
        getting out of Washington DC and actually seeing what is going 
        on would do the Heritage Foundation some good. I invite you or 
        your staff to come to Yuma and find out the facts.''

    Thank you.
                                 ______
                                 
   Statement of Vickie Sue Vigil, President, Salida Business Alliance
    The Salida Business Alliance is a group of 65 plus networking 
businesses We have members on Highway 50 as well as in Historic 
Downtown Salida. Our focus is working with all business and community 
groups to improve the economic environment as well as to enhance the 
culture and beauty of our city.
    I am writing to express the support of our business group for any 
efforts to permanently protect the Browns Canyon area of the Arkansas 
River in Chaffee County, Co. This area is renowned for offering a range 
of year-round opportunities for experiencing Colorado's outdoors. 
Browns Canyon is the most popular whitewater rafting destination in the 
nation.
    People from across the state and country regularly visit this area 
to hike, hunt, fish or enjoy the spectacular scenery. By preserving 
this incredible landscape that surrounds the river, we can ensure that 
visitors continue to benefit from inspiring recreational experiences, 
and continue to sustain and gfow our local and regional economy.
    Our businesses benefits from tourist that come to this areat o 
visit unique places like Browns Canyon. We strongly support protecting 
the Browns Canyon area.
                                 ______
                                 
 Statement of Alan H. Rowsome, Senior Director of Government Relations 
                   for Lands, The Wilderness Society
    Dear Chairman Udall and Ranking Member Portman:
    The Wilderness Society, on behalf of our over 500,000 members and 
supporters from across the country, would like to express our views on 
the legislation being heard tomorrow in the Subcommittee on National 
Parks, and respectfully request that this letter be included in the 
July 23, 2014 hearing record for the Subcommittee.
  s. 1794--browns canyon national monument and wilderness act of 2013
    The Wilderness Society strongly supports, S. 1794, which would 
protect 22,000 acres of public land as a national monument, including 
10,500 acres designated as the Browns Canyon Wilderness. Browns Canyon 
is a natural wonder that is of vital importance to Colorado citizens 
for recreation, local economic benefits, hunting and angling, and many 
other uses. Browns Canyon is one of the most popular destinations in 
the country for whitewater rafting--bringing in more than $23 million 
annually to the Upper Arkansas Valley economy.
    The proposed national monument will also protect one of the most 
spectacular landscapes in Colorado as well as important habitat for 
wildlife including black bear, bighorn sheep, elk, mule deer, mountain 
lions, eagles, falcons, imperiled bats and many other species of 
wildlife.
    The local community began working with their lawmakers on a 
bipartisan basis almost a decade ago on this legislation and this has 
resulted in endorsements from a wide array of stakeholders including 
sportsmen, conservationists, outdoor recreation outfitters, and local 
businesses. Additionally, this input helped to create legislation which 
balances current uses with conservation by allowing for existing 
livestock grazing and other existing uses to continue. We commend 
Senator Udall for crafting a bill with significant input from the local 
community that would not only protect this vital economic driver but 
also preserve as wilderness a natural icon in the state of Colorado.
    This legislation is extremely popular both locally and statewide, 
with a recent poll showing that 77% of Colorado residents support 
protecting Browns Canyon as a national monument. We would urge this 
committee to advance this vital bill which not only protects a unique 
natural wonder but also provides long-term economic certainty for the 
hugely important statewide outdoor recreation economy--of which 
whitewater rafting generates $140 million annually.
      s. 2602--mountains to sound greenway national heritage area
    The Wilderness Society is pleased to offer our support for S. 2602, 
A bill to establish the Mountains to Sound Greenway National Heritage 
Area in the State of Washington, sponsored by Senator Maria Cantwell 
(D-WA), and its companion bill H.R. 1785, Mountains to Sound Greenway 
National Heritage Area Act, sponsored by Representative David Reichert 
(R-WA-8). This bi-partisan bill will establish the 1.5-million-acre 
Mountains to Sound Greenway National Heritage Area, stretching from the 
city of Seattle across the crest of the Cascades to the eastern edge of 
Kittitas County, in the heart of central Washington.
    The Interstate-90 corridor is the main transportation artery that 
runs through this landscape, connecting east to west, following 
centuries-old travelways that have fueled the growth and development of 
the region. Traveling along this corridor, one realizes the great need 
and opportunity a National Heritage Area designation poses for this 
region. For decades, the Mountains to Sound Greenway Trust has worked 
to protect the beauty and natural character of this landscape and 
facilitate large-scale collaboration across land management agencies 
and interest groups to realize a critical common vision for this 
corridor-one that manages growth, drives a robust economy, and 
recognizes and embraces the cultural heritage of the land. Since the 
Trust's creation, the organization has protected more than 225,000 
acres of land, organized more than 500,000 hours of volunteer time 
toward community-based stewardship projects, educated more than 3,000 
children annually about the environment, and facilitated broad-based 
collaboration among multiple interests along the Greenway.
    The National Heritage Area designation would not only nationally 
recognize the unique heritage and history of natural resource 
conservation along this corridor, it would also establish a cooperative 
management framework to facilitate collaboration among the various 
government agencies, interest groups, and citizens. The Trust would 
also be designated as the local coordinating entity-a role the Trust as 
informally played for decades-thereby implementation of projects and 
programs among the diverse partners of the Heritage Area.
    Since 2009, the Trust has worked diligently to thoroughly assess 
the feasibility of the designation opportunity, convening more than 150 
public meetings, engaging more than 1,000 citizens, and securing 
support of more than 2,000 elected officials, agencies, businesses, and 
individuals. The Wilderness Society is proud to join this long list of 
supporters, advocating for the Congressional designation of the 
Mountains to Sound Greenway National Heritage Area. The Heritage Area 
will encompass the Alpine Lakes Wilderness, the most-visited wilderness 
area in the country, and one our organization has been working to 
expand in recent years. The National Heritage Area designation would 
recognize the importance of the most wild places in this landscape as 
well as the most rapidly urbanizing, providing the critical opportunity 
to continue to balance the natural integrity of the region with the 
myriad needs of this dynamic landscape.
    For these reasons we urge your support of both S. 1794, the Browns 
Canyon National Monument and Wilderness Act and S. 2602, the Mountains 
to Sound Greenway National Heritage Area Act.
                                 ______
                                 
    Statement of Steve Moyer, Vice President for Government Affairs
    Dear Chairman Udall and Ranking Member Portman:
    Trout Unlimited respectfully requests that the July 23, 2014 
Subcommittee on National Parks hearing record include this letter in 
support of S. 1794, the Browns Canyon National Monument and Wilderness 
Act. S. 1794 would designate Browns Canyon in Chaffee County, Colorado 
as a National Monument. On behalf of Trout Unlimited 153,000 members 
including over 10,000 in Colorado we strongly support and urge passage 
of S. 1794.
    It has been 23 years since the first legislation was introduced in 
Congress to permanently protect Colorado's Browns Canyon. Browns 
Canyon, and the Arkansas River that runs through it, includes world-
class hunting and fishing habitat. Recently the Arkansas River was 
awarded Gold Medal status recognizing its outstanding fishery. It is 
also one of the most popular whitewater rafting and kayaking 
destinations in the country.
    Legislation to protect this area was first introduced in 1991, and 
since then there have been 13 separate bills to conserve this important 
area. Despite broad public support, none of these bills have passed 
Congress. In 2005, Representative Joel Hefley (R-CO) and Senator Wayne 
Allard (R-CO) introduced the Browns Canyon Wilderness Act to 
permanently protect the area. Currently, Senators Mark Udall (D-CO) and 
Michael Bennet (D-CO) have proposed the Browns Canyon National Monument 
and Wilderness Act of 2013 to conserve the 22,000 acre Browns Canyon 
National Monument.
    Recently the threat of mining in the area has emerged, as a series 
of mining claims have been filed in Browns Canyon straddling the 
Arkansas River. These claims were filed during a lapse in what had been 
an administrative closure for over 20 years. The mining claims are a 
reminder of the need for the type of lasting protection for Browns 
Canyon that S. 1794 would provide.
    The time is now to finish the work of protecting Browns Canyon. We 
strongly urge passage of S. 1794.
                                 ______
                                 
    Statement of David Brown, Executive Director, America Outdoors 
                              Association
    Dear Senator Udall:
    The draft Brown's Canyon National Monument and Wilderness Act 
legislation of November 18, 2013 has several provisions which are 
important to outfitters and the continuation of their services to the 
public.

  <bullet> The Purposes Section helps clarify the legislation's intent 
        to ``sustain traditional uses in the Brown's Canyon area, 
        including hunting, angling, livestock grazing, commercial 
        outfitting, and boating''.
  <bullet> While the banks of the Arkansas River will be part of the 
        National Monument, the bill authorizes the Bureau of Land 
        Management to maintain its cooperative relationship with the 
        State of Colorado in managing river outfitters within the 
        Arkansas Headwater National Recreation Area. The Arkansas River 
        itself is excluded from the boundaries consistent with the 
        river level.
  <bullet> Withdrawal of the area within the boundaries of the Monument 
        from mining and mineral extraction will help maintain the 
        recreational and scenic values of the area.
  <bullet> The Forest Service will continue to manage those lands 
        within its boundaries, providing continuity to outfitters who 
        are operating within the National Forests that become part of 
        the Monument.
  <bullet> The authorization of outfitting in the Wilderness should 
        relieve the requirement to determine the ``need'' for 
        outfitting for any services occurring there now. The agencies 
        will likely be required to determine the extent to which those 
        services are necessary to fulfill the recreational purposes of 
        the Wilderness. However, the Arkansas River itself and its 
        banks are excluded from the boundary of the Wilderness.

    Your intent to maintain the economic values derived from recreation 
and outfitting are well recognized. Therefore, I feel certain that you 
will monitor the development of the Management plans for the Monument 
and Wilderness to ensure that the intent of the legislation is 
realized.
    Thank you for your consideration of the interests of the outfitting 
industry in the development of this legislation.
                                 ______
                                 
 Statement of Scott Bosse, Northern Rockies Director, American Rivers, 
                               on S. 2392
    Dear Chairman Landrieu and Ranking Member Murkowski:
    On behalf of American Rivers, we offer the following testimony in 
support of S.2392, the East Rosebud Wild and Scenic Rivers Act of 2014 
sponsored by Senator John Walsh (D-MT) and co-sponsored by Senator Jon 
Tester (D-MT). This legislation, which would protect one of Montana's 
most spectacular free-flowing rivers by adding it to the National Wild 
and Scenic Rivers System, enjoys popular local support and the language 
in the bill is clear, clean and concise. The bill had a hearing before 
the National Parks Subcommittee of the Senate Energy & Natural 
Resources Committee on July 23, 2014.
    American Rivers protects wild rivers, restores damaged rivers, and 
conserves clean water for people and nature. Since 1973, American 
Rivers has protected and restored more than 150,000 miles of rivers 
through advocacy efforts, on-the-ground projects, and an annual 
America's Most Endangered Rivers campaign. Headquartered in Washington, 
DC, American Rivers has offices across the country and more than 
200,000 members and supporters, including more than 700 in Montana. 
Many of our Montana members live along and/or recreate on East Rosebud 
Creek.
    American Rivers has been working with local citizens to protect 
East Rosebud Creek since 2010, when Hydrodynamics, Inc., a Bozeman-
based energy company, first proposed building a hydropower project on 
the creek on lands managed by the Custer National Forest. The project, 
which eventually was withdrawn by the proponent on May 31, 2013 in the 
face of strong local opposition, was the third such hydropower project 
proposed on East Rosebud Creek in the past two decades.
    Under S.2392, two reaches of East Rosebud Creek totaling 20 river 
miles would be added to the National Wild and Scenic Rivers System, 
forever protecting their free-flowing character, clean water, and 
outstanding scenic, wildlife, fishery, recreational, geologic and 
historic values. Both reaches flow across public lands managed by the 
Custer National Forest. No private lands would be included in the Wild 
and Scenic designation.
    While Montana currently has four Wild and Scenic rivers (the three 
forks of the upper Flathead River and a 150-mile reach of the Upper 
Missouri River) totaling 368 river miles, Congress has not designated a 
Wild and Scenic river in the state since 1976. A recent poll 
commissioned by Montanans for Healthy Rivers found that nearly nine in 
ten Montana voters support maintaining or increasing the number of 
protected rivers in the state, and 75 percent support the federal Wild 
and Scenic Rivers Act. Support for the Wild and Scenic Rivers Act 
amongst Montanans cuts across all demographic categories including age, 
gender, geographic region, party affiliation, and ideology.
    Local support for protecting East Rosebud Creek as a Wild and 
Scenic river runs strong among local homeowners, ranchers, and business 
owners, and opposition is virtually non-existent. Friends of East 
Rosebud, a local grassroots organization formed to protect East Rosebud 
Creek's free-flowing character, clean water, and special values, has 
collected signatures from more than 1,800 citizens from 43 states who 
want to see it preserved in its current condition. Earlier this year, 
on April 12, 2014, approximately 130 citizens from southern Montana 
showed up at a public meeting in Billings to express their support for 
a bill to designate East Rosebud as a Wild and Scenic river. Virtually 
no one spoke up in opposition to a Wild and Scenic designation.
                               conclusion
    Montana has 177,000 miles of streams, yet only 368 stream miles, or 
two tenths of one percent, have been protected through inclusion in the 
National Wild and Scenic Rivers System. As one of Montana's most 
spectacular free-flowing rivers that has faced repeated threats from 
hydropower development over the past two decades, East Rosebud Creek is 
an excellent candidate for Wild and Scenic designation and one that 
enjoys popular local support. For these reasons, we urge the Senate 
Energy & Natural Resources Committee to vote in favor of S.2392 so it 
can move to the full Senate for consideration.
    Thank you for considering our testimony on this important 
legislation.
                                 ______
                                 
    Statement of Mike Kissack, Arkansas River Outfitters Association
    Dear Senator Udall,
    The Arkansas River Outfitters Association (AROA) is a professional 
organization comprised of and representing the majority of the 
commercial outfitters on the Arkansas River. Our membership consists of 
outfitters representing rafting, float fishing, walk and wade fishing, 
photography, kayak instruction, shuttle services, climbing, hiking, and 
many other activities within the Arkansas River Valley. As an 
organization we are strongly in favor of the current proposal for 
National Monument and Wilderness designation for Browns Canyon.
    This unique landscape is not only the most rafted stretch of 
whitewater in the nation, but it's also extremely popular with 
countless other user groups. The legislation as drafted seems to allow 
all user groups the ability to utilize this area just as they always 
have. As an organization that draws visitors to this region to 
experience its natural beauty and recreational opportunities, having 
this designation gives us a tremendous advantage in our ability to 
market the Arkansas River Valley. Just telling guests that they will be 
rafting through a proposed National Monument has been a sales tool that 
has worked for many of us already. In an increasingly competitive 
marketplace unique advantages like this are essential to our viability 
and the viability of our surrounding communities.
    Aside from the obvious benefits of protecting habitat, preserving 
wilderness for future generations, and guarding this beautiful 
landscape, the economic impact of this designation on our communities 
would be tremendously positive. According to the 2012 Commercial River 
Use in the State of Colorado Report generated by the Colorado River 
Outfitters Association (CROA), commercial boaters on the Arkansas River 
had a direct expenditure of $20,543,280 and an overall economic impact 
of $52,590,798. This is money that is spent on food, lodging, and with 
other businesses in our mountain communities. Additionally, a report 
generated by Headwaters Economics entitled The Value of Public Lands: 
Lessons for Communities & Businesses Around Browns Canyon, shows that 
rural areas like the Arkansas River Valley see significant increases in 
population, employment, personal income, and per capita income 
immediately following a National Monument designation within their 
surrounding areas.
    In conclusion, AROA would like to thank you for the effort that you 
have put forth in drafting this legislation and strongly supports it in 
its current state.
                                 ______
                                 
  Statement of Tom Kleinschnitz, Chairman, Colorado River Outfitters 
                              Association
    Dear Senator Udall and Congressman Lamborn:
    On behalf of the Colorado River Outfitters Association, I am 
writing to express our support of any efforts to permanently protect 
Browns Canyon of the Arkansas River.
    Considered Colorado's most appreciated but unprotected landscape, 
Browns Canyon comprises roughly 23,000 acres of Forest Service and BLM 
land. The area is renowned for offering a range of year-round 
opportunities for exploring Colorado's outdoors. Browns Canyon is the 
most popular whitewater rafting destinations in the nation. The 
regional whitewater rafting, kayaking and all other whitewater sports 
industry accounts for over $23 million in direct expenditures for a 
total economic impact of over $60 million in the Arkansas Valley 
annually.
    People from across the state and country regularly visit to go 
whitewater rafting, kayaking, hunting and fishing in Browns Canyon. For 
example, roughly 150,000 visitors participate annually in commercial 
rafting trips with our outfitters on this stretch of the Arkansas River 
alone, due in no small part to the area's outstanding wild scenery. 
Places like Browns Canyon are an important part of many Coloradoans' 
personal identity, and attract and retain talented individuals to the 
region to enjoy a high quality of life. By preserving this incredible 
landscape that surrounds the river, we can ensure that visitors 
continue to benefit from inspiring recreational experiences, and 
continue to sustain and grow our local and regional economy.
    In Colorado, outdoor recreation activities generate over $10 
billion annually in revenues to our state economy and supports 107,000 
jobs. Our businesses depend on these visitors and the activities they 
come to enjoy. Colorado and the Arkansas River Valley is also an 
integral part of the national outdoor recreation, conservation and 
historic preservation economy, which contributes $1.06 trillion 
annually to the U.S. economy, and supports 9.4 million American jobs.
    For over a decade, there have been bipartisan efforts to protect 
this unique area. Browns Canyon is a national treasure which deserves 
to be permanently protected to both ensure that the area will remain 
open to whitewater boating, fishing, hiking and other recreational 
pursuits to preserve Colorado's outdoor legacy for future generations. 
As a business association whose members and partners are dependent on 
this area for economic security, we strongly support designation of 
Browns Canyon as a National Monument or Wilderness area without further 
delay. Sincerely,
                                 ______
                                 
   Statement of Kevin A. and Betsey Delorey, Madison, WI, on S. 2293
    We wish to go on record as in support of S.2293--National Scenic 
Trails Parity Act. Will you please see that our support is entered into 
the appropriate record for this bill?
    Thanks for your efforts.
                                 ______
                                 
   Statement of Dennis Giese, Board of Commissioners, Chaffee County 
                          Colorado, Salida, CO
    As a current Chaffee County Commissioner, I would support the 
Brown's Canyon Wilderness s Area legislation with the conditions below. 
This area includes Bureau of Land Management and U.S. Forest Service 
lands with the following as the general boundaries:

          North--300ATV1-2 and 185 DRC1 (ATV routes authorized by the 
        Fourmile Travel Plan)
          East--Parallel West side of the Aspen Ridge Road with offsets 
        to allow for camping and parking
          West--Original BLM Wilderness Study Area (Arkansas River)
          South--South of the ``Turret Trail'' Road and Original BLM 
        Wilderness Study Area

    The area summarized above should coincide with the general 
description of the Brown's Canyon Wilderness Area that has been 
proposed the last several years.
    This support is conditioned on the preservation of the existing 
access of current users and that there is no further closure of areas 
or designation of use to current and historical users of this area. 
This includes ATV access along the ``Turret Trail'' Road and the 
current grazing allotments.
    This support does not speak for the Chaffee County Board of 
Commissioners as a whole but only for me.
                                 ______
                                 
  Statement of Carol Donnelly, Chair, on Behalf of the Friends of the 
                         York River, on S. 1520
    Dear Chairman Udall and Committee Members:
    As representatives of a broad-based community effort, we are 
writing to express our strong support for S. 1520 (and H.R. 2197), a 
Bill to Amend the Wild and Scenic Rivers Act to Designate Segments of 
the York River and Associated Tributaries for study for Potential 
Inclusion in the National Wild and Scenic Rivers System.
    While Maine is blessed with many beautiful rivers that are also 
economically and ecologically productive, some water ways rise above 
others. And in southern Maine, the York River is a standout.
    The York River is one of southern Maine's defining features. Its 
waters are clean and flow in large part unencumbered from their origins 
high in the watershed at York Pond, where it begins its 11-mile journey 
and turns from fresh to salt water before entering the Gulf of Maine at 
York Harbor. The watershed has a diversity of habitats and ecological 
communities--extensive salt marshes, a mix of forest types and 
countless freshwater wetlands. Wildlife abounds--28 species of fish 
have been documented in this small river system, and its salt marshes 
provide resting and nesting places for migrating and resident birds.
    But it is not just natural values that make it special: the York 
River is a resource appreciated and used by people for hundreds of 
years--from Native Americans on through the periods of European 
settlement, when the river served as a vital transportation link and 
source of industry. The beautiful, preserved historic buildings, plus 
remnants of old granite dams and mills found today along its 
tributaries, testify to the rich history of the York River.
    The York River is a resource appreciated and used today, from 
commercial fishermen to those who enjoy fishing and boating as pastimes 
on the river. The river attracts vacationers and seasonal as well as 
the year round residents, providing important economic opportunities 
for small businesses in the area. Area students study the ecology and 
history of the York River through schools and a local museum.
    The National Park Service (NPS) recently released a preliminary 
evaluation of the suitability of the river, ``Wild and Scenic River 
Reconnaissance Survey of the York River,'' that recognized the 
outstanding and remarkable values of the river. The report concluded 
that ``Based on a preliminary analysis through this reconnaissance 
survey, the National Park Service concludes that the York River appears 
to be a good candidate for a Wild and Scenic River Study...In sum, all 
of the elements for a successful Study process appear to be in place 
for the York River.''
    For the past four years, residents of the towns of York, Eliot, and 
Kittery have been meeting, discussing, and exploring the concept of the 
National Park Service's Wild and Scenic Partnership Program and what it 
could mean for the York River watershed. After extensive public 
meetings with a variety of residents and special interest groups, we 
have determined that the Partnership Program may be a very good fit for 
the York River, whose many tributaries flow through the three towns. We 
would very much like to receive funding through the Park Service to 
conduct the comprehensive 3-year study to help make this determination.
    We have broad support: The boards of selectmen in all three towns 
voted to support the National Park Service paid study. In addition, 
many civic groups and individuals--including a regional Chamber of 
Commerce, several local businesses, the local shellfish commission and 
two local historic preservation organizations--have endorsed the 
concept of the study. In all, thirty-one organizations and individuals 
have written letters of support for the York River Study Bill.
    This is a wonderful opportunity for residents of York, Kittery, and 
Eliot to gather important information on the York River and to explore 
its eligibility for the Wild and Scenic Rivers Partnership Program. And 
just as importantly, to explore whether the Wild and Scenic Partnership 
is appropriate for the river and our three communities.
    We urge you to pass Senate bill 1520 so we can begin on this path 
of discovery.
    Thank you for your thoughtful consideration of this important 
legislation.
                                 ______
                                 
Statements of Martha Raymond, National Coordinator for Heritage Areas, 
           National Park Service, Department of the Interior
    The National Park Service (NPS) received the statement of national 
importance for the proposed Maritime Washington National Maritime 
Heritage Area. Thank you for preparing the statement as a supplement to 
the Washington State National Maritime Heritage Area Feasibility Study.
    While it is not our role to offer a recommendation regarding 
National Heritage Area designation until the NPS is asked to provide 
testimony on a pending bill before Congress, we have reviewed the 
feasibility study, statement of importance and boundary description per 
the interim National Heritage Area Feasibility Study Guidelines. The 
study met criteria 2-10 and the statement met criterion 1 by explaining 
why the heritage area is nationally important, linking the nationally 
important story to an assemblage of resources, and explained the 
heritage area boundary in relation to the assemblage of resources. 
Together, these documents have addressed and met all ten interim 
feasibility study criteria.
    We recognize that a lot of hard work went into the preparation of 
these documents. We wish you success as you work towards designation 
and building an organization and partnership that can coordinate 
heritage area activities. If you would like further guidance, please do 
not hesitate to contact Gretchen Luxenberg of the Pacific West Regional 
Office, at 206-220-4138, or Martha Raymond, National Coordinator for 
Heritage Areas, at 202-354-2222.
  addendum to the mountains to sound greenway national heritage area 
                           feasibility study
    The National Park Service (NPS) received the Addendum to the 
Mountains to Sound Greenway National Heritage Area Feasibility Study, 
May 27, 2014. Thank you for revising the Addendum in accordance with 
our guidance memo dated May 6, 2014 to include a statement of national 
importance, themes, associated resources, traditions, customs, beliefs 
and folklife, and a boundary justification.
    While it is not our role to offer a recommendation regarding 
National Heritage Area designation until the NPS is asked to provide 
testimony on a bill before Congress, we have reviewed the Addendum in 
accordance with the interim National Heritage Area Feasibility Study 
Guidelines. Based upon our review, conducted with the National Heritage 
Area Coordinator for the Pacific West Region, we find that the 
Mountains to Sound Greenway National Heritage Area Feasibility Study 
(March 2012) and Addendum (May 6, 2014) meet all feasibility study 
assessment criteria.
    The May 6, 2014 Addendum specifically meets criteria 1, 2, 5, and 9 
by (1) establishing that the proposed Mountains to Sound Greenway 
National Heritage Area is nationally important for its association with 
the expansion of our national transportation system and the creation of 
our modem timber industry; (2) identifying three themes associated with 
the region's national importance and a strategic assemblage of 48 
national important historic resources and 12 natural resources; (3) 
demonstrating that there are ongoing traditions, customs, beliefs, and 
folklife that are a valuable part of the region's national importance; 
and (4) justifying the proposed boundary in relation to the strategic 
assemblage of resources and opportunities for conservation, recreation 
and education, as well as public interest in national heritage area 
designation.
    Congratulations! We recognize the hard work that went into the 
reassessment of and revisions to sections of the Addendum. It has been 
a pleasure working with Doug Schindler, Elizabeth Lumley, and Ben 
Hughey on your staff, as well as meeting Board President, Bill Chapman 
and Executive Committee Member, Janet Ray.
    We wish you success as you work towards designation and building 
interest in the national importance and historic resources of the 
proposed Mountains to Sound Greenway National Heritage Area. If you 
would like further information about the review process, please contact 
me at (202) 3542222. For technical assistance related to heritage 
projects or preparations of management planning, please contact Linda 
Stonier, Heritage Area Coordinator for the Pacific West Region, at 415-
623-2322.
                                 ______
                                 
   Statement of Joe Taylor, President/CEO, Quad Cities Convention & 
                Visitors Bureau, Moline, IL, on S. 2346
    The Quad Cities Convention and Visitors Bureau promotes tourism for 
Davenport/Bettendorf, Iowa and Rock Island/Moline, Illinois and 
supports S. 2346 to create a new category of discovery trail for the 
National Trails System and to designate the American Discovery Trail as 
the first trail of this kind.
    The ADT runs coast to coast from California to Delaware and passes 
through the Quad Cities as it goes across Iowa and Illinois. The Quad 
Cities has an extensive local trails system that already connects to 
the ADT route and would increase tourism to the Quad Cities as the 
trail becomes the equivalent of the interstate highway system for 
bicyclists.
    The Quad Cities Bicycle Club, Bi-State Regional Commission, Rock 
Island County, the City of Rock Island, the City of Moline, the Village 
of Carbon Cliff, Henry County and the Henry County Economic Development 
Partnership all have endorsed the ADT and its addition to the national 
trail system.
    The bureau and its partners encourage passage of S. 2346 to advance 
trail development for the nation.
                                 ______
                                 
   Statement of Ralph ``Terry'' Scanga, Jr., General Manager, Upper 
            Arkansas Water Conservancy District, Salida, CO
    Dear Senator Udall;
    As you are aware the Upper Arkansas Water Conservancy District 
negotiated particular language to be included in the authorizing 
legislation in order to provide protection of water rights in the 
Browns Canyon area as well as future water rights development in the 
Arkansas River. The purpose of this letter is to summarize those 
protections.
    The protections include language that precludes the Federal 
Government from imposing a reservation for water rights within the 
proposed National Monument or the Wilderness areas and interferring 
with the exercise of existing water rights within that area. Further 
the Arkansas River, no matter at what level, is excluded including the 
waters of the river.
    Also of significant note is that the included area does not 
encompass areas where existing water right diversions are located and 
therefore will not interfere with the operation and maintenance of 
those structures that appropriate water from the Arkansas River.
    I appreciate you and your staff taking the tune and effort to 
respond to our concerns in the protection of the water resources of the 
Upper Arkansas Basin.
                                 ______
                                 
 Statement of Ken Rosevear, Executive Director, Yuma County Chamber of 
                           Commerce, Yuma, AZ
    Dear Senator McCain:
    On behalf of the Yuma County Chamber's 850 members, I am writing to 
express my strong support for the reauthorization of the Yuma Crossing 
National Heritage Area. Since its inception in 2000, the Heritage Area 
has had an enormously positive impact on the economy and landscape of 
Yuma. In particular, it was the driving force to reclaim and revitalize 
seven miles of riverfront along the Lower Colorado River. It led the 
effort to save Yuma's state historic parks when Arizona State Parks had 
scheduled their closure due to state budget cuts in 2010. It has 
leveraged a small federal investment of National Park Service funds 
into a total public and private investment on the riverfront of more 
than $100 million.
    You will hear from some in Washington ``think-tanks'' ( but not in 
Yuma) about certain as yet unspecified ``threats of private property 
rights''. I cannot speak for all Heritage Areas, but here in Yuma, the 
Heritage Area has not only scrupulously respected private property 
rights but has also encouraged and facilitated significant private 
investment along the riverfront.
    The loss of the Yuma Crossing National Heritage Area would be a 
terrible set-back for our community, just as we attempt to recover from 
the deep national recession. We thank you for having spearheaded the 
original designation, and request that you help us preserve and 
maintain the progress our community has made over the last 13 years.
                                 ______
                                 
   Statement of Gregory S. Ferguson, Chairman, Yuma County Board of 
                         Supervisors, Yuma, AZ
    Dear Senator McCain:
    On behalf of Yuma County, I want to add my support for the 
reauthorization of the Yuma Crossing National Heritage Area through 
2030. We are particularly appreciative of the way the Heritage Area has 
worked in close partnership with so many sectors of our community. It 
has all been based on voluntary and cooperative efforts with business, 
farmers, non-profit groups and government agencies. The changes along 
the Colorado River can only be described as amazing.
    We need the Heritage Area to continue to manage the Yuma East 
Wetlands and the state historic parks, so that the riverfront continues 
to thrive. This is a really cost effective investment of National Park 
Service funds, which are being leveraged at a rate of 5:1.
    We will follow up with a formal resolution from the Yuma County 
Board of Supervisors. We very much appreciate your continuing support 
for the Yuma Crossing National Heritage Area.
                                 ______
                                 
Statement of Patricia Ware, Chairwoman, Yuma Crossing National Heritage 
                   Area Executive Committee, Yuma, AZ
    I am writing to express my concern about the Heritage Foundation's 
continuing allegations that the Yuma Crossing National Heritage Area 
(YCNHA) is some terrible threat to private property rights. It is 
simply not true.
    Many years ago, there was some misunderstanding within our 
community about this issue. i am a landowner who was included within 
the original boundary designation of the YCNHA. As a Farm Bureau 
member, I was appointed to represent the Farm Bureau at YCNHA Board 
meetings. The Farm Bureau and YCNHA worked closely together to resolve 
any outstanding issues. I attended every meeting until the boundaries 
were amended by Congress through H.R. 326 on October 11. 2005. No one 
else from these other groups doing all the complaining ever attended a 
single meeting. They were, however, kept informed of all meetings and 
actions.
    Part of the resolution between the Farm Bureau and the YCNHA was to 
bring people like myself who are original homesteaders and farmers in 
this community onto the Board. I became a board member in 2005, and now 
serve as the Chairwoman of the Board of Directors.
    My wish is that the individuals ``stuck in the mud'' on this 
particular part of YCNHA's history take time to ask people such as 
myself who were involved directly. Please stop ``harping'' on self 
serving half truths and look to the actual events. Please feel free to 
contact me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="33435247445241565552415e40734a525b5c5c1d505c5e">[email&#160;protected]</a>, and I will provide any 
information you request to support the truth on this matter.
    Ask anyone in Yuma about the Heritage Area, and you will find very 
strong support for the efforts to reclaim our riverfront on the 
Colorado River. We have built two riverfront parks, seven miles of 
multi-use trails, restored 400 acres of wetlands, and spurred over $30 
million of private investment in the downtown riverfront. Our most 
recent effort was to save two state historic parks from closing and to 
take over their operations by raising $70,000 in community donations in 
a 60 day period. This has all been done on a strictly voluntary and 
collaborative basis.
    I will not speak for all National Heritage Areas, but you have the 
Yuma Crossing all wrong. Perhaps getting out of Washington, DC and 
actually seeing what is going on would do the Heritage Foundation some 
good. I invite you or your staff to come to Yuma and find out the 
facts. Until then, I ask that the Heritage Foundation stop with the 
groundless allegations.
    Private property rights are the fundamental basis of our way of 
life (farming). However, so is the truth. What you keep dredging up and 
re-circulating is not the truth. Please give this letter your 
consideration and know all the facts stated are true and documented.
    I ask you to please move on from this tedious, untrue, and ongoing 
criticism of the Yuma Crossing National Heritage Area, and instead 
focus on other subjects that are more current and warrant your concern.

                                    



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
